<html>
<title> - INCREASING CARBON SOIL SEQUESTRATION ON PUBLIC LANDS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
         INCREASING CARBON SOIL SEQUESTRATION ON PUBLIC LANDS

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, June 25, 2014

                               __________

                           Serial No. 113-79

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                 ___________
                                 
                                 
                                 
                            U.S. GOVERNMENT PUBLISHING OFFICE
88-505 PDF                      WASHINGTON : 2015                            
          
___________________________________________________________________________________          
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  

         
          
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Raul R. Labrador, ID                 Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Jared Huffman, CA
Jason T. Smith, MO                   Vacancy
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 25, 2014.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
    Grijalva, Hon. Raul, a Representative in Congress from the 
      State of Arizona...........................................     2

Statement of Witnesses:
    Martin, Tommie, Supervisor, Gila County, Arizona.............    33
        Prepared statement of....................................    34
        Additional testimony submitted for the record............    42
    Rich, Steven H., Salt Lake City, Utah........................     4
        Prepared statement of....................................     5
        Questions submitted for the record.......................    14
    Teague, Richard, Texas AgriLife Research, Vernon, Texas......    20
        Prepared statement of....................................    22
        Questions submitted for the record.......................    29
    Wick, John, Co-Founder, Marin Carbon Project, Palo Alto, 
      California.................................................    51
        Prepared statement of....................................    52

Additional Materials Submitted for the Record:
    Carbon Cycle Institute/Marin Carbon Project, Jeffrey A. 
      Creque, Ph.D., Director, Rangeland and Agroecosystem 
      Management, July 4, 2014, Letter submitted for the record..    73
    Fleischner, Thomas L., Ph.D., Director, Natural History 
      Institute & Professor of Environmental Studies, Prescott 
      College, Prescott, Arizona, Prepared statement of..........    72
    List of documents submitted for the record retained in the 
      Committee's official files.................................    76
                                     



  OVERSIGHT HEARING ON INCREASING CARBON SOIL SEQUESTRATION ON PUBLIC 
                                 LANDS

                              ----------                              


                        Wednesday, June 25, 2014

                     U.S. House of Representatives

        Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop; Grijalva, Holt, Garcia, 
and Huffman.
    Mr. Bishop. All right, the hearing will come to order. The 
Chair recognizes the presence of a quorum--barely.
    The Subcommittee on Public Lands and Environmental 
Regulation is meeting today to hear testimony on increasing 
carbon soil sequestration on public lands. Under the Rules, the 
opening statements are limited to the Chairman and Ranking 
Member. However, I ask unanimous consent to include any other 
Member's opening statement in the hearing record, if submitted 
to the clerk by the close of business today.
    [No response.]
    Mr. Bishop. And, hearing no objection, so ordered.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. I have long been impressed by the success of 
some of our agricultural operations in my state. The Utah 
Deseret Ranch, for example, is admired for both its solid 
economic performance, as well as the ways it has improved the 
environmental quality of the land. Recent scientific research 
on how plants sequester atmospheric carbon in the soil and the 
benefit that it provides are verified wisdom of this ranch's 
management regime.
    So, we are learning that scientifically managed grazing can 
increase soil carbon sequestration, and lock it away for long 
periods, while also increasing the land's productivity and 
cattle, and wildlife, and natural resilience.
    Today we are going to hear from rain scientists and other 
experts on the state of the science and the real-world results 
that occur when these new management regimes are put into 
practice. We are also going to hear whether or not these 
practices are more widely applicable on the public and private 
grazing lands, and whether or not the benefits of improved 
grazing techniques can be achieved on an economically sound 
basis. And if the answer is yes, then atmospheric CO2 
sequestration in soils holds the potential to be an 
exceptionally cost-effective way to address many of the 
concerns of those who see climate change as our overriding 
threat.
    If pulse grazing and other related agricultural practices 
really will sequester carbon while also increasing soil health, 
drought tolerance, biological diversity, and resistance to 
wildfires, we truly have a win-win situation.
    Now, importantly, unlike some policies that are advocated 
by those who see catastrophe only, the changes in agricultural 
practices called for by today's witnesses will neither further 
bind our economic activity nor will they reduce our freedoms, 
but will increase the productivity of agriculture on public and 
private lands, without adding more bludgeons and back-saddles 
to the arsenal of regulatory overloads here in Washington.
    With that, Mr. Grijalva, do you have an opening statement 
you would like to make?
    Mr. Grijalva. Thank you, Mr. Chairman, I do.

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thanks again for holding this hearing, and 
for allowing us to make an important--to have an important 
discussion on climate change, and what could be done to 
mitigate the impacts of manmade greenhouse emissions. While we 
do not agree on the exact premise of the hearing, we do feel it 
is important to have a direct conversation about climate 
change. And this hearing validates that it does exist, and that 
steps must be taken to mitigate that.
    Climate change is not a democratic, liberal, or even a 
regional-specific issue. It is a bipartisan issue that affects 
the entire world, and Congress cannot afford to ignore it.
    Former George W. Bush Treasury Secretary Hank Paulson 
published an Op-Ed earlier this week in the New York Times. He 
warns of a climate bubble, wrecking havoc on our economy and 
environment, and urges immediate action. Climate change is 
bigger than winning elections or scoring political points. It 
is our society's biggest challenge. Primarily thanks to the 
executive action under President Obama, we are making some 
serious advances to offset and limit carbon emission, but there 
is much more we need to do. This hearing is a good place to 
start.
    President Obama's 2013 Climate Change Action Panel 
highlighted the carbon storage potential of our public lands--
and there may be opportunities to improve our storage capacity 
with prescribed grazing techniques, as we will hear today from 
today's witnesses. Unfortunately, it is not that simple. 
Grazing comes with baggage.
    As we saw with the recent Bundy debacle in Nevada, grazing 
on public lands can be a very contentious issue, to say the 
least. Talking exclusively about grazing and carbon soil 
sequestration sidelines, the most critical aspect of public 
land grazing. Ranchers on public lands pay a $1.35 per animal 
unit, a rate that is substantially lower than many private and 
state lands. It is so low that the Federal Government pays more 
to manage the grazing program than it receives--than it 
received in return through fees.
    The artificially low fee is a taxpayer subsidy to the 
grazing industry, and that does much more harm than good. In 
Fiscal Year 2004, the last time the Government Accountability 
Office studied grazing, the BLM and Forest Service spent $115 
million more than was collected in fees. If we are going to 
have a realistic conversation about grazing and how it can or 
cannot improve carbon soil sequestration, we have to talk about 
all aspects of Federal grazing programs, including the 
ridiculously low fee.
    Bundy made grazing both a viral and toxic issue, but we 
can't walk away from the reality. Taxpayers, our constituents, 
are being ripped off, and we are not doing anything about it. 
Welfare queens like Bundy are--with a million dollars in old 
grazing fees, continue to use the public lands at no expense to 
them or to that industry.
    Whether this hearing is about climate change or grazing on 
Federal lands, there is more that this committee needs to do. 
We need to hold hearings and consider legislation, both about 
how we reform grazing and how we deal with--and climate change. 
Committee Democrats have requested several hearings on aspects 
of climate change, an issue that is particularly salient for 
those of us who come from the West, the arid West, in my 
portion of the country. We did not request this hearing, but 
hope that it signals the end to the moratorium on climate 
change-related hearings. I look forward to hearing from our 
witnesses.
    At the appropriate time, Mr. Chairman, with your 
concurrence, if Mr. Huffman could introduce Mr. Wick, who is 
from his district. And I yield back.
    Mr. Bishop. I am excited to have the four witnesses who are 
here on this particular panel that are going to help us to 
think differently about some of these issues we have had 
before, which is what we desperately need.
    So, I am happy to introduce at the panel already, Mr. 
Steven Rich from Salt Lake City; Dr. Richard Teague, from 
Vernon, Texas, from the Texas AgriLife Research; Supervisor 
Tommie Martin from Gila County in Arizona; and Mr. John Wick, 
from Palo Alto, the Marin Carbon Project, who I believe, Mr. 
Huffman, is your constituent. And if you would like to give a 
further introduction, I recognize you now for that.
    Mr. Huffman. Well, thank you very much, Mr. Chair and 
Ranking Member Grijalva. Thanks for having this hearing. I 
think we are in for a very interesting discussion this 
afternoon. And it is my great pleasure to welcome my friend, 
John Wick, from Nicasio Native Grass Ranch. He is the co-
founder of the Marin Carbon Project, which, I am proud to say, 
is located in my district, and I believe is doing some truly 
pioneering work on this subject.
    The Marin Carbon Project is a consortium of agricultural 
institutions and producers in Marin County that includes a 
suite of university researchers--that is the Palo Alto 
connection--and also county and Federal agencies and non-profit 
organizations.
    The overall vision of the project is for land owners and 
land managers of the agricultural ecosystems to serve as 
stewards of soil health, and to undertake carbon farming in a 
manner that can improve on farm productivity and viability, 
enhance ecosystem functions, and, believe it or not, thinking 
very big, these folks believe you may even be able to stop and 
reverse catastrophic climate change. Through their innovative 
and extensive research, John and his collaborators have 
demonstrated that practices, seemingly simple practices, such 
as applying compost to topsoil, can have powerful impacts, 
increasing carbon storage on agricultural lands.
    So, Mr. Wick, thank you so much for being here, and thanks 
for your leadership and expertise. I look forward to hearing 
more about the pioneering work and research coming out of the 
Marin Carbon Project.
    And I thank you, Mr. Chair.
    Mr. Bishop. Thank you. Now we will get to the people who 
know what they are talking--go actually to the panel 
themselves. We will start with Mr. Rich and just go down from 
left to right.
    Everything that you have written is already part of the 
record. We appreciate that. Anything you want to add to it will 
easily be added as part of the record. This 5-minute oral 
presentation part is limited to 5 minutes, and then we will 
have, obviously, other times to ask your questions where you 
can go on.
    I would ask you to watch the monitor in front of you. When 
it is green that means everything is kosher and wonderful. When 
it goes to yellow, you have 1 minute, so talk really fast. And 
when it goes to red, that is when I ask you to stop.
    So, with that, Mr. Rich, your written testimony is there, 
we are ready for your oral testimony. You are recognized.

       STATEMENT OF STEVEN H. RICH, SALT LAKE CITY, UTAH

    Mr. Rich. Thank you, Mr. Chairman, Ranking Member Grijalva, 
members of the committee. Thank you for this opportunity. I 
would particularly like to compliment Chairman Bishop for 
recognizing the potential of what we are here to present today 
to improve the public forests and range lands, while also 
sequestering vast amounts of atmospheric carbon.
    I am President of Rangeland Restoration Academy, but I am 
testifying here as an individual, not on behalf of the Academy. 
I draw on over 40 years of experience as a rancher, author, 
environmental and resource management educator, and as a 
consultant on ranching rangeland and forest management. For 
several years, the Academy and others have been developing what 
we are convinced is a win-win solution to the current 
controversy over how to deal with rising atmospheric CO2 
levels. I want to stress that we speak from solid experience 
and extensive research.
    This approach is proven, widely demonstrated, cost-
effective, rapidly scalable, and extraordinarily beneficial, 
both economically and environmentally. In fact, compared to all 
other options, I am convinced it is the only practical, 
economic, and politically viable option for dealing with CO2. I 
have laid out the case supporting these assertions in more 
detail in my submitted statement. But in these few minutes let 
me give you a sense of the scope, potential, and benefits of 
this win-win solution.
    The key to this approach is optimizing the natural process 
of soil carbon sequestration that has existed as long as there 
have been terrestrial green plants. Soil carbon is the basis of 
ecosystem health. Biodiverse grasslands, grass shrub lands, and 
grass grazable woodlands store much more total carbon in a much 
more stable form than any other ecosystems. Proper grazing is 
the key to the health of these ecosystems. Recent research and 
worldwide, on-the-ground experience have given us a much better 
understanding of how optimizing livestock and wildlife grazing 
work as a necessary part of a health soil community made up 
also of plants, symbiotic fungi, microbes, and other soil 
organisms, all acting together to greatly accelerate carbon 
sequestration.
    The scope is immense. We can now calculate that it is 
completely possible to sequester in the soil all of the CO2s 
released in the atmosphere by human activity since the 
beginning of the Industrial Revolution to the present time. Dr. 
Teague is among the scientists whose work verifies this 
potential.
    In addition to solving the CO2 emissions issue, there are a 
number of other benefits. These include increased forage for 
wildlife and livestock, improved wildlife habitat, enhanced 
ability to recover threatened endangered species, increased 
biodiversity generally, restoration of healthy watersheds, 
improved utilization of natural precipitation to help better 
deal with droughts, better water quality, enhance flood 
control, and others.
    The same techniques will vastly improve forests as CO2 
sinks have added benefit of greatly reducing the risk of 
massive megafires that are now releasing massive amounts of CO2 
and methane into the atmosphere annually. Supervisor Martin has 
personal experience with this, and will address it in more 
detail.
    All of these benefits can be achieved on the public lands 
and forests with relatively minor changes, and current 
management practices. The Academy is developing the proposal 
that the Federal Government set an example for the world and 
sequester the worldwide carbon footprint of the Federal 
Government on the public lands and forests. It can be done, but 
I am convinced that to do this, or anything else of value, it 
will require Congress to direct that these management changes 
be made.
    The unfortunate reality is that many current Federal 
rangeland and forestry management policies not only prohibit 
these best management approaches, but in many circumstances are 
actually accelerating the deterioration of the rangeland and 
forest hills.
    In summary, Mr. Chairman, what I am now advocating is not 
new. And, in fact, in many ways it mirrors the most successful 
management practices of Native Americans. They preserve the 
biodiversity that has been steadily eroding since European 
settlement. It works with nature to restore ecosystem 
integrity. The many benefits to the public lands will then 
automatically follow. Much of our public lands are rapidly 
deteriorating under present management. This approach may well 
offer the last, best chance to reverse that trend and deal with 
a divisive and contentious political issue at the same time. 
There really is no downside to this approach. Much more 
information is posted on RangelandRestorationAcademy.org, 
including the longer written statements of these witnesses.
    I look forward to discussing this further with the 
committee.
    [The prepared statement of Mr. Rich follows:]
       Prepared Statement of Steven H. Rich, Salt Lake City, Utah
    Mr. Chairman, I wish to thank the committee for this opportunity to 
share some of the best possible news those who care about Federal 
public lands, our Nation and the future could receive. I wish 
especially to thank you, Mr. Chairman, for recognizing the potential of 
soil-carbon-based ecological restoration principles to the future of 
Federal lands and that of the world.
    While I will refer in this statement to the work of the Rangeland 
Restoration Academy, which I serve as president, I want to make it 
clear that I am testifying here as an individual, not representing the 
academy. As you will see, I think instituting various aspects of the 
policies which will increase atmospheric carbon sequestration on the 
public lands will require legislative action by Congress and the 
academy does not engage in lobbying or political activities.
    We have described atmospheric CO2 sequestration in soils as a 
``Win-Win Solution'' because it genuinely bridges the wide, divisive 
sometimes shrill divide over climate change and its causes. For those 
who feel that rising atmospheric CO2 levels are a lethal threat to 
humanity and nature--it should be truly wonderful news that the clear, 
scientifically established potential to actually solve the problem--
planet-wide--really exists. This is done simply by using a few optimal 
management changes--which are proven to create genuine ecological and 
biodiversity restoration and vastly increase carbon-sequestration! It 
has the added advantage that, in my opinion, this is the only 
political, economically proven solution that can be instituted within 
the timeframe that those concerned about climate change say must be 
met.
    The fact is that some agriculturists have for many years been doing 
things that greatly accelerate the rate of the land-based carbon sink's 
photosynthesis-sourced soil storage on rangelands, farm lands and 
grazable woodlands! This can be ramped up to the point of securely 
sequestering all human-sourced carbon emissions from the beginning of 
the Industrial Age to the present day.\1\ This should be met with 
universal rejoicing--not least because soil carbon is the basis of 
ecosystem health.
---------------------------------------------------------------------------
    \1\ Dr. Christine Jones and others make this statistical projection 
of a near-term worldwide solution using various sequestration rates and 
assumptions, based on worldwide experience.
---------------------------------------------------------------------------
    On the other hand, those who object to very painful economic damage 
imposed by an emissions-control based policy--which will most certainly 
be quickly overwhelmed and negated by emissions from India, China and 
elsewhere--should also be very happy. They can solve their 
``opponents'' problem by healing nature. All people of good will love 
nature. Soil carbon sequestration genuinely and sustainably restores 
vast, long-lost biological and economic potentials--making positive 
differences of an order of magnitude and more. There is no rangeland or 
forest problem that is not improved by optimal soil relationships and 
more soil carbon. Public lands which can rapidly store carbon also make 
the difference between thriving rural economies in public land states 
and a series of dependent, impoverished economic basket cases whose 
young people must move away.
    CO2 sequestration in soils is accomplished by the most ancient of 
plant processes--making sugar through photosynthesis. On land, ``sugar-
for-minerals and water'' trading alliances between photosynthetic algae 
and fungi, such as in lichens, soon developed. Modern scientific 
discoveries about almost universal, win-win symbioses between complex 
plants and certain fungi--the ``Liquid Carbon Pathway''--have allowed 
us to understand how leading livestock operators, farmers and 
researchers have managed to restore soil carbon levels from perhaps .5 
percent to 5 percent (which represents a 1,000 percent increase in 
water-holding capacity) in a decade or less--vastly less time than 
anyone, including the ``experts,'' supposed.
    Glucose (simple sugar)--made in a plant's leaves from sunlight, 
water, and CO2--is routed in liquid form through the plant's supporting 
tissues to its roots. Some of this is simply flooded out from root-
hairs into surrounding soil for the support of nitrogen-fixing 
bacteria, etc. and other plants. Most plant's roots allow fungi's root-
hair-like hyphae to enter them. The fungi have connections to myriads 
of further-specialized soil bacteria and other organisms which trade 
the mineral, etc. results of their specialties with the fungus. Since 
fungus-connected plants get much-increased mineral nutrition and water 
through the support of this complex, fungal-connected symbiosis, plants 
tied to such ``fungal guilds'' (again, trading alliances) are able to 
produce up to 40 percent more ``photosynthate'' (sugar) to support 
themselves and the rest of the soil community than are lone plants. The 
symbiosis often involves many thousands of plants exchanging nutrients 
through ``fungal mats'', one of which may cover several acres. ``Long 
Fallow Disorder'' describes the puniness of crops grown in soils 
lacking proper fungi and other soil-symbionts--where the mats have 
died.
    Within the vast soil volumes occupied by these mats, one recently 
discovered, sticky ``glycoprotein'' (made of protein and sugar) called 
glomalin, coats massive tonnages of the fast-growing, short-lived 
hyphae of VAM (Vesicular Abuscular Michorrhyzae) fungi. Glomalins from 
dead hyphae stick soil particles together in discrete globules--
creating life-necessary ``soil structure'' which allows air and water 
to both penetrate and collect. They create the sweet smell from dark, 
rich soils. Glomalins make up a significant part of soil carbon. With 
the mineral-getting help of bacteria stimulated by liquid carbon, these 
and grazing-stimulated pulses of remains from dead plant roots and 
other soil life (78 percent of the total) are quickly ``humified'' in 
tough, plastic-like long-chain polymers (sort of like brown coal), in 
highly water-stabile forms that can last thousands of years. The deeper 
in the soil structure they lie, the more invulnerable they are.
    Ranchers in tall-tree locations (perhaps 20 inches precipitation) 
report 2 to 15 tons and more of CO2 sequestered per acre annually, 
depending on several variables. The above sequestration figures, for 
example, come from recovering, once-degraded soils with an apparently 
accelerating deep-sequestration trend. This range is widely documented 
to be more than the animals respire, etc.
    Less rainfall and shorter growing seasons do mean less 
photosynthesis--so, less carbon stored. But that's where the soil 
carbon magic kicks in. Annual growth of a dry-climate (let's say 8 to 
10 inches precip.) short-grass like Blue Gramma or Sand Drop-seed can 
vary by 1,000 percent or more. With fungal-guild help--the growth 
varies less and has higher averages. Functionally, grazing animals are 
an indispensable, key part of fungal guilds, when properly managed. 
Simply stated, the greater soil symbiosis activity triggered by grazing 
animals that eat, dung and urinate on a site for a brief time--then 
leave until plants grow back grazed their tissues--make the plants and 
the soil community bigger and healthier.
    The term ``Pulse Grazing'' (root pulses, above) describes grazing 
methods designed to optimize the natural deposition of tremendous 
tonnages of dead root hairs, etc. in soils--caused in nature by any 
removal of living, above-ground grass, etc. tissue (grazing, fire, 
insects, disease, etc.)--and by their death due to normal seasonal 
dormancy or drought. These root hairs, etc. are replaced during growing 
seasons. They grow back into improved, more carbon-rich soils, and are 
necessary to soil carbon storage and to feed decomposer organisms in 
the humification process.
    Timing is critical, both in terms of length of the grazing event 
and the length and recovery effectiveness of the prolonged rest periods 
between grazings. The concept includes pulses of grazing and resulting 
dung, urine and animal hoof track deposition, etc., designed to both 
simulate natural effects of migrating herds and simultaneously cause 
great, cyclic increases (pulses) of bird, insect, fungal and other 
populations in response to these concentrated resources. Pulses of 
seedlings are also produced, supplying a steady stream of new plants to 
fill open or expanding niches.
    These relationship dynamics, in time, allow the site to transcend 
progressively higher biological thresholds without more precipitation--
progressing from bare ground and dry-country-adapted annuals, to 
struggling, weak perennial xerophytes (desert plants) to strong 
specimens of the same species groups, to a more complete xerophytic 
community with many species, located in less-productive sites--to 
taller xerophytes in better sites--then to the spread in favored 
locations of more mesic species (requiring damper soils--like western 
wheatgrass)-- even to hydrophytes (water-loving, riparian species) as 
watersheds heal.
    In wetter regions and higher-altitude areas, managing livestock by 
methods described below also create this entirely natural, ``no-cost'', 
very profitable, restoration of native plant, etc. biodiversity. In 
Missouri, for example, locally extinct Tall Grass Prairie plant species 
have returned to played-out, eroding, carbon-poor farm soils by 
ranchers simply controlling timing, intensity and frequency of 
livestock grazing in response to weather, etc. (in pulses). These 
species typically have a 12 foot deep root zone and can sequester 
carbon at great depths in very high volumes. There are public lands in 
the East and other locations where these and other highly productive 
plants are native (In the West, stands of Great Basin Wild Rye Grass, 
Giant Sacaton and other tall species reach up to 9 feet in height and 
have very deep roots).
    Without planting a single seed, without using a tractor, any 
fertilizer, herbicide, etc. (all normally used when introducing Tall-
Grass species) the ranchers simply let whatever weeds and grasses 
remain in the poor soils to grow--as high as 6 feet and more, let the 
highly concentrated livestock eat some and trample the rest, covering 
and protecting the soil from that time forward. This sets the stage for 
a series of other species--as above. As fungal mats and soil life 
communities and processes reestablished in the natural course of these 
scientifically guided, adaptive operations (guided primarily by the 
landowner) the Tall Grass species reappeared--by themselves! They grew 
from ``hard seed''. Hard seeds are plants' ``species survival time 
capsules'', genetically programmed to remain long-dormant in soil seed 
banks, germinating only when highly favorable soil conditions 
reappear--in this case after a hundred years.
    The community's biological processes move toward the optimal in 
response to ``simulated native animal behavior''. This optimized, 
``naturalized livestock'' grazing behavior--within many fungal guilds, 
is absolutely necessary in forming very large versions of what 
researchers Augustine, McNaughton and others call ``grazing lawns''. 
This works best of all when stock are trained to eat a variety of 
``less-desirable'' plants--thus removing semi-toxic plant's competitive 
advantage versus grasses, etc. (Yes, livestock can indeed be trained to 
engage in certain grazing behaviors.
    Overlapping grazing lawns represent an extremely valuable 
restoration opportunity for most adapted native organisms. Optimizing 
(generally, shortening) the time of plant's exposure to grazing pulses 
by domestic stock, limiting grazing to moderate levels, and evening out 
the grazing pressure per acre deeply minimizes risks to plant survival. 
It also periodically ``jump-starts'' the fungal guild and functionally 
joins separate grazing lawns into ``grazing lawn areas'' of hundreds to 
thousands of acres.
    Grazing lawns have higher-carbon, high-nutrient-level soils, 
therefore--unlike dry-climate soils without grazers-- they produce 
plants of high nutrient value for animals. These--though grazed, are 
not grazed so repeatedly as in unmanaged nature--so plant diversity is 
not limited--as it is in unmanaged sites--to species having the highest 
grazing tolerance.
    These optimally managed landscapes typically produce growing--even 
locally dominant--populations of species like high-value grasses, 
shrubs and forbs (flowers) which poorly tolerate repeated grazings 
without sufficient recovery time. These ``progressively restored'' 
landscapes are produced by grazer/plant/fungal-guild relationships 
which--very often--cannot occur at all without active, skilled, human-
intelligence-directed grazing management. Such management always 
includes adaptive, highly variable livestock herd sizes and other 
strategies to mitigate the effects of highly variable rainfall, etc.
    More soil carbon means bigger plants, more seed production and 
therefore more seedlings and closer plant spacings--cooling the soil 
and facilitating further sequestration. As a growing series of positive 
feedbacks continue to occur and strengthen, the site will be 
progressively colonized by larger grasses (etc.)--like the Sand Drop-
seed's much larger cousins (3 to 4 feet tall), Tall Drop-seed or Spike 
Drop-seed. These have much deeper root systems, provide more leaf-
litter when trampled and more shade when standing, cooling the soil 
further.
    Cooler soil greatly benefits carbon storage and all other biology. 
Taller grasses and forbs can draw water and nutrients from deeper soil 
layers. So, then, can the fungus and the guild--and carbon-storage goes 
even deeper. When this happens, average production on the above 8" to 
10" rainfall site--and all wetter ones--increases greatly. In dry lands 
this makes place for far more animals of far more kinds, such as 
insects, rodents, birds, deer, pronghorns, etc. This also means far 
less rainfall ``runoff'' (after a period of time almost none) and much 
more soil-water storage. Lands managed in this manner do not experience 
droughts as being as functional severe as lower-carbon lands and are 
far more resilient.
    Fortunately there has been significant progress in remote sensing 
technology using satellite image data. This can even act as a ``Time 
machine'' documenting plant community changes since the 1970s. When 
known management changes result in huge meadow expansions into former 
sagebrush, for example, when such has not happened on adjacent ranches, 
this can be explained in terms of improved watershed conditions--which 
always means more soil carbon. Changes in density as well as growth or 
shrinkage of various plant species populations can be derived from the 
data and correlated to carbon levels under various plant communities 
through ``ground truth'' sampling. This should lead to effective soil 
carbon level carbon monitoring on public lands by averaging samples 
taken in similar communities on vary large acreages. It effectively and 
economically allows good monitoring of carbon sequestration rates on 
landscape scales.
    Federal agencies are required to document the condition of the vast 
public lands. Those in ``fair' condition and better are able to 
sequester soil carbon at varying rates. A tragically large percentage, 
however, that is now in degraded states, actually lose soil carbon to 
the atmosphere due to erosion and other processes. By contrast, well-
managed Aspen groves, for a positive example, can produce over 2,000 
lbs. of herbaceous understory biomass per acre in addition to the tree 
tissue above and below ground. The combined sequestration potential is 
immense. Clearly, Aspens and herbaceous plants coexist as supportive 
symbionts.
    In every non-wetland location, higher soil carbon means more soil 
water. In most ways, this is the functional equivalent of being in a 
higher rainfall zone. But, in Western Federal lands which have 
degraded--often due to policy errors described by Dr. Teague, and 
others related to woody-species management (following), this soil water 
rescue must now begin at the very-harsh, bare-soil-surface level before 
soil carbon sequestration can proceed again. One source of documented 
degradation is massive, west-wide increases in the stem density and 
canopy cover of semi-toxic woody shrubs and tree species like conifers 
and sagebrush. When the least-healthy end of these burn, they degrade 
far further, still because of the negative effects on the soil.
    These dense stand structures were triggered by several causes, 
among them pioneer-era, etc. overgrazing, followed by very active fire 
suppression after the mass-removal of most semi-toxic-woody-plant-
eating sheep and goats, plus the simple competitive advantage of being 
taller and less-palatable-to-animals.
    Fact: as these stands thicken beyond functional thresholds, they 
literally kill most other plants by hyper-competitive strategies. This 
means the end of the most productive grass-mycorrhizae pathway to soil 
carbon sequestration in very large areas. Springs dry up as a result. 
Entire perennial streams cease all but flood flows. Also, the animals 
that depend on these plants must leave or die. This catastrophe, 
unknown to the public and media, leads to 90 percent and greater losses 
in overall site-adapted biodiversity and triggers a cascading loss of 
biological values. Vast reaches of pinion/juniper woodland, sagebrush 
steppe, chaparral, etc. range sites are in such conditions. They are 
depauperate biological deserts.
    Too-dense tall conifer (firs, spruces, etc.) stands also have no 
grass, etc. understories. Studies published in ``Nature'' in 2008 
indicate that such thick, unmanaged (since 1930), ``wilderness-type'' 
conifer forests actually store around 30 percent less tree-tissue 
carbon than do far less-dense forests restored to the fewer, healthier, 
faster-growing and vastly more fire-safe, mainly large trees of ancient 
Native American management practices.
    Reducing tree densities to pre-Euro-settlement levels has also been 
shown to end the bark beetle scourge that has killed tens of millions 
of too-dense conifers. The deaths of these un-harvested trees must now 
set off a series of events leading to millions of acres of horrifyingly 
severe future ground fires burning in tens of millions of acres of 
then-fallen timber. Burning in perhaps hundreds of thousands of acres 
per fire event--most of these huge fuel loads of fallen, beetle-killed 
trees will certainly be completely consumed in close contact with 
soils--utterly sterilizing them--while killing any regrowth of 
conifers, aspens and other resprouters, as well as the herbaceous 
plants. This will, within hours, release all their combined carbon 
stores, including vast amounts of methane and nitrous oxides, into the 
atmosphere.
    Resulting from well documented deep soil sterilization and soil-
carbon-vaporizing effects of severe fire, the hydrophobic (water-
shedding) crusts they develop, with the massive 7- to 14-year flooding 
periods and huge soil erosion that develops as a result--it should be 
noted here that many hillslopes with southern and western exposures, 
for example, many never produce forests again. Mountain soils are often 
thin anyway. Severe losses may foreclose some potentials forever.
    Present, rapidly rising wildfire emissions in western states now 
typically equal those of the transportation sector. Again, the 
emissions from burning live trees are a small ratio of the totals 
almost instantly released in the much more damaging future fires 
described above.
    All resource management professionals know--and the Natural 
Resource Conservation Service, National Park Service, Forest Service 
and Bureau of Land Management acknowledge--that the loss of the grass-
forb ``herbaceous layer'' means vast increases in bare ground, high, 
bare-ground soil temperatures between woody plants, much-increased 
erosion, rapid surface (runoff) and subsurface losses of soil moisture 
and terrible losses of critical biological potentials.
    What some may not understand is this: ``Soil Degradation in Place'' 
also occurs. Simultaneous to the usual accelerated erosion common to 
bare ground between shrubs and trees; soil bacterial-consumption-caused 
losses of soil carbon continue in upper soil layers.
    The Park Service has undertaken some much-needed restoration 
efforts, even in Bandelier Wilderness and elsewhere. They removed most 
small-diameter trees and scattered the saw-slash to intercept sheet and 
rill flows of water on this degraded pinyon/juniper woodland--thus 
reestablishing the remnant herbaceous layer and restoring this 
sequestration pathway. Such efforts should be undertaken West-wide. The 
opportunity exists to use scientifically supplemented (nutrient 
supplements) goats to accomplish these treatments. Within a NEPA or 
NEPA-like protection framework, suitable sites could be opened to 
(closely controlled) commercial goat operators, which should pay no 
grazing fees while providing such a valuable ecological service. 
Biomass burning electro-generation and other stand thinning 
opportunities also have been proven worldwide.
    Present Federal policy as practiced tends to actively prevent what 
we are proposing today. Our proposed grazing strategies, for example, 
protect streamside riparian values and the health of uplands as a 
matter of their standard course. They make many standards and 
guidelines obsolete and destructive of the overall resource.
    During the last 30 years, it has increasingly become a career risk 
for Federal employees to support such efforts or recognize scientific 
facts. Any land-related policy from any organization which ignores 
basic biological facts in favor of political or other philosophy is 
fatally flawed and therefore destructive in its first principles. This 
``Blind Rage Against Livestock''--or against any human activity--has 
led to an atmosphere where blatant falsehoods are spread by Federal 
staff in NEPA and other documents.
    There are far too many instances to share here, but Federal 
scientists have claimed, for example, that cows eat several endangered 
fish species and their endangered fish eggs, step on the nests (redds) 
of endangered fish species that in fact do not make redds, claimed that 
dry washes were critical habitat for several endangered fish species, 
etc., etc.--all to hurt ranchers. The public, media and some 
environmental groups and by ignorant precedent, the courts, have 
inherited a belief that simply ``leaving such areas alone'' will lead 
to ecological recovery.
    This is a false, vain hope--and all competent professionals know 
it. Our proposals are based on the most basic, elemental matters of 
land management. Only the role of these particular fungi in soil carbon 
sequestration and some microbiology is in any way new knowledge. Having 
lost the grasses and the ability to retain rainfall without high runoff 
percentages, the hold the dominant woody species, the abiotic forces 
and structures like incised erosion patterns have on such places cannot 
generally be broken without human intervention.
    Earl McKinney (retired) and his BLM team, working with ranchers, 
famously restored perennial flow to a seasonally dry Oregon trout 
stream that had succumbed to thickening woody populations--in a very 
brief period. They cut invading Juniper trees and threw them into 
erosion features and otherwise placed them as sediment traps. The 
stream soon attracted beavers, and their dams raised soil-water 
levels--soon restoring lost meadows.
    Another laudable intervention practiced on the same principles 
described here is occurring in Marin County, California which is 
documented to be effective in soil carbon sequestration. We will hear 
extensive testimony about it in this hearing. Well-made compost is 
applied to rangelands grazed by well-managed cattle. This immediately 
cools the soil and provides nutrients for the soil food web (described 
in this piece). This can move the process forward by years. I am 
looking forward to hearing John Wick describe this project and the most 
recent developments.
    As a matter of information, similar work is ongoing at Fort 
Collins, Colorado, using cost-effective biosolids applications. I have 
seen the progression on the Fort Collins ranch from xeric Blue Gramma 
to dry-meadow spacings of far-more-mesic Western Wheatgrass (stems 
perhaps \1/3\" to \3/4\" apart) highly increased photosynthesis and 
plant biomass levels and a much longer green period, and completely 
shaded soils due to this treatment. It has also been used to similar 
experimental effect on the Rio Puerco drainage in New Mexico where 
native biodiversity and soil stability were also jump-started 
effectively, according to published reports. This has also been done on 
a very large scale at Sierra Blanca in west Texas, to similar effect. 
Doctors Dick and Pat Richardson of UT Austin were on the team 
monitoring the project. They reported years of positive results to me 
personally. Outlined by comparative barrenness of the surrounding 
areas, the green, carbon-storing, biodiverse project area can be 
actually be seen from space.
    For ``most resource recovery for the dollar'' economic reasons, 
limiting most ranchers--once range sites have reached degraded, high-
bare-ground-percentages--restoration of sequestration potential must 
proceed from hugely multiplying ``microsites''. I have seen 
establishment of multi-thousand acre native dry-country perennial grass 
stands in a single wet year by this method. Microsites are small 
locations where water and/or organic matter are able to collect and 
ameliorate (make life-friendly) the deadly to-seedlings and 
germination-preventing bare ground conditions. Making microsites works 
like a light application of compost or biosolids, but is not generally 
as continuous or as nutrient-laden.
    On 105 + F., fairly windless summer days--not uncommon in much of 
the West and Midwest--dark, dry, bare soils can reach 158 + F. and 
more. That's the temperature of well-done roast beef. No seedling can 
long survive such conditions. No seed will germinate without several 
days of moist soil.
    If created in grazing operations like those advocated here, by far 
the most cost-effective, easily placed and mass-producible microsites 
are livestock hoofprints. These, when in sufficient densities, roughen 
and pit the soil surface and function ``riffle-fashion'' to interdict 
the surface flow of water or air carrying the most valuable soil 
surface elements (like seeds) and force it to drop them. Herds easily 
break up and block erosion rills, can ``round out'' other erosion 
features and establish sediment-trapping grasses in their waterways. 
Tracks also force large percentages, often all, of moderate 
precipitation to stay in place in the germination and root zones. They 
are very effective seed-catchers. Without them there is little hope of 
reestablishing grasses, etc. in bare ground.
    Significant rainfall events loosen and transport high-quality 
organics from the edges of leaf-fall deposited at the drip edge of 
shrubs and trees. I have personally run experiments using a heater and 
variable-speed fan to simulate a periodic hot, dry wind's effects on 
native grass seeds in simulated bare-soil cow tracks and on bare, 
level, crusted soil. Equal amounts of water were applied at the same 
intervals. Equal amounts of chopped, dry grass and decomposed organics 
were applied upwind. The tracks retained most of the grass and other 
organics and caught nearly all of the water. The soil at the bottom of 
the tracks never dried. The seeds germinated. The grass blew off the 
flat soil surface. Much of the water ran off--carrying the decomposed 
organics. The trackless soil dried to the bottom of the deep trays. The 
seeds did not germinate.
    If we are really serious about reducing atmospheric carbon we must 
find ways to restore the effectiveness of lands which effectively 
stored soil carbon in pre-settlement days. This certainly can and 
should include the public lands, some of which because of their 
degraded and deteriorating condition are actually contributing CO2 to 
the atmosphere. Thick, unhealthy forests now grow in formerly grassy 
Native American ``Pine Savannahs''. They are rooted in soils which 
science has proven can only be produced under grass cover. On Arizona's 
Mogollan Rim in the late 1800s, General Crook reported moving cavalry 
in columns, ``many troopers abreast'' in grassy pine stands where 
thousands of trees per acre now shade the soils and exterminate 
grasses.
    The Federal Government has known about the consequences of 
thickening tree stands since the ``Light Burning Controversy'' of the 
late 1800s and early 1900s. Some foresters argued then for retaining 
Native American forestry methods using frequent cool-season ground 
fires of low severity to keep fast-growing forest structures open, 
maintain biodiversity and watershed function, and prevent forest crown 
fires.
    The ``Light Burner's'' (many of whom were timber-stand owners) lost 
the policy argument--their ideas scorned as ``Paiute Forestry''. Those 
favoring entirely mechanical European-forest-based methodology, using 
logging and direct thinning as the only management tools, actively 
prevented use of the centuries-proven Native methods. The forest 
densities got entirely beyond Government control. The Clinton 
administration and environmentalist lawsuits effectively ended this 
period by driving most timber-harvest out of the public forests.
    What they failed to realize is that after 100 years of building 
progressively greater fuel loads--so that there was far more live, 
standing dead and downed timber, etc. after logging ceased than before 
it began--their return to primarily fire-based management without 
transitional fuel load reductions would prove to be a horrendous 
calamity. Hugely destructive, hugely expensive mega-fires were 
triggered by exceeding forest-safety thresholds in the wave of 
enthusiasm. Contrary to the public's (and many Federal staffer's) 
beliefs, Federal data shows peak flood flows from the average 
Southwestern wildfire to be 2,300 percent + greater than from a 
CLEARCUT where all trees are removed.
    Fuel loads still grow by 11 percent a year. Restoration of the 
herbaceous soil-sequestration pathway can certainly be greatly 
accelerated by using a fraction of the Forest Service' budget-
dominating fire costs to restore lower Native American-era tree 
densities in a biodiversity-sensitive, strategic system of treated-
forest firebreaks as we restore the natural order. According to the 4-
FRI (Four Forest Initiative) studies these efforts will create a net 
economic return.
    Following several megafires threatening to exterminate regional 
forests, major environmental groups in the Southwest have recognized 
the error of banishing timber harvest as a tool of management (the 
Southwest Center for Biodiversity and the Grand Canyon trust among 
them). They helped create the ``4-FRI Plan'' in Arizona. In a miracle 
of common sense and real science, a collaboratively crafted plan to 
thin 300,000 acres was adopted by the Forest Service. This would by its 
nature open the herbaceous sequestration pathway as restored, grazable 
woodland. The environmental groups helped recruit a large industrial 
investor who would have paid essentially all costs (even millions for 
scientific monitoring) through proceeds from manufacturing OSB 
(oriented strand board) from the forests' small-diameter trees.
    Clearly, these vigilant, major green groups see this principle as a 
big ``Win'' for nature. Unfortunately, the program was co-opted by 
giving the contract to a far-inferior bid from a weakly financed 
biofuels operation, whose process, according to the SW Center for 
Biodiversity, had never worked at industrial scales and had failed 
miserably elsewhere. I expect that Gila County Supervisor Martin, who 
was directly involved in this innovative effort, will speak to this and 
related forest and rangeland sequestration issues. Little thinning has 
occurred.
    After sad losses of ecosystem health and native biodiversity due to 
past unmanaged grazing, the centuries-old concept of using livestock as 
a restoration tool has been greeted with considerable skepticism. 
Sadly, too, the skeptics have generally not been competent (or for odd 
reasons not willing) to draw the very real distinction between managed 
and unmanaged grazing.
    Research has been crafted (we believe for political/fundraising 
reasons) to challenge the specific principles of grazing advocated 
here. But, in fact, it's laughable stuff. The researchers refuse to 
understand reality: ecological restoration can be created most 
effectively at landscape scales, by the best ranchers, using these best 
practices, in an adaptive manner that changes to appropriately address 
changing circumstances. It's not uncommon for these inexperienced and 
uninformed, largely urban-researchers to create a completely rigid 
(therefore weather, etc. inappropriate) protocol, then confine an 
animal or two--which are in distress at their isolation--pacing the 
perimeters of tiny pastures looking for a way out--and expect such 
abstract, unscientific shambles to replicate real managed grazing and 
its effects. A few years ago, Dr. Jerry Holechek and others produced a 
paper, ``Managed grazing versus grazing exclusion: what we have 
learned,'' the protocols of which rejected nearly all the anti-
livestock activist's typical bibliography for poor study designs and 
bad data.
    Soil Carbon Sequestration, Endangered Species and General 
Biodiversity: It is vain to suppose that most endangered species can 
ever be truly recovered without restoration of pre-contact soil carbon 
levels. High-carbon soils are self-replenishing reservoirs of stored 
potential energy, water and nutrients. By the Law of the Minimum, 
populations are limited by the energy available to them, especially at 
critical times. Example: if sufficient water to digest food and meet 
metabolic requirements is lacking, no amount of forage, however large, 
which lacks the necessary water, is actually available. Further, no 
amount of water, however large, is actually available to a Sage Grouse 
if a hungry coyote, fox, or hawk won't let them have it.
    Noted bird expert Mark Stackhouse discussed Sage Grouse survival 
this way: In badly degraded ecosystems, the grouse must simply leave. 
If better habitat is not found, they die out. Why? Because, in poor 
habitat the distance between survival requirements is too great to 
justify the energy gained by the energy expended, in relationship to 
the risk posed by predators. Jackrabbits and some other prey items have 
lower-quality year-round forage requirements than do grouse--so while 
Jackrabbit populations continue--the grouse are exposed to higher 
predator numbers supported by the rabbits, etc.
    Spring-hatched Sage Grouse chicks don't get milk. They require 
high-protein and high-energy, low-toxicity, fairly succulent plant 
material and abundant insects--and free water, in addition to escape 
cover and maternal attention (the species also need contiguous habitat 
options to maintain genetic diversity--like vast, over-lapping grazing 
lawns). The longer the distance between required items, the more total 
energy, etc. they need, and the more their high movement level and long 
scent trail will attract lethal attention.
    Healthy, high-organic matter soils (as in continuous grazing lawns) 
mean much longer green periods, meadows, springs, plant and insect 
biodiversity and habitat health--which mean short travel distances at 
any age--so, higher survival. They also mean more eggs per mother, more 
chicks, and higher brood survival. The numbers back this up. Sage 
Grouse don't just need sagebrush (their main winter staple food) they 
need productive Sagebrush Steppe ecosystems.
    The Utah ranch on which Stackhouse hosts birding tour has been 
designated as a World Wide Important Bird Area by Audubon--with over 
300 bird species and a big percentage of the state's Sage Grouse. High 
species richness of birds is common to ranches managed in our proposed 
manner.
    In my judgment, if any species is in danger in the West, the key to 
its recovery is, with high probability, found in rectifying the key 
relationships (so, higher soil carbon) described as leading to 
sustainable biodiversity in this testimony--not in simply protecting 
them from human activity.
    Southwest Willow Flycatchers (SWF) are another example. Most 
western biologists know that around half of this subspecies lives on or 
surrounding a single ranch in the Gila-Cliff valley of New Mexico. The 
ranch is managed by the principles discussed here. Though the Federal 
Government maintains reserves containing the willows and gallery forest 
they believe the birds need--they were mainly unoccupied at my last 
information.
    Studies find that the ranch Flycatchers nest in certain branch 
configurations of Box Elder trees. They eat mostly bees. Why? Likely 
because well-managed, healthy meadows contain pollinating grasses and 
flowers, especially legumes with abundant blossoms. The use of bees 
(rather than flies) is easy to understand from an available energy 
standpoint: bees are bigger than flies, concentrate toward a certain 
location, and there are lots of them there.
    The greatest threat to SWFs is identified as Cowbird parasitism 
(and by association, cows)--wherein Cowbirds chuck the SWF's eggs out 
of their nests, lay their own, and the SWFs raise their young for them. 
But, the ranch has the lowest level of Cowbird parasitism on record--
despite high Cowbird numbers. Why? There is an available energy/soil 
richness explanation. It could be that when things are good--Cowbirds 
don't need to parasitize as much (there are lots of healthy cows to 
pick insects from and around). The ranch and valley are also the home 
of the highest and most species-diverse population of non-colonial 
riparian birds anywhere in North America--including endangered birds 
other than SWFs. There are also high numbers of upland species. Maybe 
massive bird numbers just spread the Cowbirds thinner.
    The highest parasitism rate of Cowbirds on SWFs is in the Grand 
Canyon--where there are no cows. Though the fly, etc. numbers for SWFs 
are good next to the Colorado River--the upland available energy for 
non-riparian bird species is poor--as is the soil.
    Management for soil carbon has tremendous implications for water 
dynamics, as we have said. Gabe Brown's ranch (same management 
principles) in North Dakota is documented by Federal scientists (world-
class sequestration researchers) to have recently absorbed a 13 inch, 
24-hour rain event with no erosion and no runoff. Gabe has tripled his 
soil carbon in a few years. The neighbor's land was still waterlogged 
and partly under water 14 days later. It's reasonable to state that if 
all land in the Missouri Drainage and associated rivers was managed 
like Gabe's, the floods in this system would be greatly curtailed and 
the water stored in vast, regional soil reservoirs for steady release. 
Using these methods (including woody-species information, above), 
perennial stream flows have frequently been restored.
    Waterfowl successfully raise up to 3 broods on never-dying potholes 
on Gabe's friend Gene Goven's Ranch and cropland at Turtle Lake in the 
water-fowl-critical Prairie Pothole area of North Dakota (same 
management principles). Most potholes dry up in summer. The birds 
struggle to raise one clutch. Gene's soils have much-elevated soil 
carbon due to grazing by our adaptive prescription. He documented a 6 
inch rain with no runoff. The water entered the soil and started only 
raising the pothole levels a week later. Almost all species benefit 
from continual water availability. Ducks Unlimited of Canada subsidizes 
young rancher's education if they'll imitate Gene, Gabe and the others.
    Also, Tallgrass Prairie species (Big Bluestem, etc.--no seeds 
planted--usually found far east of Gene in much higher precipitation) 
on what normally would be dry, blue Gramma etc.-occupied glacial-till 
hilltops on this ranch years ago. Short Blue Gramma to Tall Bluestem. 
Big jump. Frogs hunt insects on those hilltops now--a thing normally 
unheard-of.
    Prescribed grazing on these principles started replacing non-native 
grasses and thistles on the Audubon National Wildlife Refuge within 2 
years of Craig Hultberg's management changes. Prior to this, most of 
the job was spraying toxic defoliants.
    In summary, Mr. Chairman, I hope it is clear that we know how to 
sequester vast amounts of CO2 in the soils of the public's grazing 
lands and forests. This is not a theoretical claim. It has and is being 
done on millions of acres around the world even as we speak. And by 
taking the steps to sequester carbon on these lands, all of the other 
economic and environmental benefits will follow as a result of natural 
laws.
    There really is no downside to this approach and many, many 
upsides. It truly is not just ``win/win'' but win/win/win/win/win/win 
and so on.
    We also recognize that as a policy matter, adopting this approach 
beyond in areas outside the public lands has major potential positive 
ramifications. While outside the scope of this hearing, if the 
controversial and divisive CO2/climate change issue were dealt with in 
this way, other potential benefits to the economy would follow. It 
could end the ``war on coal.'' It could allow us to depend more on 
domestic resources such as coal and export more natural gas to Europe, 
reducing their dependence on unreliable sources. It could avoid the 
costs and potential economic dislocations that many fear will follow 
from the regulatory approach the Obama administration is pursuing.
    But, let me also stress that to achieve these benefits on the 
public lands, and therefore put the United States in a position to 
demonstrate the value and potential of soil sequestration on landscape 
scales, will require the Congress to act. It will require changes in 
the Federal management approach that, as we have pointed out, is 
currently not only preventing enhanced carbon sequestration but also 
preventing the wise and responsible management of all of the public's 
lands and resources.

                                 ______
                                 

           Questions Submitted for the Record to Steven Rich
    Question 1. You have said that you believe that the Federal 
Government's worldwide annual carbon footprint could be sequestered on 
the public lands and forests. Can you provide more details to support 
this assertion?

    Answer. It is entirely possible to sequester the Federal 
Government's total carbon footprint on the Federal lands.
    This can be easily shown by looking at the total Federal carbon 
footprint, the amount of Federal lands available for sequestering 
carbon and estimates of the rates of sequestration for various types of 
land. This simple analysis recognizes that these lands in most cases 
are already sequestering carbon in soils. So, to sequester the Federal 
carbon footprint requires sequestering additional carbon beyond what is 
already occurring. That would be accomplished largely by use of 
specific livestock grazing methods targeted to increase rangeland 
quality, and through proper forest management practices, primarily 
thinning, to improve forest health, enhance the growth of remaining 
trees and create a grazable understory that can also accelerate carbon 
soil sequestration.
    This analysis does not try to include how much of the CO2 emissions 
now being contributed by these lands, largely because their poor 
condition or increased risk of wildland fires, would be prevented by 
these proposed measures. But it should be recognized that the same 
management techniques that will increase carbon sequestration would 
also reduce these emissions in the future.
    According to an analysis of total Federal carbon emissions 
coordinated by the Council on Environmental Quality, the Federal carbon 
footprint in 2010 was about 123 million metric tons of CO2. The Federal 
Government claims that in subsequent years that footprint has been 
reduced somewhat but hard numbers are difficult to come by. However, an 
estimate of no more than 120 million tons for 2014 would seem to be a 
conservative estimate.
    There are several types of Federal lands in which additional carbon 
could be sequestered, often with only slight changes in the current 
management of these lands. The easiest lands on which these management 
changes could be made are those currently being actively managed for 
multiple uses, primarily lands managed by the Bureau of Land Management 
and the Forest Service.
    The BLM administers 245 million acres of land and manages grazing 
permits on about 150 million acres of that total. The Forest Service 
administers about 193 million acres of forests, with grazing occurring 
on about 90 million acres. This includes about 4 million acres of 
National Grasslands which are managed almost entirely for grazing.
    These multiple use managed grazing lands amount to about 240 
million acres in total. Changes in grazing management can potentially 
provide large and rapid increases in carbon sequestration depending on 
such factors as precipitation and length of growing season. Each of 
these 240 million acres of BLM and Forest Service grazing land would 
only have to sequester an additional half ton of CO2 per year on 
average to completely sequester the entire Federal carbon footprint. 
Because better grazing management of private lands that are similar to 
much of the public lands can sequester an additional ton of CO2 or more 
per acre per year, sequestering just half that amount on average on 
these 240 million acres would be a reasonable goal.
    In addition to these multiple use lands, other Federal agencies 
manage lands that could also be used to sequester the Federal carbon 
footprint. There are at least 4 million acres on National Wildlife 
Refuges in which targeted grazing could be practiced. The Department of 
Defense administers about 28 million acres of land, including 16 
million acres withdrawn from formerly BLM administered land. While not 
all this land could be managed to increase carbon soil sequestration 
because doing so might conflict with the primary purpose of the refuge 
or defense facility, much of it could be used to do so.
    In addition to this land the Forest Service and BLM administer tens 
of millions of acres of forests. Better forest management practices can 
result in additional carbon sequestration on the order of at least 1 to 
2 tons of CO2 per acre per year. This means that only about 60 million 
acres of forests that are being better managed to sequester atmospheric 
carbon could by themselves potentially sequester the entire Federal 
carbon footprint. In doing so, a number of other benefits would also 
accrue. The primary one as far as atmospheric CO2 loading is concerned 
would be greatly reduced risk of wildfire.
    Combining all of the Federal lands that could act as sinks for the 
Federal Government's carbon footprint makes it clear that sequestering 
it on the Federal lands could certainly be done.

    Question 2. You were challenged on your assertion that grasslands 
and related ecosystems store the most carbon with the greatest security 
but were not allowed to reply. How would you answer that question more 
completely?

    Answer. It is perhaps a matter of classification. My statement 
included a composite of totals from ecosystem types containing a large 
grassland component: Temperate Grasslands, Savannahs and Grass/
Shrublands clearly fit this category, as do Tropical and Subtropical 
Grasslands and Savannahs. Tundra also has a strong grass and herb 
component as does a fair amount of Boreal Forest (much more when Boreal 
Forests burn--which many millions of acres do every year). Temperate 
Forests--depending on tree density--also contain vast grass/forb 
acreages between trees. When much lower-than-present Native American 
produced tree densities are restored these forests can sequester far 
more in the synergic relationship between grasses, forbs, trees, shrubs 
and soil organisms. Any of the witnesses would probably agree that 
Deserts and Dry Shrublands (as mapped in the U.N. etc. report--link, 
below) are also capable of producing significant grass/forb biomass and 
storing large composite amounts of soil carbon through the ``liquid 
carbon pathway symbiosis.''
    Under this system of classification my assertion was certainly 
correct.

Source: UNEP (United Nations Environmental Program), the WCMC (World 
Conservation Monitoring Center) and the German Federal Ministry for 
Environment, Nature Conservation and nuclear Safety, German Federal 
Agency for Nature Conservation

LINK: http://www.carbon-biodiversity.net/Issues/CarbonStorage

    Question 3. In your statement you were critical of claims made in 
Federal NEPA documents related to protecting or recovering some 
threatened or endangered fish species that cows eating these fish was a 
threat. Can you provide more specifics and background for this 
statement?

    Answer. In my 30-year career as a Resource Management consultant I 
continually dealt with false claims such as this one. The U.S. Fish and 
Wildlife Service made the claim in several Biological Opinions from 
Tonto and Coronado National Forests, through biologists Jerry and Sally 
Stefferud , based on a study of the effects of human fishermen 
trampling in streams--DESPITE the fact that it says NOTHING AT ALL 
about cows eating fish, or any references whatever to cattle or the 
cyprinid species in question (Loach Minnows, Gila Topminnows, Gila 
Chubs, etc.). In other cases the agency claimed that seasonal flood 
channels were critical habitat for Lahontan Cutthroat Trout.

    Citation: Roberts, B.C., and R.G. White. 1992. ``Effects of angler 
wading on survival of trout eggs and pre-emergent fry.'' North American 
J. of Fisheries Management 12:450-459.

    I include the abstract of the above study:
Abstract
        The effects of angler wading on trout eggs and pre-emergent fry 
        in artificial redds depended on wading frequency and stage of 
        egg or fry development and was similar for brown trout Salmo 
        trutta, rainbow trout Oncorhynchus mykiss, and cutthroat trout 
        O. clarki. Twice-daily wading throughout development killed up 
        to 96% of eggs and pre-emergent fry. A single wading just 
        before hatching killed up to 43%. Wading killed fewest eggs 
        between fertilization and the start of chorion softening 
        (except for a short period during blastopore closure when 
        mortality increased slightly). It killed the most eggs or fry 
        from the time of chorion softening to the start of emergence 
        from the gravel. Restriction of wading could be an effective 
        management tool if trout spawning habitat is limiting and 
        angler use is high during egg development.

Tonto National Forest biological Opinion: Page 12--``Livestock may 
directly affect fish through trampling (Roberts and White 1992) or 
ingestion of adults, larvae, or eggs. Trampling of adult fish is 
probably rare, except in localized situations, or with smaller fish 
such as Gila topminnow.''

https://www.google.com/
?gws_rd=ssl#q=cattle+ingest+larvae+and+fish+eggs+stefferud&safe=active

BIOLOGICAL OPINION

On-going and Long-term Grazing on the Tonto National Forest
Arizona Ecological Services Field Office
U.S. Fish and Wildlife Service
AESO/SE 2-21-99-F-300
February 28, 2002

    The USFWS knew the Stefferuds' claims were bogus: (same document) 
``Rinne (1999) points out the problems associated with many of the 
studies that show the possible impacts of livestock grazing to riparian 
and aquatic habitats and fishes. However, these studies represent the 
best available information on the subject.'': (Roberts and White 1992)

    This stock phrase is used in four documents:

    Memorandum
    To: ARD-Federal Aid, Fish and Wildlife Service, Albuquerque, New 
Mexico
    From: Field Supervisor
    Subject: Section 7 Consultation for Reintroduction of Gila Trout 
into Arizona
    Page 9--``Direct effects from livestock grazing are trampling or 
ingestion of adults, larvae, or eggs (Roberts and White 1992)''

    When we challenged them on the absurdity of cows eating fish and 
that cattle cannot trample the nests (redds) of cyprinid fishes that do 
not make redds, USFW backed off to this statement (below) in the final 
draft of only the Coronado BO (below). Note, again, that Roberts and 
White 1992 says nothing about cattle trampling anything. It is a 
discussion of human angler's trampling. Nevertheless, the idea of 
fishes (or frogs) waiting around to be trampled is highly unlikely. 
Please note also that all the cyprinid fish species in question spawn 
only when streams are muddy due to flooding. It is highly unlikely that 
their eggs are damaged by silt as are trout eggs.

FINAL BIOLOGICAL OPINION and CONFERENCE OPINION

Continuation of Livestock Grazing on the Coronado National Forest

Arizona Ecological Services Field Office
U.S. Fish and Wildlife Service
AESO/SE 2-21-98-F-399R1
October 25, 2002

    Page 16-- ``Livestock may directly affect fish through trampling of 
adults, larvae, or eggs (Roberts and White1992); likely the same holds 
true for frogs. Actual trampling of adult frogs or fish is probably 
rare, except in localized situations, or with smaller fish such as Gila 
topminnow.''

    The libeled Ranch owners (Jim and Sue Chilton and family) against 
which the baseless Coronado Chub, etc. claims were filed by the South 
West Center for Biodiversity (CBD) etc., sued for relief in the 9th 
Circuit Court of Appeals. The Court awarded $600,000 in damages and 
declared the FWS Biological Opinion for the Chilton's Montana Allotment 
``arbitrary, capricious and unlawful.'' The court also ruled that CBD 
had acted with ``. . . an evil mind.''

http://www.chiltonranch.com/images/got-cha.pdf

    Question 4. Mr. Rich, you stated your opinion that it's useless to 
attempt sustainable recovery of most endangered species without 
restoring pre-European-contact soil carbon levels. Why is that?

    Answer. That's because, as we all testified, high soil carbon 
supports life in so many ways and keeps death at bay under what would 
certainly be lethal circumstances with badly depleted and degraded 
soils.
    For instance, the drastic, unsustainable declines in Yellowstone 
National Park elk numbers can't be explained by the mere presence of 
wolves. Researchers vary in their explanations, but the ``life-
supporting'' role of overall ``high available energy'' stocks in high-
organic-matter soils (thus producing better soil, plant, and animal 
nutrition, water availability, drought tolerance, etc.) and their clear 
role in supporting the resistance of organisms to disease, their 
ability to reproduce, their resilience as individuals and as 
populations to predation, drought, etc. cannot be over-emphasized.
    Dr. Rod Heitschmidt (now past President of the Society for Range 
Management) some years ago sent an official rebuke to the National Park 
Service concerning the condition of Yellowstone Park--particularly the 
northern area. He described that area as degraded beyond recovery 
thresholds achievable in less than geological time frames due to 
entrenched, braided stream channels, widespread soil erosion and many 
other factors affecting soil and plant health, hydrological function, 
etc. He also said the Park Service had a long, philosophically 
motivated history of deliberate misinformation concerning the health of 
the Park's ecology as a result of decades of overgrazing by 
unrestricted elk, and bison (to some degree). Heitschmidt also said the 
ecological condition of the park compared unfavorably with nearby 
ranches.
    The re-introduction of wolves was supposed to fix all these 
problems by controlling elk numbers. Indeed, willows, aspens and berry-
producing shrubs have rebounded somewhat with sharp-eyed wolves to 
guard them. But nutrition levels are still insufficient for elk. So--
the park's elk populations have nose-dived toward oblivion. 
Understand--bears kill more elk in Yellowstone than do wolves. But 
before wolf reintroduction--living with lots of bears--elk are said to 
have spent far more time in their favored grasslands. Then, they spent 
more time hiding in forests. Wolves see much better than do bears. 
Apparently the elk know that. This behavior change in elk had 
nutritional consequences. A 2009 study by Scott Creel and others (who 
made the above observations) said elk get 27 percent less food intake 
from sparser forages from woody species found in forests--where bears 
wait in ambush. A newer study by Middleton and others (2013) finds that 
the elk have adapted, and now tend to stay in grasslands and deal with 
wolves.
    If Native American-Era wider tree spacings were still present, 
there would be plenty of grass in the forests and the sharp-eyed elk 
could also better see the bears coming. Recent research reveals elk 
calf 1 year survival rates as low as 11 percent to 15 percent. This is 
unsustainable. Normal annual pregnancy rates for elk in the West 
average around 90 percent. Pregnancy rates (tied primarily to 
nutrition) for migratory Yellowstone elk ranged from 59 percent to 70 
percent--far too low maintain a healthy population. A U.S. Dept. of 
Interior/University of Wyoming/Wyoming Game and Fish Department news 
release (link below) also quoting Yale researcher Arthur Middleton 
reports that ``Though elk typically bear a calf every year, migratory 
elk that nursed a calf had only a 23 percent chance of becoming 
pregnant again in the following year.'' The study further states that 
``Migratory [Yellowstone] elk experienced a 19 percent depression in 
rates of pregnancy over the 4 years of the study and a 70 percent 
decline in calf production over 21 years of monitoring by the WGFD.''
    The median age of elk populations in the Yellowstone area is now 
rising steadily toward sterile senility. Reproduction rates and 
survival of young are very inadequate. There is a general consensus 
that the sub-population-survival ``recruitment'' rates of young elk 
have their cause in low nutrition in both females and young. Well-fed, 
mobile elk with solid habitat options (so they don't have to stay and 
get extinguished) can handle predation. A combination of healing 
erosion features and higher soil organic carbon is proven to greatly 
increase forage quality and production during dry periods. This would 
solve the problem.
    I would add that outside the parks, conflicts with wolves and 
humans are to a large degree conflicts for scarce resources made scarce 
by bad policy. Many wolves have now left the park due to diminished 
prey resources. This stubborn clinging to political tradition in range 
and forestry issues while ignoring feedback from real world conditions 
has consequences for every plant and animal species of concern of which 
I am aware. Certainly, hunters would be more tolerant of wolves if the 
often 1,000 percent gap in forage production between lands managed in 
the manner we suggest were closed by allowing proper management on 
Federal lands. This means using livestock as a restoration tool 
benefiting all phases of forage plants' life cycles. Dr. Teague gave a 
detailed description of the principles in his presentation.
    This would certainly allow elk, Mule Deer, etc. populations--which 
are now nutrition-limited during some seasons in much of their range--
to expand. Certainly, ranchers would be much more tolerant of wolves, 
elk, etc. if they and their herds were not on the edge of extinction 
themselves due to woody species encroachment, forage limitations in 
droughts, etc.
    The film, ``Never Cry Wolf'' describes Alaskan wolves (no livestock 
present) switching to alternate prey species (mice in that case) when 
favored prey are not available. There are obvious implications for Sage 
Grouse, Utah Prairie Dogs, White-tailed Prairie dogs, Black-tailed 
Prairie Dogs, Pygmy Rabbits, certain species of Kangaroo Rats, etc., 
etc., just with respect to wolves. Think of wolves competing with hawks 
and eagles (all raptors are species of concern) for ESA-protected 
rodents, Sage Grouse, Mule Deer (another species of concern). Yes, 
eagles do kill mule deer. Many other species will be affected. But, we 
start to get the picture why soil carbon levels are critical to 
endangered species reintroduction and conservation.
    It also should be noted that wolf pups do and/or will in future 
hunt ESA-protected rodents, reptiles, etc. as part of their juvenile 
prey base--for hunting skills practice--and to consume them. This 
``practice hunting'' happens continually--in every pack--whether the 
adults seek smaller animals as prey or not. ``The low-energy, low 
carbon soil affecting all species survival problem'' comes full circle 
when we see species of concern dining on other endangered species (as 
with wolf pups).
    Another example of degraded habitats affecting remnant populations 
of all species is where rare river otters (Lontra Canadensis) in NE 
Nevada's Mary's River (Humboldt tributary) frequently eating rare 
Lahontan Cutthroat Trout. They are surrounded by once-perennial streams 
that were once habitat for much larger populations of both species. The 
unwillingness of the management agencies (either on philosophical 
grounds or due to lawsuits) to manage woody species and employ 
livestock in restorative configurations cascades into every species' 
survival chances.
    Many native grasses get out-competed by invasive species because, 
compared to the exotic species, they have poor germination and seedling 
establishment rates. That only makes sense if these native species are 
actually adapted to higher soil carbon levels. In general, in my 
experience, all native plant species in the West can out-compete 
exotics in their native soil carbon levels. The mycorrhizae, etc. are 
better-adapted to natives and favor them if they can act as healthy 
hosts. My written statement contains examples of this phenomenon from 
Arizona to North Dakota, to Missouri and Virginia. The fact that over 
300 bird species are attracted to Deseret Ranch further illustrates 
this point. (This phenomenon is now said to affect bird migration 
patterns well into Central America and perhaps beyond.)
    Since all the ecological, community financial and sociological 
benefits described by all four witnesses at the hearing are generated 
by profitable operations--as they have at Deseret Ranch and our many 
other examples--it seems both wise and beneficial to adopt the same 
profound and scientifically based principles on public lands. If the 
Nation can get behind this project--think of the politically and 
sociologically unifying effects that will create. These principles 
conform to the larger pattern on which both peace and prosperity have 
their foundations. We must not miss this chance to come together in 
what is clearly a noble and necessary cause.

NUTRITIONAL CONDITION OF NORTHERN YELLOWSTONE ELK
Journal of Mammalogy, 85(4):714-722, 2004 RACHEL C. COOK,* JOHN G. 
COOK, AND L. DAVID MECH

``Elk Calf Survival and Mortality Following Wolf Restoration to 
Yellowstone National Park'' Wildlife Monographs #169 (May 2008); 
published by The Wildlife Society, SHANNON M. BARBER-MEYER,1,2 L. DAVID 
MECH, P.J. WHITE

Cause-specific Mortality of Rocky Mountain Elk Calves in Westcentral 
Montana

Nyeema C. Harris; Daniel H. Pletscher; Mike Thompson Montana; 
Transactions of the 72nd North American Wildlife and Natural Resources 
Conference v 343

``Northern Yellowstone elk population continues to drop''

http://trib.com/lifestyles/recreation/northern-yellowstone-elk-
population-continues-to-drop/article_1baec009-60ef-5fb0-9f99-
e37b905150c4.html

``Linking anti-predator behaviour to prey demography reveals limited 
risk effects of an actively hunting large carnivore'' Arthur D. 
Middleton,1,2,10* et, al.; Ecology Letters, (2013) doi: 10.1111/
ele.12133

http://klamathconservation.org/docs/blogdocs/Middletonetal2013b.pdf

Migration No Longer Best Strategy for Yellowstone Elk

Released: 6/5/2013 U.S. Department of the Interior, U.S. Geological 
Survey

http://www.usgs.gov/newsroom/article.asp?ID=3611&from=rss#.VVoK1vlViko

    Question 5. You spoke about the advantages of creating ``grazable 
woodlands'' as efficient carbon sinks that are also more resistant to 
catastrophic fire. Can you explain briefly how currently unhealthy 
forests on public land that are at high risk for wildfire could be 
converted to grazable woodlands? Are you aware of any examples of where 
this has been done successfully on national forests?

    Answer. Almost all public land forests have natural ``alternate 
state vegetation'' which follows fires, blow-downs, lethal insect 
infestations, etc. Aspen/grassland communities and Gambel Oak/grassland 
communities are examples. These disturbance events (fires, etc.), 
releasing herbaceous understories, create ``grazable woodland'' sites. 
These have always attracted ungulates like deer and elk. Targeted 
livestock use can accelerate these sites healing and prevent erosion by 
trampling and interdicting rills and other water channels which form on 
disturbed soils.
    The advent of mega-fires with high proportions of severely burned 
lands begs for effective treatments. Targeted grazing has demonstrated 
its success on mine sites and private burned woodlands. Fifty percent 
of severely burned forests no longer produce trees (Savage and Mast 
2005 in Wu, Kim and Hurteau 2011 cited below). This type of realization 
must guide decisionmaking at all policy levels regarding carbon 
sequestration. When we can ``no longer see public land forests for the 
trees''--there are too many trees.
    Optimally reducing tree densities in unhealthy, mega-fire prone 
forests restores the abundant grass-based soil carbon sequestration 
pathway--while preserving now-faster-growing, much larger tree's stocks 
of carbon and relocating cut stocks into buildings. This practice is 
properly considered to be ecological restoration. The authors cited 
here use this terminology, as does the journal, ``Restoration Ecology'' 
(Wu, T.*, Y-S. Kim, M.D. Hurteau. 2011 ``Cutting trees to save forests: 
using economic incentives to overcome barriers to forest restoration.'' 
Restoration Ecology, 19:441-445).
    These ``restoration thinning treatments'' often focus on removing 
primarily small-diameter trees. This both protects larger trees from 
fire and increases their growth rate (tissue sequestration) in addition 
to greatly increasing their nut production--which, is critical to many 
bird and rodent species--even in conifers with very small, economically 
non-harvestable seed sizes. It also allows much more sunlight to reach 
soli surfaces in what are, in the West, the higher rainfall areas--
stimulating often huge increases in grass and forb growth, thus, 
further greatly increasing soil carbon sequestration. Grass/forb 
increases of 1,100 percent and more and large jumps in species 
diversity have been recorded.
    By its nature, restoration thinning re-creates grazable woodland 
and accelerated carbon sequestration in the grass/fungus-created, high-
carbon molisols (soils) in which southwestern tall conifer forests 
typically grow. The experiential, shared collaborative process that 
created the Four Forests Initiative (4FRI) in Arizona caused 
stakeholders, even, notably, the Grand Canyon Trust and Center for 
Biodiversity, to see that allowing such huge small-tree stem densities 
to continue in southwestern forests constitutes environmental 
malpractice. Gila County will submit a documented account of this 
collaborative process.
    I have included this report: ``Management Guidelines for Expanding 
Pinyon Nut Production in Colorado's Pinyon-Juniper Woodlands'' prepared 
by: Rebecca J. McLain and Penny Frazier.

http://www.ifcae.org/publications/downloads/PJE_Mgmt_Guidelines_03-18-
08.pdf

    I have done so because the restoration thinning process for 
grazable pinyon/juniper woodlands mirrors in most ways the practices 
for vastly increasing pinyon-nut production. Example, ``. . . 
domesticated livestock and their manure in pinyon-juniper woodlands 
positively affects pinyon cone production. Evidence from Africa 
indicates that domesticated livestock can play an important role in 
fertilizing trees and crops in semi-arid environments'' (McClain, 
above).
    According to sources cited in the report, ``These short, twisted 
trees with large branching crowns live in association with more than 
1000 species of microbes, plants, insects, birds, and mammals.'' Nut 
production likely benefits all of them directly or indirectly. 
Concentrated, short-term goat grazing is used as a primary thinning 
method in pinyon/juniper woodland. It has the advantage of being able 
to generate considerable revenue from goat production.
    In projects I have designed, I have witnessed positive results like 
those described for mechanical thinning in this report. These 
improvements in all biological indicators resulted from grazing by 
2,000 close-confined goats in once-terribly fire prone and degraded 
pinyon/juniper woodland near Payson, Arizona. The goats were protected 
by herd dogs and herders and were kept from grazing non-target areas by 
mobile fence panels, the rear parts of which were taken down and 
reassembled in front of the closely planned herd movement.
    The goats removed the foliage from lower limbs (which eliminates 
the ``ladder fuels'' which quickly produce devastating crown fires and 
also acts against disease, parasite and insect infestation). They 
defoliated and killed small trees, redistributed duff layers 
(increasing water to roots and increasing fertilizer effects and grass/
forb restoration), greatly accelerated nutrient cycling, provided 
seedling microsites and interdicted erosion rills.
    Grazing periods averaged 5 to 10 days. A decade-older treatment 
exists on the Diamond Rim Northeast of Payson on which herbaceous 
restoration persists. It should be noted that the enhanced soil 
nutrition (See McNaughton's ``Grazing Lawns.'' Citation and link below) 
and its small size has made it a concentration area for wildlife 
grazers. The fact that the vegetation persists is evidence of how well 
the treatment worked.
    Goats do best on a varied-species diet. The cost of supplementing 
goats' needs with protein and minerals increases in these woodlands as 
the trees' health and the degraded sites' species diversity declines. 
Goat operators may not be willing to use these sites voluntarily if 
other options exist. It may be that some subsidy for nutritional 
supplementation might be necessary if such lands are selected for 
treatment. It is still likely that the cost would be less than for 
mechanical thinning.
    Responses to burning treatments vary greatly--depend on several 
variables. Some are biological disasters, due to the sites' degraded, 
low carbon, low soil biodiversity soil condition. Managers should not 
expect native perennial grasses not already present in the burned area, 
for example, to colonize these sites quickly. The goal would be to burn 
individual trees or small patches while avoiding a stand-replacing 
fire. Such large fires are generally accompanied by serious flooding 
and soil loss--and which would simply convert the woodland to grassland 
of highly variable quality--or to bare ground and invasive, often non-
native annuals and biennials--with the loss of woodland values and 
biodiversity.

    I have included links for papers concerning management of these 
woodlands.

Collapse of Pinion/Juniper Woodland biodiversity in Bandelier 
Wilderness--thinning is effective restoration.

https://www.fort.usgs.gov/publication/21175

Closed canopy P/J causes biodiversity loss--better to manage for ``Mid-
seral'' states

http://oregonstate.edu/dept/eoarc/sites/default/files/publication/
588.pdf

http://cpluhna.nau.edu/Biota/pinyon-juniper.htm

Santa Fe National Forest recommendation for treatment of P/J

http://www.fs.fed.us/rm/pubs/rmrs_p009/rmrs_p009_311_314.pdf

Zion Nat'l Park--recommendation for P/J management treatments
PINYON-JUNIPER WOODLANDS IN ZION NATIONAL PARK, UTAH
Kimball T. Harper!, Stewart C. Sanderson2, and E. Durant McArthur2,3

http://www.treesearch.fs.fed.us/pubs/39535

``To enhance plant and animal biodiversity, we recommend that pinyon-
juniper woodlands of Zion National Park be managed so that late seral 
stages do not dominate large tracts.''

Grazing Lawns: S. J. McNaughton
Grazing Lawns: Animals in herds, Plant form and coevolution.
Volume 124 number 6, The American Naturalist, December 1984

http://www.jstor.org/discover/10.2307/
2461305?uid=3739928&uid=2&uid=4&uid=3739256&sid=21106453792161

                                 ______
                                 

    Mr. Bishop. Thank you very much.
    Dr. Teague.

 STATEMENT OF RICHARD TEAGUE, TEXAS AGRILIFE RESEARCH, VERNON, 
                             TEXAS

    Dr. Teague. Mr. Chairman, Ranking Member Grijalva, members 
of the committee, I appreciate the opportunity to appear today 
to provide my perspective on increasing soil carbon 
sequestration on the public lands.
    My name is Richard Teague, and I am a research professor 
with Texas A&M AgriLife Research. I was raised on a farm 
community in Zimbabwe, and attended university in South Africa. 
For more than 40 years, I have been a research scientist 
working on the management of rangelands.
    In the course of my research and investigations, I have 
visited most of the grazing areas of the world. Wherever I 
travel, I actively seek out the leading conservation ranches to 
learn what they are doing that makes them so successful. Based 
on my research and experiences, I can confidently state that 
large quantities of carbon could be sequestered in a stable 
form in the soils of the public lands. Doing so would produce a 
number of important benefits, as carbon is essential to 
establishing and maintaining soil health, the foundation of a 
healthy, functioning ecosystem.
    Healthy ecosystems produce a range of economic and 
environmental benefits. There is immense potential to sequester 
atmospheric carbon in the soils of the world's rangelands 
through better management. In a chapter that I and several 
colleagues have written in the soon-to-be-published book, 
``Geotherapy,'' we calculate that, with improvements in 
management in a few decades, global grazing lands could remove 
the amount of carbon released into the atmosphere by human 
activity from the Industrial Revolution, around 1750, to the 
present time. This is a low-tech, low-cost approach that would 
also generate important economic and environmental benefits.
    By demonstrating improved carbon soil sequestration on the 
public lands, the United States could set an important example 
to the rest of the world.
    The key to generating these benefits is re-establishing the 
evolutionary grazer-grass relationship. I have three figures, 
Mr. Chairman, that illustrate how this has been achieved on 
managed grazing lands.
    Figure 1 illustrates the non-uniform impact of continuous 
grazing over a ranch landscape. The green dots are GPS 
locations of colored cows over a year of grazing. Plants in the 
heavily frequented areas are overgrazed, causing poor plant 
productivity and increasing bare ground, with consequent 
elevated carbon lost to the atmosphere, increased water runoff 
and erosion, and decreased carbon sequestration into the soil.
    Figure 2 indicates how multi-paddock grazing can facilitate 
better ecological condition and soil health. All animals graze 
in a single paddock for a short period before grazing the 
following paddocks in turn. By spreading the grazing over the 
whole landscape, animals select a wider variety of plants. Each 
paddock is afforded sufficient time of recovery before being 
grazed again. This allows the manager to regulate how heavily 
each paddock is grazed, and ensures each paddock has recovered 
before being re-grazed. Done correctly, this increases soil 
carbon and reverses the degradation, as bare ground is reduced 
and plant growth is increased.
    Figure 3 illustrates how previous small-scale research 
plots misrepresent continuous grazing impacts on ranch 
landscapes. The smaller areas in yellow imposed on the 
landscape represent small plot research areas commonly used to 
determine what impacts the grazing animals are making. Clearly, 
none of them represents the impacts being made in the ranch 
scale paddock. This has resulted in research projects 
underestimating the impact of continuous grazing in large, 
commercial-scale ranches.
    In summary, Mr. Chairman, the adoption of regenerative 
conservation grazing management can increase the amount of soil 
carbon in public lands. The key to doing so is actively 
managing to reduce spare ground, and to promote the most 
beneficial and productive plants by grazing moderately over the 
whole landscape, and providing adequate recovery to grazed 
plants. The goal of improving soil health using regenerative 
multi-paddock grazing is a high priority.
    The written statement I have submitted explains all of this 
in more detail, and I look forward to answering any questions. 
Thank you.
    [The prepared statement of Dr. Teague follows:]
    Prepared Statement of Dr. W. Richard Teague, Texas A&M AgriLife 
                                Research
    Good afternoon. Thank you Chairman Bishop, Ranking Member Grijalva, 
and all of the members of this subcommittee for the chance to speak 
with you today. I am Richard Teague, Associate Resident Director of 
Texas A&M AgriLife Research in Vernon, Texas. I am also a Professor in 
the Department of Ecosystem Science and Management at Texas A&M 
University and Senior Scientist of the Texas A&M Norman Borlaug 
Institute for International Agriculture. I am honored to speak with you 
today about the important issue of increasing carbon sequestration on 
public lands.
                       background and experience
    I was raised in a farm community and schooled in Zimbabwe before 
obtaining a BSc (Agriculture) in grassland science (1972) at Natal 
University in Pietermaritzburg, South Africa, and a PhD in botany and 
microbiology (1987) at the University of the Witwatersrand in 
Johannesburg, South Africa. As a research scientist working on the 
management of rangelands since 1972, I have visited most grazing areas 
of the world, attending conferences and presenting the results of my 
research. I actively seek out leading conservation ranchers in the 
ecoregions I visit, including Zimbabwe, South Africa, Namibia, 
Australia, New Zealand, Argentina, Chile, Canada and most of the 
western rangeland states in the United States. I am intimately aware of 
the research that has been done on grazing management in most parts of 
the world. As part of my research activities, I worked with a number of 
leading ecological and grassland management academics as well as the 
leading conservation ranchers in those countries, especially Zimbabwe 
and South Africa. Since arriving in Texas in 1991, I have concentrated 
on researching the best management strategies to sustain and improve 
resources and livelihoods on rangelands.
           the need to manage for improved ecosystem function
    For humans to live sustainably, natural resources need to be used 
and managed in ways that prevent their depletion and that ensure their 
resilience for self-replenishment. To ensure the long-term 
sustainability of these resources, agricultural production should be 
guided by policies and management protocols that support ecologically 
healthy and resilient ecosystems and that mitigate anthropogenic 
greenhouse gas (GHG) emissions. Healthy agro-ecosystems are 
considerably more productive, stable and resilient than those in poor 
condition. Maintaining or enhancing the productive capacity and 
resilience of rangeland ecosystems is critical for the people who 
depend on them for their livelihoods and for the continued delivery of 
rangeland ecosystem services for the broader benefit of societies 
around the world. Such services include the maintenance of stable and 
productive soils, the delivery of clean water, the sustenance of 
plants, animals and other organisms that support human livelihoods, and 
other characteristics that support aesthetic and cultural values (Daily 
1997; Grice and Hodgkinson 2002). While ranch livelihoods depend on 
healthy ecosystems, the value of ecosystem services to society is worth 
more than mere agricultural earnings. High soil carbon is the 
foundation of a healthy ecosystem. Rangelands are a huge sink for 
carbon dioxide (CO2) but most rangeland is degraded to some degree, and 
regenerative grazing will be needed in most situations to improve 
ecosystem function. To remain economically viable, managers must 
maintain or improve the biophysical functions and processes necessary 
for sustaining ecosystem health and resilience, including soil organic 
matter accumulation, solar energy capture, water infiltration, and 
nutrient cycling while also maintaining ecosystem biodiversity. In the 
long term, this strategy provides the greatest cumulative production 
potential and economic profits without decreasing delivery of ecosystem 
services for society.
    The ability of food production systems to meet the demands of 
burgeoning human populations with higher per capita consumption depends 
on the alignment of increased production with the maintenance of 
healthy ecosystems and GHG mitigation. Solutions to produce such 
alignments must maintain the terrestrial and atmospheric natural 
resource base. At the same time they must address environmental, 
social, cultural and economic complexity, tradeoffs among different 
choices and they must also address unintended consequences. In contrast 
to the deficiencies of many traditional agricultural production 
systems, ecologically sensitive management of ruminant livestock in 
native perennial rangelands can positively contribute to critical 
ecosystem services, including carbon sequestration, maintenance of 
stable and productive soil structure, maintenance of functional water 
catchments and delivery of clean water, production of healthy food, 
protection of critical wildlife habitat, and enhancement of 
biodiversity (Liebig et al. 2010; Delgado et al. 2011).
    In this paper I indicate how livestock management can facilitate 
the provisioning of essential ecosystem services, increase soil carbon 
sequestration, reduce GHG emissions and reduce environmental damage 
caused by current agricultural practices. I outline the value of using 
conservation-based grazing management and the potential for 
improvements in grazing management to enhance carbon sequestration 
through the sustainable, regenerative use of natural resources.
                  restoring soil carbon on rangelands
    The loss of soil carbon is extremely damaging in a number of ways. 
Loss of soil carbon negatively impacts ecosystem function and the 
provision of vital ecosystem services. The most limiting factor to 
ecosystem function and productivity on rangelands is the amount of 
water entering the soil. Water entering the soil and water retention in 
the soil are both directly influenced by soil carbon content. Thus loss 
of soil carbon causes degradation that affects all ecosystem processes 
(Thurow 1991). The amount of carbon in soils is directly related to the 
diversity and health of soil biota and as these microbes are dependent 
on plants, the manner in which we treat plants is critical to restoring 
soil carbon levels (Bardgett and McAlister 1999; Sacks et al. 2014). 
Nearly all organic carbon sequestered in soils is derived from the 
atmosphere by photosynthesis in plants and other organisms and 
converted to complex organic molecules in the soil by bacteria and 
fungi operating synergistically with insects and animals. In rangelands 
the influence of livestock can result in losses or gains in soil carbon 
depending on how the plants are managed. Poor grazing management that 
maintains grazing pressure without respite for plants to recover causes 
degradation, while grazing that defoliates plants moderately and 
provides for recovery before the plants are grazed again reverses 
degradation and increases the amount of carbon sequestered in the soil.
                    the impact of continuous grazing
    Prior to man herding grazers in sedentary circumstances, large 
herds of wild grazers lived under free-ranging conditions over the 
world's grazing ecosystems. The co-evolution of plants and herbivores 
under changing environmental conditions has resulted in highly 
resilient grazed ecosystems that support more animal biomass and 
sustain considerably higher levels of herbivory than other terrestrial 
habitats (Frank et al. 1998). Grazing, fire and fluctuating climatic 
regimes create the dynamic resilience of organisms that respond 
constantly to biophysical events. As a consequence, most ecosystems 
never reach a steady state or climax seral stage (Pielou 1991). Rather, 
periodic disturbances rejuvenate and transform landscapes with respect 
to soil nutrients and structure, plant species composition, structure 
and biodiversity (Hulbert 1988). Although grazing pressure can be 
intense at some sites in free-ranging conditions of grazed ecosystems, 
concentrated grazing seldom lasts long when the movement of herbivores 
is not restricted; instead grazed plants are typically afforded time 
for inter-defoliation recovery when herds move to new feeding grounds 
(Frank et al. 1998).
    Unfortunately, the replacement of free-ranging wild herbivores with 
livestock managed by humans has frequently led to severe degradation of 
rangelands. Domesticated livestock have become sedentary as humans 
restricted their movements across landscapes, suppressed periodic fire, 
and eliminated large predators (Milchunas and Lauenroth 1993). This has 
led to the removal of periodic animal use and positive impacts of 
animals on plants followed by the key revitalizing element of periodic 
recovery from defoliation for plants and to decreased nutritional 
quality and health for herbivores (Provenza 2008). In many instances, 
pressure on grazed plants has been further elevated through the use of 
supplementary feed to retain high animal numbers during less productive 
periods (Oesterheld et al. 1992).
    Animals do not graze uniformly over the landscape but repeatedly 
consume preferred plants and patches of vegetation. This selectivity is 
affected most by vegetative heterogeneity at the landscape level and to 
a lesser degree by plant heterogeneity at the feeding-station scale and 
by distance of forage resources from water (Stuth 1991). Overgrazing 
occurs when individual plants are subjected to multiple, severe 
defoliations without sufficient physiological recovery time. In turn, 
excessive herbivory removes threshold amounts of biomass and litter, 
causing soil exposure and degradation in heavily used areas (Thurow 
1991; Teague 2011). The spatial arrangement and scale of vegetative 
patchiness are major determinants of patterns of grazing and site 
selection when livestock are stocked continuously in a given area. 
These factors combine to increase vegetative heterogeneity as the size 
of the grazing paddock increases, which typically causes heavy, 
repeated impacts on preferred areas while other parts of the paddock 
receive light or no utilization (Coughenour 1991; Fuls 1992; Kellner 
and Bosch 1992; Teague et al. 2004). Figure 1 illustrates the impact of 
grazing on a rangeland landscape. Note the uneven impacts that result 
in greater than expected impact on the favored areas and 
underutilization over the rest of the landscape.
    These impacts over the heavily grazed portions of the landscape set 
in motion a degradation spiral. Droughts, which are common in many 
rangeland ecosystems, exacerbate the effects of chronic defoliation 
(McIvor 2007), causing preferred plants to be less productive and 
eventually perish unless afforded a recovery period. This increases the 
amount of bare ground and favors less desirable plants, which are more 
highly physically and chemically defended species of grass, forbs and 
shrubs (Briske 1991; Provenza 2008). Reducing stocking rates to low 
levels to reduce degradation often exacerbates uneven grazing impact 
because the most desirable areas and plants within them continue to be 
more frequently and intensively grazed while less desired areas and 
plants are visited less often (Teague et al. 2004). Therefore, while 
stocking according to forage supply is a crucial first step in 
sustainable rangeland management for livestock production, it must be 
applied in conjunction with other practices that increase animal 
distribution and movement, and that include periodic growing season 
recovery and short grazing periods to mitigate the damaging effects of 
repeated selective grazing (Morris and Tainton 1991; O'Connor 1992; 
Provenza 2008). This process of degradation causes loss of soil carbon 
as the amount of bare ground increases and as the most productive 
grasses that contribute most to sequestering soil carbon are replaced 
by less productive grasses. Thus the impact of overgrazing directly 
causes greater loss of soil carbon and a decrease in the amount of 
carbon sequestered.
                 managing to improve ecosystem function
    The key to sustaining and regenerating ecosystem function in 
rangelands is actively managing for reduction of bare ground, promoting 
the most beneficial and productive plants by grazing moderately over 
the whole landscape, and providing adequate recovery to grazed plants. 
These changes result in decreased soil carbon loss and increase carbon 
sequestration. Ecosystem function is enhanced when the amount of water 
entering and being retained in the soil increases. While many grassland 
ecosystems have been degraded through unsustainable livestock 
production practices, ranchers throughout the world have shown it is 
possible to use planned multi-paddock grazing to reverse degradation in 
areas with as little rain as 250 mm per year to areas receiving over 
1,500 mm per year. This reversal is also possible on public rangelands, 
as demonstrated by numerous ranchers on privately owned ranchland in 
the Great Plains and western rangelands.
    Restoring the ecological functionality of these degraded ecosystems 
necessitates the use of regenerative grazing management practices. Such 
grazing management has resulted in increasing forage productivity, 
restoration of preferred herbaceous species that were harmed by 
previous grazing practices, and increased soil organic carbon and soil 
fertility, water holding capacity and economic profitability for 
ranchers (Teague et al., 2011; Teague et al. 2013). In ``across the 
fence'' comparisons in semi-arid rangelands of Texas, planned multi-
paddock grazing applied to areas previously degraded through prolonged 
continuous grazing resulted in carbon sequestration and soil organic 
carbon increases that lead to an estimated average difference of 30 
metric tons of carbon per hectare over a decade compared to commonly 
practiced heavy continuous grazing (Teague et al. 2011). When domestic 
ruminants are managed in a way that restores and enhances grassland 
ecosystem function and where the only feedstock is grass produced via 
solar energy, increased carbon stocks in the soil will lead to larger 
and more diverse populations of soil microbes, which in turn increase 
carbon sequestration, including methane oxidation (Bardgett and 
McAlister 1999; Teague et al. 2013). Therefore, as long as management 
results in building soil health, and does not have other carbon inputs, 
grazing animals can lead to carbon ``negative'' budgets, i.e. more 
carbon enters the ground than is emitted, either directly via carbon 
loss from the soil or indirectly via ruminant greenhouse gas emissions 
(DeRamus et al. 2003; Liebig et al. 2010; Janzen 2010; Delgado et al. 
2011).
    Ranching in rangeland ecosystems is characterized by ever-changing 
and unpredictable environmental conditions and circumstances due to 
low, variable and spatially and temporally heterogeneous precipitation 
and plant productivity, and to fluctuating economic conditions driven 
by market price fluctuations and shifting social values. By using soil, 
water and plant resources efficiently and sustainably, successful 
rangeland managers enhance the health of the ecosystems upon which they 
depend, their profitability and their life quality, while also 
providing ecosystems services desired by society (Walker et al. 2002). 
They combine scientific principles and local knowledge to proactively 
manage animals to influence four ecosystem processes: efficient 
conversion of solar energy by plants; interception and retention of 
precipitation in the soil; optimal cycling of nutrients; and promotion 
of high ecosystem biodiversity with more complex mixtures and 
combinations of desirable plant species (Stinner et al. 1997; Reed et 
al. 1999; Savory and Butterfield 1999; Gerrish 2004; Barnes et al. 
2008; Diaz-Solis et al. 2009; Teague et al. 2013). To accomplish this, 
successful managers apply the following five principles:

  1.  Provide sufficient forage for animals to select a diet of 
            adequate quantity and quality;
  2.  Manage grazing so animals eat a wide variety of plants and 
            decrease impacts on desirable plants;
  3.  Leave enough leaf biomass on defoliated plants to facilitate 
            interception and infiltration of precipitation and to 
            maintain sufficient photosynthetic capacity for rapid plant 
            recovery;
  4.  Allow adequate post-grazing recovery to maintain plant vigor and 
            desired plant composition; and
  5.  Plan and create the means to control grazing pressure in time and 
            space to facilitate the previous four principles.

    This has been achieved most successfully by using multiple paddocks 
per herd, or moving animals around by herding, or using fire to achieve 
light to moderate defoliation for short periods of time during the 
growing season followed by adequate recovery time before grazing again. 
Multi-paddock grazing thus facilitates grazing of the whole landscape 
by grazing one paddock at a time, as illustrated in Figure 2. Using 
many paddocks spreads the impact of livestock over the whole landscape, 
and by managing each subdivision to ensure moderate use in the growing 
season and adequate recovery, the negative impacts of grazing under 
continuous grazing (even at low stocking rates) are mitigated, 
resulting in much better ecological condition and soil health. This 
also facilitates selecting a wider variety of plant species, regulating 
how much of a paddock is grazed before it is vacated to recover and the 
length of time necessary to allow full recovery. The USDA-Natural 
Resources Conservation Service promotes regenerative multi-paddock 
grazing as the best means to improve soil health.
    Superior results in terms of range ecosystem improvement, 
productivity, soil carbon and fertility, water holding capacity and 
profitability have been regularly obtained by ranchers using multiple 
paddocks per herd with short periods of grazing, long recovery periods 
and proactively changing recovery periods and other management elements 
as conditions change (Teague et al. 2011; 2013). One of the most 
important benefits of using planned multi-paddock grazing is that it 
facilitates making essential adjustments to all facets of management to 
avoid incurring negative impacts and taking advantage of positive 
events that occur. The main items that have been found to achieve best 
results include:

    <bullet> Matching animal numbers to available forage at all times;
    <bullet> Spreading grazing over the whole ranch;
    <bullet> Defoliating moderately in growing season;
    <bullet> Using short grazing periods;
    <bullet> Allowing adequate recovery before regrazing;
    <bullet> Grazing again before forage becomes too mature for good 
            animal performance; and
    <bullet> Proactively changing these elements according to changing 
            conditions.

    Many ranchers around the world have used these proactive, multi-
paddock grazing management principles to restore ecosystem services and 
productivity on degraded rangelands. Many ranches in drier ecosystems 
were initially so bare of vegetation that they would have been 
classified as desertified. The overwhelming majority of conservation 
awards to ranchers operating on native rangelands have gone to ranchers 
using multi-paddock grazing of one form or another. These ranchers 
operate in extensive, heterogeneous landscapes, where they are 
confronted with the adverse effects of uneven grazing distribution, and 
their collective ecological and management knowledge of multi paddock 
grazing indicates the necessity of using proactive, multi-paddock 
grazing management to achieve superior outcomes. This form of grazing 
management has been shown to be effective in restoring plant cover of 
the soil, plant species composition and productivity on millions of 
hectares on four continents, primarily in semi-arid and arid areas, 
since the 1970s. Sacks et al. (2014) have postulated that it has the 
potential to remove excess atmospheric carbon resulting from 
anthropogenic soil loss and degradation over the past 10,000 years, as 
well as industrial-era greenhouse gas emissions. This sequestration 
potential, when applied to the approximately 5 billion hectares of 
degraded range and agricultural soils, could theoretically return 10 or 
more gigatons of excess atmospheric carbon to the soil annually and 
lower greenhouse gas concentrations to pre-industrial levels in a 
matter of decades. As a low-tech approach it is inexpensive and entails 
little of the risk inherent to large-scale, industrial environmental 
solutions. On public lands where permanent structures are not favored, 
the common practices of herding, or forming paddocks with moveable, 
solar-powered electric fences offer eminently practical and low cost 
solutions.
    An analysis of ranching failures (Teague et al. 2013) reveals many 
common problems that need to be avoided. They include:

    <bullet> Too many animals before soil and plants had improved
    <bullet> Not developing suitable stock water system
    <bullet> Inadequate planning
    <bullet> Not adapting as conditions change
    <bullet> Defoliating too heavily in growing season
    <bullet> Long grazing periods
    <bullet> Inadequate recovery before regrazing
    <bullet> Expecting improvements where conditions are very limiting

     contradictory results from research and ranch based experience
    Most research related to grazing management (reviewed by Briske et 
al. 2008; 2011), and thus carbon sequestration potential on rangelands, 
has been short term and has examined the issue from a reductionist 
viewpoint that ignores the critical influences of scale (Figure 3), and 
does not use proactive multi-paddock grazing to achieve sound animal 
production, resource improvement, and socio-economic goals under 
constantly varying conditions on rangelands (Teague et al. 2013). 
Figure 3 superimposes hypothetical research plots on this landscape at 
the scale of most grazing management research. Note that no matter 
which plot or group of plots is chosen NONE of them shows the impact 
that occurs over the whole landscape. This illustrates how poorly most 
research on this topic has misrepresented what actually happens on 
commercial ranch landscapes.
    In a recent review of the literature to determine why many research 
projects have arrived at conclusions that are contradictory to results 
obtained worldwide on ranches managed for conservation goals, Teague et 
al. (2013) report a number of key reasons. First, the application of 
experimental treatments in controlled grazing experiments has, in 
general, not taken into account commonly recognized principles to 
maintain health and vigor of plants and nutrient intake of animals. In 
addition, the spatial limitations, short-term nature, and inflexible 
grazing treatments imposed in most experiments have prevented 
researchers from adequately accounting for the spatial heterogeneity of 
vegetation, temporal shifts in weather, plant composition, time lags in 
learning necessary for animals to perform to their potential with 
changes in management, and stocking rate adjustments that characterize 
most rangeland production systems. Such experimental limitations have 
frequently led to results that imply multi-paddock grazing treatments 
are no better than, or inferior to, lightly or moderately stocked 
continuous grazing treatments, when in each case the reaction of 
organisms of interest are at the mercy of these factors without 
management to adjust to these factors.
    By contrast, many ranchers have achieved excellent animal 
production and soil and vegetation improvements using multi-paddock 
grazing and find that the flexibility and timeliness of feedback 
inherent in multi-paddock grazing facilitate improved management 
compared to continuous grazing. They have responded to changing 
environmental circumstances through the use of proactive management 
practices that include regular resource monitoring and timely 
adjustments in livestock placement and numbers. In complex ever-
evolving ecosystems, components emerge, change, and then disappear and 
managers cope and then capitalize on changes they help to initiate 
(Teague et al. 2013). We typically long for a standard recipe to ensure 
that we sustain the status quo, despite knowing that we are awash with 
variability in social and biophysical environments with changes largely 
out of our control. Instead, good management of complex systems 
requires flexibility, and less attempt to control than to understand 
and respond appropriately and continuously to changes as they arise. In 
the context of productive landscapes, successes should be judged at the 
system level and based on whether the system can support those who 
depend on it.
    A second and related reason most grazing trials have not 
corroborated successful ranch-scale multi-paddock grazing experiences 
is that they have not adequately addressed animal-plant interactions at 
appropriate scales. Without management intervention, plant- and area-
selective grazing increases with increasing paddock size and time. In 
general, small-scale and short-term grazing trials have not accounted 
for the uneven distribution of livestock in large continuously grazed 
paddocks, which leads to localised pasture degradation over time (see 
Figure 3). Neither has it accounted for the more even distribution of 
livestock in small continuously grazed research paddocks that leads to 
more even utilization. In addition, ranchers achieving positive results 
with planned multi-paddock grazing generally proactively manage 
recovery time to provide consistently adequate physiological recovery 
for defoliated plants. Either way, the conclusions are affected by the 
design and implementation of the study.
    By ignoring successful restoration examples of conservation award 
winning ranchers who use planned multi-paddock grazing to proactively 
achieve desired goals and avoid negative consequences, research 
scientists have grossly underestimated the potential of management to 
facilitate carbon sequestration on the rangelands of the world. 
Consequently, they do not represent the subject adequately because 
conclusions have been selectively chosen so as to exclude published 
data showing superior results from proactively managed multi-paddock 
grazing at commercial ranch scales. The studies referenced 
underestimate positive benefits to soil and ecosystem function, so they 
almost certainly underestimate the potential of rangelands to sequester 
carbon and benefit ecosystem function overall.
    Research that concentrates only on differences in productivity 
without meaningfully taking into account negative impacts on the 
environment can lead to misleading extrapolations. Such conclusions 
cloud rather than enhance knowledge about sustainable grazing 
management and have no relevance for practical grazing management 
applications. Further, published multi-paddock grazing research from 
Australia, Southern Africa, Argentina and the United States have 
arrived at the opposite view to those expressed by Briske et al. (2008; 
2011) when: (i) conducted at the scale of ranching operations, (ii) 
proactively managed as conditions changed to achieve desired ecosystem 
and production goals, and (iii) measured parameters indicating change 
in ecosystem function (see Teague et al. 2011; 2013).
                              conclusions
    For soils to be a net sink for GHGs rather than a major source of 
GHGs as at present, grazing management on rangelands must build rather 
than compromise soil carbon and soil microbial functions, and reduce 
creation of bare soil and resulting erosion more effectively. With 
appropriate management in grazing situations, ruminant livestock have 
an important role to play in achieving these goals. They facilitate 
carbon sequestration in the soil to more than offset their GHG 
emissions, while providing essential ecosystem services that enhance 
both human and ecosystem well-being, such as improving water catchment 
function, stabilization of soil and soil fertility, carbon 
sequestration, enhancing wildlife habitat and biodiversity, and 
promoting the ability of local populations to sustain livelihoods.
    Achieving these positive results on rangeland requires a change in 
land management practice. Emerging research suggests that non-
conventional grazing management on cultivated pastures and rangeland 
might at least reduce GHG footprint, and at best, turn livestock 
management practices into a tool to improve the global environment, 
local ecosystems, economies, and even human health. Based on this 
research and observations on ranches around the world, planned multi-
paddock grazing management can increase soil plant cover, plant 
productivity and soil organic carbon and thereby provide carbon sinks 
that far exceed the production of GHGs from the grazing ruminants. 
Planned multi-paddock grazing management also results in less erosion 
and improved hydrological processes that reduce non-livestock related 
GHG emissions. Where planned multi-paddock grazing has been applied in 
semi-arid and arid lands for some time, ephemeral streams have re-
perennialized and biodiversity has recovered to varying degrees. Soil 
building grasses, nitrogen fixing native leguminous plant species, and 
even pollinators have come back. In short, planned multi-paddock 
grazing management appears to be an effective and low-cost way to 
reverse the deleterious effects to ecosystems of long-term continuous 
grazing.
                               references
Bardgett and McAlister 1999. Biology and Fertility of Soils 29, 282-
290.

Barnes et al. 2008. Rangeland Ecology and Management 61, 380-388.

Briske et al. 2011. Rangeland Ecology and Management 64, 325-334.

Briske et al. 2008. Rangeland Ecology and Management 61, 3-17.

Briske 1991. Grazing Management: An Ecological Perspective. Timber 
Press, Portland, pp. 85-108.

Coughenour 1991. Oecologia 68, 105-111.

Daily 1997. What are Ecosystem Services? Island Press, Washington, pp. 
1-10.

Delgado et al. 2011. Journal of Soil and Water Conservation 66, 118A-
129A.

DeRamus et al. 2003. Journal of Environmental Quality 32, 269-277.

Diaz-Solis et al. 2009. Agricultural Systems 100, 43-50.

Frank et al. 1998. BioScience 48:513-521.

Fuls 1992. Journal of Arid Environments 23, 59-69.

Gerrish 2004. Management-Intensive Grazing: The Grassroots of Grass 
Farming. Green Park Press, Ridgeland, MS.

Grice and Hodgkinson 2002. Global Rangelands: Progress and Prospects. 
CABI Publishing, NY, pp. 1-11.

Hulbert 1988. Ecology 50, 874-877.

Janzen 2010. Animal Feed Science and Technology 166-167, 783-796.

Kellner and Bosch 1992. Journal of Arid Environments 22, 99-105.

Liebig et al. 2010. Journal of Environmental Quality 39, 799-809.

McIvor 2007. Rangeland Journal 29, 87-100.

Milchunas and Lauenroth 1993. Ecological Monographs 63, 327-366.

Morris and Tainton 1991. African Journal of Range and Forage Science 
13, 24-28.

O'Connor 1992. Journal of the Grassland Society of Southern Africa 9, 
97-104.

Oesterheld et al. 1992. Nature 356, 234-236.

Pielou 1991. After the Ice Age: The Return of Life to Glaciated North 
America. The Univ. Chicago Press, Chicago, Illinois.

Provenza 2008. Journal of Animal Science 86, 271-284.

Reed et al. 1999. Rangelands 4, 3-6.

Sacks et al. 2014. Geotherapy. CRC Press.

Savory and Butterfield 1999. Holistic management: a new framework for 
decisionmaking. 2nd edition. Washington, DC: Island Press. 616 p.

Stinner et al. 1997. Agriculture Ecosystems and Environment 62, 199-
213.

Stuth, 1991. Grazing Management: An Ecological Perspective. Timberland 
Press, Portland, pp. 65-83

Teague et al. 2013. Journal of Environmental Management 128, 699-717.

Teague et al. 2011. Agriculture Ecosystems and Environment 141, 310-22.

Teague et al. 2004. Journal of Arid Environments 58, 97-117.

Thurow 1991. Grazing Management: An Ecological Perspective. Timberland 
Press, Portland, pp. 141-159.

Walker et al. 2002. Conservation Ecology 6, 14. URL:http://
www.consecol.org/vol6/iss1/art14.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                             

          Questions Submitted for the Record to Richard Teague
    Question 1. During the hearing there was extensive discussion of 
the use and value of applying compost to rangelands to sequester carbon 
(C) in soils. Is the application of compost a requirement to increase 
the sequestration of carbon on the public rangelands and forests?

    Answer. No, it is not essential. My research has been entirely on 
native rangelands where I have shown with rigorous quantitative data 
that real world practicing ranchers can create a differential uptake of 
soil carbon compared to their adjacent peers through regenerative 
grazing management practices alone. To be explicit, by comparing 
ranches in North Texas we demonstrated an ability to take up an average 
of 30 tons of additional carbon per hectare over a 10-year period with 
regenerative grazing relative to the commonly practiced heavy 
continuous grazing on neighboring ranches (Ref: Teague et. al. 2011). 
Although this was in a prairie ecosystem in a different environment, 
this rate of uptake at 3 t C/ha/year is larger than that seen so far 
resulting from addition of compost on the Wick Ranch and at 
considerably lower cost. The NRCS has measured similar responses to 
regenerative grazing management in many other U.S. grazing ecosystems. 
I do believe the Wick Ranch work is very encouraging, and may lead us 
in a direction where compost also plays an important role. Compost may 
be an especially important and valuable addition in the near term, 
given an abundance of both highly degraded lands and waste. That said, 
rigorous research on grazing, compost and other techniques (e.g. 
biochar) is still quite rare, so we won't understand potential, 
variability and controls until more research is done--something I 
believe should be a priority.

    Question 2. Livestock have been widely identified as a major 
contributor to climate change because of the carbon dioxide (CO2) you 
say could be sequestered, wouldn't that actually make things worse 
because of the additional methane they would produce?

    Answer. When domestic ruminants are managed in a way that restores 
and enhances grassland ecosystem function and where the only feedstock 
is grass produced via solar energy, increased carbon stocks in the soil 
will lead to larger and more diverse populations of soil microbes, 
which in turn increase carbon sequestration, including methane 
(CH<INF>4</INF>) oxidation. Therefore, as long as management results in 
building soil health, and does not have other C inputs to the 
management system, grazing animals could lead to carbon ``negative'' 
budgets--more C enters the ground than is emitted, or indirectly via 
ruminant emissions (Delgado et al. 2011).
    Most cattle produced in ``developed'' world countries from 
conventionally grazed rangelands and forage-based grazing systems are 
finished for the marketplace on high starch, grain-based feeds. 
Proponents of this finishing method claim that, compared to grass-
finished beef production, intensification of production through the use 
of grain-based feeds results in lower greenhouse gas (GHG) emissions 
per marketed animal because it reduces the overall production time to 
slaughter. However, this may not be the case when the full GHG 
emissions associated with the production of grain-based feeds are taken 
into consideration. Not accounting for the substantial GHGs emissions 
resulting from crop production that include soil erosion, greatly 
underestimates GHG production associated with the industrial 
agriculture paradigm for producing beef (see Figure 1).
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Appropriately managed grazing resources can increase soil 
fertility, minimize soil erosion and sequester considerably more C than 
the C-equivalents emitted as GHGs by the animals grazing them. 
Regulating ruminant-based enteric CH<INF>4</INF> is immaterial in the 
overall C footprint of beef cattle production from grassland. This is 
based on data from the Northern Plains where, when using a modest 
annual soil organic carbon (SOC) sequestration rate of 0.17 tons/ha 
with the continuously grazed forage base, both heavy and moderately 
stocked grazing systems produced substantial carbon sinks of -0.618 and 
-0.783 tons CO<INF>2equiv</INF>/ha/year, respectively. Overall these 
systems yielded -0.026 and -0.145 tons CO<INF>2equiv</INF>/kg-animal 
gain while the enteric methane was reported to be 0.484 and 0.176 tons 
CO<INF>2equiv</INF>/ha/year (Liebig et al., 2010).

    Question 3. Do public land grazing lands require grazing livestock 
in order to be ecologically healthy and sequester carbon or are there 
ways to increase soil carbon sequestration on rangeland and forests 
that do not require animal impact? If so, do you think these 
alternative methods would be practical to use on public lands?

    Answer. Prior to European man's arrival, grassland ecosystems in 
North America were characterized by free-ranging herds of large, 
migratory herbivores which moved constantly from and avoided fouled 
grazing sites seeking water and nutrients, and in response to changes 
in the vegetation due to topography, edaphic effects and variable and 
patchy precipitation to improve their diet quality and grazing 
efficiency (Frank et al., 1998; Teague et al., 2013). They also moved 
for a variety of other reasons including social factors, fire, 
predators, and movements by herders and hunters. Therefore, although 
grazing was intense at any particular site, such concentrated grazing 
seldom occurred at length and defoliated plants were usually afforded 
time and growing conditions to recover (Frank et al., 1998). This 
periodic vegetation defoliation and regrowth created by migratory 
herbivores contributed to ecosystem stability and the availability of 
high quality diet for these herbivores.
    A further factor contributing to stability in these ecosystems is 
that grazers are important regulators of ecosystem processes in grazing 
ecosystems (Frank and Groffman, 1998). Ungulates in grazed ecosystems 
increase forage concentration, grazing efficiency, forage nutrient 
concentration and above-ground plant production (Frank et al., 1998). 
They also improve mineral availability by enhancing soil microbial 
nutrient enrichment and root zone processes that ultimately feedback 
positively to plant nutrition and photosynthesis (Hamilton and Frank, 
2001) in addition to increasing nutrient cycling within patches of 
their urine and excrement (Holland et al., 1992). Consequently, grazing 
results in maximum vegetation productivity at intermediate levels of 
defoliation and low levels of production at excessively low or high 
levels of defoliation (McNaughton, 1979; Dyer et al., 1993; Turner et 
al., 1993).
    Under these conditions grassland ecosystems were functionally 
efficient and stable by virtue of: efficient conversion of solar energy 
by plants; interception and retention of precipitation in the soil; 
optimal cycling of nutrients; and promotion of high ecosystem 
biodiversity with more complex mixtures and combinations of desirable 
plant species. If large herbivores are removed from these ecosystems, 
the ecosystems quickly cease to function efficiently. Undefoliated 
grass accumulates to shade new leaves, reducing photosynthetic energy 
capture, eliminating nutrient inputs from dung and urine, and reducing 
microbial cycling of nutrients by soil microbes. This reduces all forms 
of life that depend on energy and nutrients from plants, including soil 
microbes, insects, birds and animals in the ecosystem. The whole 
ecosystem degrades.
    Mowing can remove plant material to allow photosynthesis but does 
not efficiently recycle nutrients, so apart from being impractical for 
vast areas of grasslands; it results in less efficient ecological 
function. Fire can also remove plant material but by causing bare 
ground for extended periods, the amount of water entering the soil is 
reduced and erosion and loss of soil carbon is increased. This is 
particularly damaging as the amount of precipitation entering the soil 
is the most important factor limiting ecosystem function in the drier 
grazing ecosystems that make up most of U.S. public land grassland 
ecosystems. Even in more moist grazing ecosystems, such as the 
tallgrass prairie, burning alone results in loss of nutrients and 
biodiversity relative to when grazing is part of management (Seastedt 
1995). Fire is also very hazardous in many areas and appropriately 
managed grazing reduces this hazard.
    Another non-grazing method involving wetlands can also put 
significant carbon back in soils. However, as wetlands make up a very 
small area in U.S. public lands I will merely direct you to the 
excellent work of Dr. Lisamarie Windham-Myers of the USGS in Menlo 
Park, CA who is demonstrating some very high local capacity for 
increased carbon storage. Wetlands may have lower capacity due to lower 
total areas, but very high carbon uptake rates could make them an 
important part of a holistic plan to catalyze putting carbon back in 
soils.

    Question 4. During the hearing there was a challenge to the 
assertion that grasslands and related ecosystems store the most carbon 
in their soils in the most stable way compared to other methods. Will 
you provide more support for this assertion?

    Answer. I concentrate on management of grazing lands to restore 
ecosystem function but there are more authoritative scientists to 
answer this question. The references that follow are from their 
published work on the subject. Terrestrial ecosystems are an important 
global carbon sink and the size of the sink is related to global 
grazing lands (Schimel et al. 2011; Prentice et al. 2001). Grasslands, 
among the largest North American biomes, covering >125 million ha 
(Kuchler 1964), store more carbon in soils than other ecosystems and 
are more stable long-term as carbon sinks than forests, which store 
more tons per hectare but do so by having higher above-ground biomass. 
This poses a considerably higher risk from fire and other hazards than 
grasslands that have the majority of their biomass and carbon below 
ground (Pacala et al. 2001; White et al. 2000).

                               references

Delgado et al., 2011. Conservation practices to mitigate and adapt to 
climate change. Journal of Soil and Water Conservation 66, 118A-129A.

Dyer et al., 1993. Dyer, M.I., Turner, C.L., Seastedt, T.R., 1993. 
Herbivory and its consequences. Ecological Applications 3, 10-16.

EPA, 2013. U.S. GHG inventory. http://www.epa.gov/climatechange/
ghgemissions/usinventoryreport.html

Kuchler AW: Potential natural vegetation of the conterminous United 
States. American Geographical Society New York; 1964.

Frank et al., 1998. The Ecology of the Earth's Grazing Ecosystems. 
BioScience 48, 513-521.

Frank and Groffman, 1998. Ungulate vs. landscape control of soil C and 
N processes in grasslands of Yellowstone National Park. Ecology 79, 
2229-2241.

Hamilton and Frank, 2001. Can plants stimulate soil microbes and their 
own nutrient supply? Evidence from a grazing tolerant grass. Ecology 
82, 2397-2402.

Holland, E.A., Detling, J.K., 1990. Plant response to herbivory and 
below ground nitrogen cycling. Ecology 71, 1040-1049.

Lal, 2003. Soil erosion and the global carbon budget. Environment 
International 29, 437-450.

Liebig et al., 2010. Grazing Management Contributions to Net Global 
Warming Potential: A Long-term Evaluation in the Northern Great Plains. 
Journal of Environmental Quality 39, 799-809.

McNaughton, 1979. Grazing as an optimization process: grass-ungulate 
relationships in the Serengeti. The American Naturalist 113, 691-703.

Pacala et al., 2001. Consistent land- and atmosphere-based U.S. carbon 
sink estimates. Science, 292:2316-2320.

Prentice IC, et al.. 2001. In: Climate Change: the scientific basis, 
the contribution of WGI of the IPCC to the IPCC Third Assessment Report 
(TAR), (Eds. J.T. Houghton and D. Yihui). Cambridge University Press, 
Cambridge, UK. 183-237.

Schimel et al., 2001. Recent patterns and mechanisms of carbon exchange 
by terrestrial ecosystems. Nature, 414:169-172.

Seastedt, T.R. 1995. Soil systems and nutrient cycles of the North 
American Prairie. In: The Changing Prairie: North American Grasslands. 
Oxford University Press, N.Y., pp 157-176.

Teague et. al., 2011. Grazing management impacts on vegetation, soil 
biota and soil chemical, physical and hydrological properties in tall 
grass prairie. Agriculture Ecosystems and Environment 141, 310-22.

Teague et al., 2013. Multi-paddock grazing on rangelands: Why the 
perceptual dichotomy between research results and rancher experience? 
Journal of Environmental Management 128, 699-717.

Turner et al., 1993. Maximization of aboveground grassland production: 
the role of defoliation frequency, intensity and history. Ecological 
Applications 3, 175-186.

White et al. 2000. Grassland ecosystems. World Resources Institute, 
Washington, DC, USA.

                                 ______
                                 

    Mr. Bishop. Thank you very much.
    Supervisor Martin, I appreciate you being here, you are 
recognized.

  STATEMENT OF TOMMIE MARTIN, SUPERVISOR, GILA COUNTY, ARIZONA

    Ms. Martin. Chairman Bishop and Ranking Member Grijalva, 
esteemed Members, thank you for having me here.
    In addition to being a Gila County Supervisor for the past 
10 years, I am a rancher, and have been a consultant on ranch 
management and rangeland improvement efforts here in the United 
States, in Mexico, and East Africa over the last 30 years. Over 
130 years ago, when my great-grandparents first settled in what 
would become Gila County, this process of capture, convert, and 
collecting carbon that we are talking about today was 
functioning with high efficiency.
    My great-grandmother described to me land that was open, 
rolling, grassy hillsides with stringers of trees in the upper 
elevations. She called it Pine Savannah. Today it is a tree 
brush thicket with little to no grass. She said there may have 
been 30 trees to the acre. Today there are up to 3,000. She 
describes streams that were perennial and full of the native 
brown trout. Today we have lost 1,000 miles of those streams 
and the trout within them. Much of the wildlife she discussed--
wolf, grizzly, clouds of wild canary--are gone entirely. We now 
know that this landscape was a grazable woodland, sequestering 
vast amounts of carbon in the soil.
    So, why the change? Simple. A change of managers. She 
inherited land managed by the native people of the time. And 
don't kid yourself, they did manage it. I inherited land 
managed by the Federal Government, who took over shortly after 
my pioneer family arrived, and continues today.
    One result is an unprecedented wildfire fuel buildup. In my 
county, and much of the West, we live in this virtual sea of 
gasoline. I call it 100 years of failed Federal policy. As bad 
as it is, though, based on my personal experience, it is not 
too late to reverse this trend. Some 25 years ago, my sister, 
her husband, and I decided to experiment using cattle to help 
restore badly degraded land, and we picked some of the worst we 
could find in Nevada: the banks of an old cyanide leach pond 
from a gold mining operation. The ground was virtually sterile. 
But using cattle to incorporate organic matter into the soil, 
we got amazing results in just a year. You have the pictures in 
my written statement. It was pioneering work then; it is now 
routinely being used around the world.
    So, it is not a question of knowing how to reverse the 
deterioration we see and generate a wide range of benefits, 
including sequestering carbon. It is a matter of will we. 
Ultimately, this is not an environmental problem; it is a 
people problem. It will take considerable cooperation by 
everyone, and help from Congress.
    I am asking the committee today to consider establishing 
100,000-acre demonstration areas scattered throughout the West 
to implement very low-cost, high-benefit practices on Federal 
lands that can demonstrate, in a large-enough area, these 
principles. I would like at least one in Gila County. As noted, 
benefits would include carbon capture, endangered species 
restoration, hydrological improvements, opportunities for 
western citizens to once again live off the land.
    I would like to reference the Deseret Ranch the Chairman 
talked about, in northeastern Utah. They use mixed livestock as 
their management tool, and they have managed 202,000 acres of 
mixed U.S. Forest Service, BLM, and private land to meet any 
conceivable environmental need of many, many species, while 
netting $3.5 million, or $17.33 an acre. In my county of Gila, 
we have three million acres of Federal land, and the ranching 
community there might net $.05, a nickel.
    You see PILT and other Federal payments are insufficient 
and, I believe, unnecessary if Federal land management policies 
could be reserved to allow environmentally sound approaches. 
There simply isn't enough money in the treasury to solve this 
problem. But there is in the economy.
    A good example of the cooperation necessary to make this 
happen is how the environmental groups in our area have reacted 
to the obvious result of their decades-long opposition to 
logging and other methods of managing our forests. In my 
opinion, they were dead right about the problems they were 
seeing, but wrong on how to fix it. To their credit, they have 
admitted publicly that they were wrong. To their greater 
credit, they have been working constructively to correct it. 
Unfortunately, I can't always say the same for the U.S. Forest 
Service, even though many of the folks working for them try.
    An important cooperative effort in my area is an excellent 
example of a project that would not only help restore health in 
the forest, result in more carbon sequestering, and add wealth 
to the local economy, but a compromised Federal contracting 
process and prevailing agency culture is about to foil the 
project.
    In the meantime, to reduce the risk of catastrophic fire 
and buy time until industry has returned to the equation, my 
county in Gila developed a pioneering program to place water 
storage tanks around the county so helicopters could quickly 
put out small fires before they get out of hand.
    Since 2006, we have put out hundreds of small fires. The 
vast majority didn't get over 15 acres, and 18 of them were 
classified by the Forest Service as having catastrophic 
potential.
    In summary, we can sequester huge amounts of carbon on 
Federal lands, reverse their deterioration, and generate many 
environmental and economic benefits. But, based on my 
experience, it will take direction to the agencies and Congress 
to accomplish this. I look forward to discussing this further 
with the committee. Thank you.
    [The prepared statement of Ms. Martin follows:]
    Prepared Statement of Tommie Cline Martin, Gila County Arizona 
                        Supervisor, District One
    Chairman Bishop, Ranking Member Grijalva, distinguished members of 
the Public Lands and Environmental Regulation Subcommittee. I very much 
appreciate the invitation to present this written testimony to your 
House Natural Resources Subcommittee on Public Lands and Environmental 
Regulation Hearing on `Increasing Carbon Soil Sequestration on Public 
Lands', June 25, 2014.
                              introduction
    Let me begin by sharing a John F. Kennedy quote, ``The great enemy 
of the truth is very often not the lie--deliberate, contrived and 
dishonest, but the myth--persistent, persuasive and unrealistic''.
    In the carbon sequestration conversation, there IS a real, a 
simple, an economically positive alternative to our current Cap and Cut 
regulatory approach to the atmospheric carbon dioxide problem--and that 
is a Capture and Convert or Collect path through photosynthesis.
    Photosynthesis is the natural process of taking carbon and water 
and sunlight and making plant mass. Both forests and grasslands 
sequester carbon--forests mostly store carbon above ground in their 
woody tissue but not so much through their fairly shallow, lateral root 
systems. Healthy grasslands, on the other hand, have a very dense and 
very deep root system, and use it to store carbon in the soil as 
organic material and humus (see figure 1--Tree Roots; figure 2--NRCS 
Prairie; and figure 3--Calif grass).
    However, in the last 200 years our soils have lost half of their 
carbon reserves because nearly every practice we have brought to the 
land--be it deforestation, the plow, the annihilation of the buffalo, 
the fencing up of the land, you name it--the cumulative effect has been 
carbon loss in soils of all types.
    By the same token, for almost 50 years we have had the knowledge 
and the expertise to reverse this loss and refill these reserves with 
atmospheric carbon dioxide. For at least the last 30 years, many of the 
elements have been proven through research and replication.
    Our soils represent both a short- and long-term carbon storage 
medium. Even in their depleted state, soils still contain more carbon 
than is in all of the existing terrestrial plants AND in the current 
atmosphere combined--and STILL have the capacity to store at least half 
again as much in just replacing the loss of the last 200 years.
    While soils beneath forests and rainforests can be very fertile, 
the world's deepest, richest soils evolved as grazing land. Because 
forests mostly store carbon above ground in their woody tissue and 
grasslands store carbon in the soil, in a fire, forests release most of 
their stored carbon to the atmosphere, but in grassland fires most of 
the carbon remains in the soil.
    Now for the myth--when all is said and done, we are not dealing 
with a carbon problem, but with a people and their myths problem. To 
begin to manage our lands to intentionally reverse their carbon loss 
and to re-sink carbon into their reserve space, we must shift our 
collective worldview and land management path from our current 
mechanistic one to a holistic one.
    From a holistic perspective, it is easy to recognize, appreciate 
and work with the symbiotic, evolutionary relationship between grazers 
and grasslands. Once we re-attain the bone deep understanding that the 
grass needs the grazer for survival every bit as much as the grazer 
needs the grass, we then begin to understand how--together and managed 
holistically--they CAN restore atmospheric carbon dioxide to pre-
industrial levels and in a fairly short timeframe.
    So far, we've looked at this option as real and simple. Now let's 
briefly touch on economically positive.
    Our public land forests, by any honest measure, are either decadent 
or dying or dead and they are in these conditions, in my opinion and 
experience, due to 100 years of failed Federal policy. Also in my 
opinion, the only real way out of this dilemma is to be able to return 
industry to the forests and allow them to profitably reduce the massive 
fuel loads--which to industry represent products--and do so catering to 
both the environmental dictates of a desired future condition and the 
economic dictates of industry. Holistic, adaptive management driven by 
monitoring results of both sectors need to guide the process.
    The task of returning sustainable health, functioning and 
productivity to our public lands forests is enormous, imperative and 
almost too late. For many years we have acted as though we could buy 
our way out with subsidized Federal programs of one sort or another. It 
is my firm belief that there IS NOT enough money in the Treasury to 
solve this critical situation . . . but that there IS enough money in 
the Economy.
    Since 2006 in Arizona we have been trying to make just this 
scenario happen through our Four Forest Restoration Initiative (4-FRI) 
on the Apache-Sitgreaves, the Tonto, the Coconino and the Kiabab 
Forests.
    As for our grasslands and rangelands, I would turn your attention 
to Deseret Ranch, a 202,000 acre public and private land ranch in 
northeastern Utah, that has been practicing and helping develop these 
holistic management principles since the late 1970s/early 1980s. I am 
sure you know it well, Mr. Chairman, since it is in your congressional 
district. For any member who might be interested I know we can go visit 
so you can see for yourselves that every known environmental need for 
every possible plant, animal, fish, amphibian or bird species is being 
met on that ranch--and carbon has and is steadily being sunk into the 
land. And they are doing so while netting $3 million per year--or 
$14.85/acre.
    By contrast, the Arizona County I represent, Gila County, is 
comprised of 3 million public land acres and our ranching community--
following mechanistic rules and regs--not only may not be meeting the 
environmental needs of any species, they quite literally net 
approximately $0.05/acre--yes, a nickel. They, too, need to be allowed 
to follow these holistic principles targeted specifically at capturing, 
converting and collecting carbon, catering to both the environmental 
dictates of a desired future condition and the economic dictates of 
industry.
    Their profit would come from the products of meat, milk, hair, 
wool, etc. and, again, Holistic, adaptive management driven by the 
monitoring results of both sectors would guide the process. They would 
move from federally subsidized ranchers to profit centers--again, a 
``money from the Treasury vs. the Economy'' conversation.
    Let me now try to translate these ideas into some examples I have 
been involved in.
                            personal history
    For context, I was born and raised on a Public Land (USFS) cattle 
ranch near Payson, Arizona which is in the center of the state. My mom 
and her folks were also born and raised around Payson and my dad and 
his folks were from the Young, Arizona area a bit of east of Payson. My 
great-grandparents had come into the area beginning in the late 1800s.
    My folks claimed they could not hire the help needed to run the 
ranch, so they raised it. As a result, early on I had an extensive and 
thorough working knowledge of all aspects of the land-animal-plant-
human and/or environmental-social-economic interactions of ranching--
and particularly of public land ranching. Getting a college education 
was a given in my family, and I came out of Arizona State University 
with an Agri-Business Management Degree.
    My employment path led me to go to work for and with Allan Savory 
in 1985 at his Center for Holistic Resource Management. In the late 
1970s, I had visited several ranches within Arizona who were working 
with him and getting very interesting early improved land and animal 
health and productivity results and in 1980 I heard him make a 
presentation to the New Mexico Cattlemen's Annual Meeting--and found 
what would become my favorite windmill to tilt! I'm here today, in 
fact, tilting that same windmill.
    More than anything else, Allan gave me the language I needed to 
talk about the land-plant-animal relationships that I and my family 
intuitively knew and actively worked with; and with the early results 
coming out of the Holistic Model, he gave us the impetus to refocus on 
developing and catering to land-plant-animal dictates rather than 
calendar-clock dictates.
    However, ultimately, this led us to selling our ranch some 15-20 
years later because it just became too painful to have proved to 
ourselves what should and could be; to not be allowed to do it because 
of increasingly rigid and mechanistic Federal rules and regulations; 
and to know that these Federal rules and regs, when followed, force 
ranchers into wholesale overgrazing and puts us in a position of being 
the instruments of our own demise.
                          early demonstrations
    While working with the Center, one of my areas of responsibility 
was as the area representative for the Great Basin and the Southwest. I 
have a sister and brother-in-law, Jerrie and Tony Tipton, who ranch on 
public land (USFS and BLM) in Nevada. After teaching and consulting on 
Holistic Management for several years, I began wanting to turn the more 
theoretical elements of the process into results--because when all is 
said and done, if I can't translate the theory, the research, the 
intellectual ruminations into results through practical application, I 
begin to think I'm furthering the problem and not the solution.
    Something Tony and Jerrie and I had long been interested in--and 
pushed the envelope of--was soil fertility. This led us to digging up 
many plants in many soils types looking at root responses in different 
soils and under different grazing patterns. It led us to experiment 
with and observe free choice mineral use by the livestock and to record 
dramatic positive changes in pastures as livestock, through their 
mineral selection for elements missing or scant in the pasture, put 
those minerals back on the ground through their urine and manure--and 
pastures start the transition from a wheatgrass monoculture to a highly 
diverse native grassland. It also led us to the Soil Food Web work of 
Elaine Ingham's and that whole piece of the soil biology puzzle.
    I had long conversations with Tony and Jerrie about the whole 
Federal soils classification efforts, where their land managers based 
their management dictates and direction solely on the chemistry and 
physics of soil types (and still do) . . . with NO consideration given 
to the biology of soil or to the dramatic difference its presence or 
absence brings to sustainable soil health, functioning and productive.
    Those of us involved in these early efforts were learning the hows 
and whys of vastly improving a pasture through planned grazing, and 
doing so fairly quickly, but there were no discussions at the time on 
how to get the process started on the vast tracks of bare ground so 
prevalent on western public lands and played out farm ground.
    This, and more, led the three of us to decide we wanted to take a 
closer look at the Carbon Cycle of carbon plus water plus sunlight 
equals photosynthesis which translates into plants of all types--food, 
feed, grass, trees (and so seeds, nuts, fruits and so on)--to learn if 
and how we could `jump start' it, what influence that might have on the 
water cycle and the energy flow, and to better understand the use of 
animal impact as a powerful tool.
    In the middle of Tony and Jerrie's ranch was a mining operation 
called the Austin Gold Venture, with Inspiration Copper and FMC (Food 
Manufacturing Corp) the principles in the venture. Part of their mining 
process was a fenced Cyanide Leach pond behind about a 15 acre dam of 
virtually sterilized soil, that was about 3 stories (30 ft) tall with a 
northern, western and southern aspect, and a 1-1\1/2\ slope (steep 
slope).
    This was in the fall of 1989, and they had a 600+ head herd of cows 
and big calves that needed moved from the northern end of the ranch to 
the southern end and which would take them by this site. We got 
agreement from the mine manager to use the herd to incorporate carbon, 
brought in from off-site in the form of organic meadow hay, into the 
dam face to feed the near-sterile soil and see what would happen (the 
mine was in the process of winding down their operation over the next 
several years and were interested in possible reclamation potential 
since what we were about to do had not been tried on any land, much 
less mine spoils land--although what we did has since been widely 
duplicated on mine spoils, burned areas, depleted farm land, etc.).
    So on October 1, 1989 the three of us, and a man we hired to help, 
began to feed 32 ton of organic meadow hay (all we could afford) to 
600+ head of cattle on the dam face of that cyanide pond over a 6-day 
period and then moved them on to First Canyon. In the next 12 months, 
the valley in which this pond was located received 6" of moisture in 
the form of some snowfall and some rainfall. We returned to the site in 
October of 1990 (1 year later) and clipped and weighed over 3 ton/acre 
of organic meadow grass and forbs that had grown and covered the dam 
(see figure 4--AGV #1; and figure 5--AGV #2).
    When we got to First Canyon with the herd we decided that before we 
would turn them loose to disperse into the canyon that we would have 
them impact an area of very decadent and dying sage brush. We wanted 
them to incorporate what they could of on-site carbon (vs. off-site) 
into the soil and generally open up the area so sunlight could get 
below the dense sagebrush canopy and create more open inner spaces 
between the pinyon trees in the area.
    As you can see in the pictures, one of the most unexpected but 
exciting results of the next fall's monitoring of that site was the 
pinyon nut size and dark brown color from the trees nearest the site as 
compared to nuts picked in the same canyon but away from the impacted 
area (the browner the color, the more viable the nut, indicating that 
every nut had nut meat in it . . . grey/white ones have no nut meat, 
just shell) (see figure 6--1st Canyon #1; and figure 7--1st Canyon #2).
    My reason for sharing these two demonstrations with you is to first 
show you a couple of real life examples of the application of the 
principles mentioned earlier and then to point out that they were done 
25 years ago--this is not new knowledge. In the intervening 25 years, 
some form of these two intensive carbon applications have been used and 
demonstrated worldwide on degradated lands of all types.
    You should also know that after we got the first year's monitoring 
data we `danced' to the USFS and BLM, beginning in Nevada and ending 
here in DC, saying LOOK LOOK LOOK, let's DO this!!--and at every level 
we got mild interest, frowns and a new ration of rules and regs to keep 
THAT from happening again on public land!
    I am reminded of an experience I had some 7 years later in Somalia 
where one of my consulting partners and I had spent several trips over 
several months to a village (Buran) to help them learn how to apply 
these principles to regenerate the commonly used valley they depended 
upon to feed their livestock (another whole story). We had had our 
lessons and our field trips and our late night discussions and had put 
together the Holistic plan of action and were finally ready to 
implement. They had decided we should start by building some small 
check dams on the sides of a very steep, bare, rocky and eroding hill 
feeding into this valley.
    With everything in place and just before we left the classroom, I 
looked at the villagers and asked them who we now needed to go ask if 
we could proceed. After a long silence, one of the old men asked, 
``Mrs. Tommie Martin, is this good for the land?'' ``Yes'', I said. 
``Is it good for the animals?'' ``Oh, yes.'' ``Is it good for the 
people?'' ``Yes.'' ``Is it good for the village?'' ``Yes.'' And then he 
asked, ``In your country would you still have to ask someone for 
permission?'' And I said, ``Oh, yes! And 99 times out of 100 the answer 
would be `NO'.'' After another long pause, the old man asked, ``Mrs. 
Tommie Martin, what kind of a country do you live in?''
                          gila county examples
    Now to Gila County and our up-close and personal unhealthy forest 
challenges. Since 2004, I have represented the citizens of District One 
on the Gila County Board of Supervisors. Gila County, Arizona, located 
in the center of Arizona just northeast of Phoenix, is a rural county 
with a population of 53,144, of which 12 percent are unemployed and 21 
percent are living at or below 200 percent of the Federal poverty 
level. Within the County's boundaries of 4,795.74 square miles, there 
is the Tonto National Forest with seven federally designated wilderness 
areas totaling 920 square miles and one Wild and Scenic River (the 
Verde), and three Federal Indian Reservations (Tonto Apache, San Carlos 
Apache and White Mountain Apache), all of which total about 96 percent 
of the County's total land base.
    Gila County's landscape runs the gamut from Saguaro desert vistas 
to Ponderosa Pine covered mountains. The elevation ranges from 2,123 
feet at Roosevelt Dam to 7,920 feet in its north at both Promontory 
Point and Myrtle Point, on the edge of the Mogollon Rim. Over one half 
of Gila County is Federal public land, managed by the U.S. Forest 
Service. The San Carlos, Tonto, and White Mountain Apache Nations 
encompass an additional 37 percent of the land within the county.

    The Gila County government operates under the economic constraint 
that 96 percent of the land in Gila County is outside of our tax base 
as Federal and tribal land. These lands are under Federal and tribal 
management and exempt from local taxation. Of the remaining 4 percent 
of the land base, 2.5 percent is property used for mine tailings and 
taxed at a significant reduction. We operate on a tax base of only 1.5 
percent of the land.

    Of the 1.5 percent, the 1 percent lies in the desert and rangelands 
of the southern part of the county and the \1/2\ percent lies in the 
northern forested section. The heavily forested northern \1/2\ percent 
represents up to 70 percent of the county's total assessed valuation 
and is 100 percent at risk from catastrophic wildfire. In a bit, I will 
discuss how we as a County have been involved since 2006 in mitigating 
this risk.

    In Gila County, we recognize and understand the importance of 
protecting our natural resources while providing access for multi-
cultural activities, access and recreation opportunities to the public, 
as well as access to those whose livelihoods depend on resources 
located on Federal land. Historically, our economy and our residents 
have depended heavily on both resource-based industries and recreation 
opportunities on Federal land. We appreciate that we must take care of 
the land, but we need to be able to use the land to take care of 
ourselves. Over-protective Federal land policies have created an 
unsustainable environment for our western culture and economy.
    Not only must we deal with the steep challenge of managing a wide 
range of local governmental needs on such a limited tax base, we must 
also deal with the complications presented by the land management 
decisions made by our Federal land management agency neighbors. For 
example, the risk to our citizens from wildfire grows annually. While 
we work closely with the U.S. Forest Service to better manage the 
resource under their control, we are severely constrained in our 
ability to influence outcomes.
    When my ancestors came to Gila County in the later part of the 
1800s, the now densely forested lands were described to me by my great-
grandmother as ``open, rolling, grassy hillsides with stringers of 
trees in the upper elevations and stringers of chaparral in the lower 
climes. She drove the wagon that her family came to the area in and 
said that she could take that wagon in any direction and the boys could 
run a horse in any direction in what she talked about as a ``pine 
savannah''. Never once did she describe it as a forest--she said there 
may have been 30 trees to the acre in the most forested areas (we now 
have up to 3,000 in the same area she was describing). (see figure 8--
80 years of change)
    The streams were perennial and full of a native brown trout (since 
my grandfather's day we have lost over 1,000 miles of these same 
streams) and the forest was full of now long-gone birds and wild 
animals like wild canaries, grizzly bear and wolf.
    My family homesteaded and ran free-range livestock on the homestead 
permit, they owned a sawmill and logged and they prospected and located 
mines. Once the United States Forest Service (USFS) was established, we 
ranched on leased Federal lands, all the while bringing cattle, goats, 
and pigs to eat the understory and grasses and naturally till the 
soils. The animals constantly moved to maximize the grazing and avoid 
stressing any one area, because the pioneers, with their nomadic style 
of livestock handling, knew intuitively that overgrazing was caused by 
time and not animal numbers.
    Finally there is researched science to support this approach, but 
back then it was common sense. They understood that they needed the 
land to support them, and they had to take care of the land. Lightning 
strikes caused fires in the summer when the land was drier than during 
the wetter winters, but because the animals--wild and domesticated--
grazed the land and reduced the potential fuel for the fires, the 
forest fires were not the deadly threat they are today. In fact, such 
fires served to maintain the forest ecosystem.
    With the advent of the USFS came two of their dictates that became 
particularly devastating to our dry forests and rangelands (as opposed 
to the wet forests and rangelands of the eastern seaboard and the 
western peninsula of the United States, and much of Europe)--a 
situation they neither recognized nor understood. They both stopped an 
historic, almost ever-present fire within the forested areas and then 
they fenced up the open land stopping the nomadic livestock use of the 
browse and grasses that mimicked the historic use by wildlife. They 
also changed the wildlife free-range with these fences and have 
devastated whole wildlife herds through time.
    And so began 100 years of rule upon rule, policy upon policy (that 
continues to this day) to make these initial dictates ``work'' in an 
environment that has and will continue to die because of them. We are 
seeing the end game in our forests now, in fact.
    And over time, our ability to use the Federal lands to support our 
families became severely limited. Logging, mining, and grazing on 
Federal lands in Gila County has been all but completely eliminated. 
Environmental regulations and lawsuits created a business environment 
that shut down the industries that supported our families for 
generations.
    In the name of ``science,'' the logging mills are gone--that is 
both the infrastructure and the capability. As the Federal leases for 
grazing were eliminated or severely curtailed, families that ranched 
for generations lost their herds and their livelihoods and sold out to 
folks that could afford a ranch for a lifestyle and did not have to 
depend upon them for a livelihood.
    As the forests were allowed to grow unchecked, streams dried up and 
the water table was taxed due to 100 times as many ``straws'' taking up 
water--an acre with 30 trees vs. an acre with up to 3,000 trees turns 
every little dry spell into a drought. The drier conditions, and the 
artificial droughts, stressed the dense forest and laid the trees open 
to pests and disease.
    And the wildfire fuel buildup is unprecedented. The threat we live 
in--virtually a sea of gasoline--is unfathomable and completely created 
by 100 years of failed Federal policy. The stress on the ecosystem by 
this burden created by Federal land management decisions over the last 
10 decades, now compounded by a warming climate, must be addressed. We 
must start to restore our western landscapes for their own sake--for 
their health, functioning and productivity.
    But we must also restore them because they ARE our Nation's basic 
wealth source--and our ONLY renewable wealth source. Managing renewable 
natural resources should NOT cost our Nation money--it should in fact 
make money for our Nation. Managing them as our Federal Government now 
does in fact squanders our basic wealth source--either we do not add 
wealth to the country's coffers or we outrageously cause cost in areas 
like `management', fire suppression and subsidized thinning.
                               challenges
    As described above, we face many challenges living and surviving in 
our current environment. These challenges are both environmental and 
public safety oriented, and economic. In order to meet the challenges 
posed by a grossly overgrown disease-laden forest, we must look at the 
environmental and economic causes together.
    This land was healthy and thriving not that long ago, and adding to 
the Nation's treasury through the economy. It can be restored. But the 
needed restoration will require a major overhaul of Federal land 
management policy and implementation--again, a shift from a mechanized 
to a holistic worldview with adaptive management driven by monitoring 
results.
    The following is a short list of the major reasons I see for the 
serious decline in our forests' health and the related health of the 
communities dependent on the forests for their livelihood:

    <bullet> A halting of timber sales, and the related reduced 
            payments to the counties of 25 percent of the value of the 
            sales. The timber sales put people to work and helped 
            support our local governments.
    <bullet> Insufficient funding for thinning, combined with no 
            timbering, allows chronic overgrowth and buildup of 
            wildland fire fuel that presents a terrifying threat to our 
            county's residents.
    <bullet> Hijacked use of the National Environmental Policy Act 
            (NEPA) requirements to delay needed thinning efforts and 
            the return of industry. We have been witness to the Forest 
            Service and the environmental groups battling over tree 
            diameters while we burn. This cannot continue.
    <bullet> Entrenched bureaucracy limits the flexibility needed to 
            reach the creative solutions our landscape requires. The 
            willingness to work collaboratively that is so uniformly 
            and positively discussed in Washington needs to be 
            effectively implemented in the field.

    I would like to note for the record, however, that over the years I 
have had the opportunity to work with many agency people who ``get 
it.'' They know what the right things to do are and want to do them. 
But if they try it can affect their careers. Some act very 
courageously. There are some good people in these agencies, but the 
``institutional culture'' too often dictates unwise and unscientific 
policies. The result is the kinds of negative consequences I have 
outlined.
Opportunities
    While the challenges are steep, there are a number of positive 
movements that can help guide more effective Federal land management 
and best practices of local governments. Here are a few examples:

    <bullet> Collaboration is critical to restore forest health. We 
            cannot afford to keep fighting about who has the right 
            approach. My worldwide, multi-cultural experiences and my 
            involvement with both 4-FRI and the Forest Service's 
            Collaboration Cadre has shown me that we can save time and 
            money in making land management decisions with all parties 
            around the table from the beginning of the process to the 
            end having an open and respectful dialog.
    <bullet> Stewardship contracts can allow the forests to pay for 
            their own restoration. This is an effective mechanism to 
            put the forests back to work. To best implement 
            stewardship, I believe that the contracts must be self-
            sustaining, that is, not dependent on Federal or state 
            subsidies to make the business work. From my experience 
            working around the White Mountain Stewardship contract, as 
            well as 4-FRI, the Forest Service must cultivate and 
            ultimately chose self-sustaining businesses to contract 
            with, but I am not sure the Forest Service has the 
            expertise to evaluate business viability. I recommend that 
            Congress require that the Forest Service evaluate--or cause 
            to be evaluated by a qualified entity, in an open manner, 
            the economic health of the potential contractors, as well 
            as that of their proposals.
    <bullet> Continue to include cellulosic targets in EPA biofuel 
            standards. On Forests like the Tonto, where there is little 
            high quality lumber, but lots of ``fuel,'' the option of 
            turning the growth thinned from the Forest for biofuels is 
            very attractive. Recently, attention is turning toward 
            creating an economically viable cellulosic ethanol process. 
            As in all developing industries, Federal targets help 
            create a market. If a cellulosic biofuel market can be 
            developed, the Tonto Forest's thinning program could become 
            self-sufficient.

            gila county's response to catastrophic wildfire
    Finally, let's visit about Gila County's response to having 70 
percent of its assessed value being 100 percent vulnerable to 
wildfire--
    The geographical area known as Arizona's ``Rim Country'', which is 
northern Gila County, has experienced several massive and destructive 
forest fires over the years--beginning with the 25,000 acre Dude Fire 
in 1990--which at the time was the Nation's first `mega-fire'. While 
the Yellowstone Fires of 1988 burned far more acres, the Dude, because 
of its size, because 6 firefighters were killed fighting it, because it 
burned 60 homes and because it displayed examples of extreme fire 
behavior ever witnessed, was considered a mega-fire.
    Add to that the 467,000-acre Rodeo-Chediski Fire of 2002, the 
119,500-acre Willow Fire of 2004, the 243,950-acre Cave Creek Complex 
Fire of 2005 and the 538,000 acres of the Wallow Fire of 2011 and you 
might have a sense of the impending doom we feel as we sit in some of 
the only remaining, but highly fire-vulnerable, belt of forest along 
the Rim.
    And so, following the 4,000+ acre, $3 million, ``February Fire of 
2006'' north of Payson, AZ (the earliest major fire in that area's 
known history), I approached the local Ranger District of the U.S. 
Forest Service to see if there was any way the County could help 
mitigate what was shaping up to be the area's worst fire season up to 
then. Then and now, the USFS has no resources for first-strike 
response. Only after a fire gets to a certain level of involvement can 
they bring the Nation's resources to bear.
    The Forest Service suggested the best help Gila County could give 
would be to figure out how to locate or provide ``enough sources of 
adequate water that are helicopter-available for first strike resources 
so that all small fires can become non-fires and all medium fires can 
be held in place long enough for additional fire fighting resources to 
arrive.''
    To make a long story short, Gila County used what we call our 
``redneck ingenuity''. Our Public Works Department bought 20,000 and 
50,000 gallon fuel bladders from Desert Storm military surplus. We had 
about 80 feet of surplus 10-foot diameter culvert which we then cut 
into 10-foot lengths, plumbed with a 3-inch pipe and drain plug, welded 
on a steel bottom, hose-clamped used 3-inch hard plastic pipe around 
the top (to protect helicopter buckets and snorkels) and produced what 
we call a ``Hick's tank'' that holds another 6,000 gallons of 
helicopter-available water. We bought five 11-horsepower Honda pumps 
and several hundred feet of 4" soft hose to connect the bladder to the 
tank. (see figure 9--Tank)
    The various local Fire District Chiefs then took on the 
responsibility of ``manning'' the bladder-tank set-ups in each of their 
Districts to make sure the pumps were hooked-up, the bladders and tanks 
stayed full for initial helicopter use, and the County notified when 
more water was needed. The USFS committed at least one type-2 
helicopter to be available at the Payson Airport all fire season (there 
are usually several).
    We use our County 12,000 gallon construction-water-tank to draft 
and hold water from creek locations designated by the USFS as water 
suitable for fire fighting. We then use our 4,000 gallon water trucks 
to haul the water and fill both the bladders and Tanks so that there is 
+/- 26,000 gallons total of helicopter-available water in multiple 
locations. The idea is to have any spot in the Rim Country within about 
a 5 minute helicopter turn-around water haul (the initial 10 locations 
have grown to become 44 with most areas being within a 1-minute water 
turn-around). (see figure 10--Dip Sites)
    These set-ups are located behind locked gates and are signed 
``Wildfire Protection Water--Do Not Disturb. Our ability to help 
protect your safety depends upon your helping us protect the safety of 
this water source.'' The Sheriff's Posse makes regular rounds to check 
on them.
    When all was said and done, the 25 set-ups have cost us right at 
$750,000 from our General Fund (property tax dollars from that very 
limited pool of 1\1/2\ percent private land in our County) and we spent 
another $250,000 of those same dollars to match 5 local communities in 
establishing a fuel break on their prevailing wind southwest sides for 
fire defensible space. While not completely protected from the 
tinderbox that our surrounding forest has become after 100 years of 
failed Federal policy, our communities now do have a fighting chance of 
battling and surviving a forest fire. And we hope the odds of this 
County losing 70 percent of its assessed value in one fire are 
substantially lessened for now.
    We also hope that we have bought enough time for Industry to come 
back into play and let the products of the forest pay for its 
restoration. Again, we DO NOT have enough money in the Treasury to 
solve this problem--but we do have enough money in the Economy. We MUST 
figure out how to use the Economy to pay for this restoration while 
also providing the environmental goals of a sustainably healthy, 
productive and functioning forest.
    But I digress--since initial placement in 2006, the dip tanks have 
been used hundreds (probably thousands) of times by helicopters 
extracting water to fight fires. (see figure 11--C Creek Fire; and 
figure 11--Poco Fire)
    One of our success stories happened on June 20, 2010. That was the 
same day the Schultz Fire started in Flagstaff. With the same fuel 
loads and the same weather conditions and within the same hour the 
Shultz Fire started--a fire began near Kohl's Ranch. Helicopters dipped 
out of a bladder-tank system placed just weeks before at the Zane Grey 
site. That fire was held to 4 scorched acres while the Schultz Fire 
burned 15,000 acres, has caused extensive flooding each rainy season 
and has caused at least one death.
    We now have dozens of these stories--each year our `fire-water 
system' is used to put out hundreds of fires. Our most recent success 
was the Poco Fire north of Young in the summer of 2012. By their own 
admission, the USFS predicted they had another 500,000 acre fire on 
their hands due to terrain, fuel load, weather conditions and time of 
year. Again, by their own admission the fact that they were able to 
hold it to +/- 30,000 acres was due entirely to Gila County's fire-
water set-up and its commitment to minimize every fire.
    Eventually, I believe minimized fire danger needs to be 
accomplished with what is called ``environmental economics'' whereby 
the clean-up of the forest pays for the restoration and minimizes the 
overall fire danger. This leads into discussions about social, economic 
and environmental sustainability (or the ``triple bottom line''), 
biomass industries, economic development, and so on. This is where the 
Four Forest Restoration Initiative (4-FRI) comes in--and needs to 
succeed eventually.
    But for now, our bottom line is that we have experienced over 100 
fire-starts each fire season since 2006. Eighteen of them were 
classified ``catastrophic potential'' by the USFS. One of them burned 
150 acres up the face of the Mogollon Rim before it was put out. One 
became the 800 acre Water Wheel Fire when a local fire helicopter was 
reassigned to a fire in Texas. The Poco grew and was held at +/- 30,000 
acres. ALL of the rest were held to 15 acres or less. There have now 
been thousands of helicopter water dips taken out of these tanks.
    Gila County's current thrust is to continue to try to bring biomass 
industry to our area to profitably and sustainably clean out the 
forested area so as to restore and maintain our forest's health, 
functioning and abundant productivity. We know that what we have done 
with our bladder-tank and fire-break efforts is a brief stop gap that 
will either need to be expensively re-done and maintained continually 
or engage industry to profitably do so.
    We also know that, long term, there is not enough money in the 
pockets of the local citizenry to solve this problem, either--but that 
there is most certainly enough money in forest products for industry to 
do so. It is past time to stop being so willing to let our forests and 
watersheds catastrophically burn, and start being willing to let them 
earn. (see figure 12--Smokey burning)
    We are happy to share our data, pictures, ideas and personal 
stories with anyone interested in this type of cooperative, first-
strike response, catastrophic fire prevention.
    In summary, Mr. Chairman, let me speak directly to the issue being 
considered in these hearings. There is immense potential to sequester 
vast amounts of carbon in the soils of the public grasslands and the 
public forest lands. Acting to increase carbon sequestration on forest 
lands increases a double carbon benefit. By improving forest health 
through the steps I have outlined here, we make it less likely that 
fires will occur, especially mega-fires. That means that the carbon 
currently locked away in the forests will not be released in these 
fires. At the same time, these healthier forests would also sequester 
much more carbon in the soil.
    One of my business partners maintains that Paradise is not lost, it 
is merely disassembled . . . and the pieces are lying around in plain 
sight. This testimony points out many of those pieces. Another partner 
claims ``if it is to be, it is up to me!'' In this case, if these 
pieces are able to be reassembled, it will have to be with the help of 
Congress.
    Again, thank you for the invitation to present this information to 
you.

Figures submitted with statement are available on the Committee's Web 
site and are also being retained in the Committee's official files.

                                 ______
                                 

 Additional Testimony of Tommie Cline Martin, Submitted for the Record

                              introduction

    The following case study provides an example of the concern raised 
during this hearing about the limitations of existing Federal 
regulations and the resistance of many Federal land managers to permit 
the kinds of proven livestock management techniques that would 
sequester vast amounts of carbon in the soils of public lands and 
forests and restore ecosystem health at the same time. Further, it 
provides an example of why I and others think that it will require 
action by the Congress to bring about the kind of changes in 
philosophy, regulations and management approaches to accomplish these 
two objectives.
    Under present Federal regulations, optimal control of time, 
intensity and frequency of grazing events cannot be achieved to the 
degree required to accelerate carbon sequestration-based restoration of 
soils and other ecological values.
    In the past, various highly successful efforts to use optimum 
methods on these lands were attempted by ranchers. These highly capable 
families voluntarily gave up decisionmaking control of their public 
lands ranching operations (and so, a large degree of control over their 
personal finances and futures) to collaborative teams of local 
environmentalists, local citizens, university and agency wildlife, 
livestock, archeology, etc. specialists and scientists, state wildlife 
department personnel, etc. The teams had authority--under district 
approval--to set herd stocking rates, seasons of use, etc.--or to 
suspend grazing use if data indicated that was necessary to maintain 
the health of the range.
    Federal regulations required that the regular grazing permits of 
these ranchers be set aside. Grazing operations--of legal necessity--
continued only under scientific, ecological restoration, etc. 
``Livestock Use Permits'', memorandums of understanding (MOUs) and 
other instruments were employed. These collaborative teams consistently 
got excellent environmental results and should have been praised, 
thanked, and imitated. Instead, most were harassed and discouraged.
    The history of Tony and Jerrie Tipton (Jerrie is now a county 
commissioner) of Mina, Nevada is a documented case in point. This 
couple were and are self-sacrificing, innovative, highly idealistic, 
energetic, scientifically trained, highly capable, responsible, and 
motivated ranchers who care about the land. Federal and state 
employees, in addition to their official duties, along with other team 
members, gave up weekends to do frequent scientific monitoring 
necessary to guide decisions and familiarize numerous people with 
monitoring methods.
    As this case study shows, there is a growing subculture within the 
Federal management agencies which is emotionally invested in and 
committed to an anti-livestock agenda. It was taking root even at the 
beginning of the time period covered by this case study. The Federal 
agency personnel--including those at the district level and above--were 
well aware at the time that they took severe career risks in supporting 
these efforts but they did so because they could see the improvements 
on the ground and they were dedicated to rescuing nature. Presently, 
this anti-grazing ideology is pervasive in the management agencies.
    Jerrie Tipton is my sister and I am a firsthand witness to the 
events described here. The committee needs to understand what is 
happening on the ground and how, unless changes are made, it will make 
increasing carbon sequestration on the public lands more difficult or 
impossible.

                                       Tommie Cline Martin,
                                       Supervisor, Gila County, AZ.

THE TIPTON'S STORY AND TIMELINE

    In 1988 Tony Tipton entered into a lease purchase agreement with 
Jim Champie for the Carter Ranch and associated USFS and BLM grazing 
allotments located west of the town of Austin, NV in the Reese River 
Valley. The grazing allotments began adjacent to the south side of the 
town of Austin and continued along the crest of the Toiyabe Range south 
to Big Creek, and west to the Carter Ranch private land.
    Tony had begun to attempt to manage his livestock and land(s) to 
improve forage and habitat. He began that process by inviting other 
livestock permittees, wildlife folks, agency personnel, environmental 
folks, and general public to get their input into what the natural 
resources needed to become more healthy, functioning, productive and 
sustainable. This group morphed into the Management Team.
    In 1989 Tony and Jerrie Tipton and the `Management Team' approached 
Vic Castner, mine manager at the FMC Austin Gold Venture mine near 
Austin, NV, with a proposal to reclaim the Cyanide/acid leach pond 
face, using livestock. The agreement was that the mine would cover the 
cost of the hay for the livestock and supply the approved seed mix and 
Tipton's would spread the hay and seed and feed the animals. IF 
anything grew and the mine could recover their reclamation bond, after 
3 years, then Tipton's would receive some other funds for their work.
    Tipton's walked and seeded by hand, and they and the Team spread 
hay on the face of the dam and fed cattle over a 5-day period between 
October 23-October 28, 1989. 350 head of cows with calves were fed 
about 3 ton of hay (organic meadow grass, alfalfa and wheat grown 
locally) to the acre (32 ton total). They fed enough hay to cover the 
animals' nutritional needs and put at least a ton of mulch per acre 
into the soil for the soil bugs--and had outstanding success. In the 
first year the 10+ acre site produced 6,800 pounds of dry, perennial 
matter per acre (3.4 tons/acre), on 6.25 inches of annual moisture. The 
elevation of this first reclamation site was 6,400 ft.
    The success on the mine site, and in other locations (Porter 
Canyon, First Canyon and the Indian Canyon area), enabled the local 
U.S. Forest Service personnel to create a Memorandum of Understanding 
(MOU) between the Tipton's, the Management Team and the USFS to allow 
other restoration processes to proceed on the rest of the Carter Ranch 
Allotment.
    In 1991 the Tipton's and the Management Team entered into a MOU 
with the Forest Service to do just that. Over the next 6 years, the 
Tipton's and the Management Team restored numerous areas on the 
allotment using minerals, water and mixed classes and kinds of 
livestock, and occasionally brought in feed to concentrate and control 
the animals.
    In 1990 the Team directed the use of 350 head of Tipton cattle and 
350 head of non-owned cattle to do the restoration work. In 1991 they 
had the 350 head of Tipton cows and calves and 1,800 head of Holstein 
dairy herd replacement heifers.
    Also in 1990, Tiptons purchased 1,800 head of weaned, wether meat 
goats and ran them with the cattle to have a diversity of `grazers/
browsers' to encourage plant species diversification in targeting the 
wildlife habitat goals of the Team. In 1991 they sold the wethers and 
purchased 450 head of first kid nannies which they ran with the animals 
on the Austin Allotments for 2 years. In the spring/summer of 1992 they 
had their 350 head of cows and calves and about 900 head of one of the 
neighbor's cows and calves.
    In 1992 they purchased the BLM Cedar Mountain Allotment near Mina, 
NV in the Carson City District BLM to winter the livestock and only use 
the Austin allotment/private land for late spring, summer and early 
fall use. In the fall of 1992 they had 350 head and another 300 head of 
non-owned livestock.
    The success on the Austin mine site also caught the attention of 
the mining industry. This type of mine reclamation had never been tried 
before, but the mining industry--following the dictates of economic 
principles--quickly understood that the process was very, very 
inexpensive as compared to any conventional approach. They also saw, 
helped measure and understood why the reclamation results were more 
successful and more permanent than conventional and expensive hydro 
mulch they had been using because the soil had been fed in a way that 
it could sustain the vegetative cover for years.
    The Tiptons completed a second mine reclamation project, using that 
650 head of cattle, during the months of September thru November 1992 
at the Western States Minerals Northumberland Mine located east of 
Carvers in Smokey Valley, NV (near Round Mountain Mine). The mine was 
located at about 9,000 feet in elevation and they worked on about 300 
acres total within the mine site--on closed roads, a lay down yard, a 
leach pad, etc.
    While the Tiptons were not as impressed with the results of this 
second mine site as they were with the site at Austin, nevertheless, 
the USFS was impressed and 2 years after it was completed, the mining 
company received an award from the USFS for the outstanding 
reclamation.
    After completing that reclamation job they trailed the animals from 
the mine site to the RO Ranch headquarters in Smokey Valley and trucked 
the animals from there to the Cedar Mountain Allotment.
    Prior to placing any livestock on the BLM Cedar Mountain Allotment, 
the Team had set up numerous monitoring transect sites and clipped and 
weighed previous year's vegetation production. The average annual 
production of forage on that allotment was just shy of 10 lbs/acre with 
average annual moisture of 4".
    In 1988 the Natural Resource Conservation Service (NRCS--formerly 
the Soil Conservation Service) had completed, compiled and printed the 
soil studies of all the BLM administered lands in Mineral County 
including these allotments. The NRCS soils books indicated that the 
Cedar Mountain Allotment, on an average moisture year, should have been 
producing between 300 and 400 pounds of dry native perennial grass/acre 
and 250 to 350 pounds of dry perennial shrubs/acre. A far cry from the 
almost 10 lbs/acre it produced.
    Upon the purchase of the Cedar Mountain Allotment near Mina, the 
Management Team expanded to include Carson City BLM personnel along 
with the Battle Mountain District BLM folks and the Austin USFS Ranger 
District folks.
    Until the fall of 1996, the Tiptons continued to use the Mina 
Allotment in the fall, winter and early spring, and would either trail 
or truck the animals the 125+ miles to the Austin Allotments for late 
spring, summer and early fall. Then they would either trail or truck 
the animals back to the Mina Allotment in the fall.
    In the summer of 1996 the USFS informed Tipton's and the Management 
Team that they would not renew the MOU which allowed for the 
restoration projects to continue on the Austin USFS Allotment. Not 
because they were not achieving the desired results but because what 
they were doing was too `controversial' in the state office and with 
the other livestock permittees in the Austin area.
    And with the loss of the MOU, the Tipton's would have to return to 
the dictates of the term grazing permit (which had been placed in a 
non-use status while the restoration projects were occurring). These 
dictates were for about 300 head of cows and calves spring, summer and 
fall use, and continue to winter in the Mina country for 5 to 6 
months--so a return to about \1/4\ the numbers of cattle, and no mixed 
livestock at all--and only for part of each year.
    Knowing that mixed livestock and larger numbers of animals using 
forage for shorter periods of time was a key in restoring the soil 
health and vegetation, the Team knew that by reducing the numbers of 
animals, and using the land for longer periods of time, they could not 
continue to move their environmental goals forward.
    After much discussion with the Management Team members and the 
Carson City BLM personnel, Tipton's made the decision to move the 
restoration efforts to the Mina Allotment. Tipton's did not continue 
the lease option on the Carter ranch and allotments and moved the 
operation to Mina (as an aside, Tipton's and others involved, paid out 
close to 1 million dollars on restoration projects in the Austin area 
over the years of 1989 thru the fall of 1996 that they had to leave 
behind).
    (One of the most interesting results on the Austin USFS permit was 
what occurred between the mouth of Veach Canyon north to the Austin 
Town limits. In the late 1960s the USFS spent quite a bit of range 
improvement money and had drilled and seeded rows and rows of a crested 
wheat grass monoculture on the alluvial fan lands and rolling foothills 
between Veach Canyon and Austin. When Tiptons began using more numbers 
of livestock, other classes of livestock and different seasons of use 
in 1990, within 5 years the original rows of crested wheat plants had 
all but disappeared from view. The interspacing's were being filled 
with highly diverse native perennial grasses, forbs and brush without 
any seeds having been added. The appearance of a drill-rowed seeding 
disappeared.
    USFS Ranger for the Austin District, John Kenslo, retired to Austin 
and when the native species began to take over the introduced wheat 
grass seedings, Mr. Kenslo took the then current Ranger to task for 
allowing Tiptons to `ruin that crested wheat grass seeding'. Retired 
USFS Ranger Kenslo didn't like it . . . but the wildlife did! But 
that's another story. Over 50 percent of the forage produced in the old 
seeding, to this day, is a native, perennial grass/forb/shrub mix.)
    Carson City BLM personnel had been favorably impressed with the 
land, water and wildlife habitat improvements which had occurred on 
both the Austin and Mina BLM Allotments due to the restoration efforts 
and began to generate a similar environmental assessment (EA) document 
to formally allow the same processes to happen on the allotment near 
Mina. In addition, an allotment south and west of Mina, the east half 
of the Belleville Allotment, had recently been vacated from non-use and 
the Carson City BLM began the process to have that allotment given to 
Tipton's to expand the land base for restoration.
    The Cedar Mountain/Belleville Restoration Environmental Assessment 
(EA) was signed by the BLM, the not-for-profit group Twenty to One 
(which was formed in 1993 to do the actual restoration projects), the 
Tipton's and the Mina Management Team in February of 1997.
    The Team and Twenty to One had had livestock (1,000+ head: 350 cows 
and calves, remainder was yearling heifers and steers) on the east 
portion of the Belleville Allotment beginning in October of 1995 
through August of 1996 and had moved them to the Cedar Mountain 
Allotment to complete a watershed restoration project in the Douglas 
Basin watershed which had been funded by Nevada Department of 
Environmental Protection (NDEP) and National Fish and Wildlife 
Foundation (NFWF) and Twenty to One.
    While there, the group did a seeding trial on the National Burro 
Refuge at Teel's Marsh. The BLM had purchased seed and hay and, over a 
40-hour period, the Team seeded and fed the animals at different rates 
in an enclosed area. This occurred on the 17th and 18th of July, 1996 
and became another monitoring site. The Team had been asked by the BLM 
to do this so they would have some data relating to restoration within 
the refuge for a future project. This BLM seeding trial, as it was 
called, within 1 year had between 12 percent and up to 92 percent 
establishment of native perennial grass, forb and brush seedlings, 
depending on the feeding and seeding rate.
    After completion of the watershed project in December of 1996 the 
livestock were moved to the Kinross Mining Company's Candaleria Mine 
for a reclamation project. This site is surrounded by the eastern half 
of the Belleville Allotment. The plan was to use the livestock to 
reclaim a 750 foot high waste rock dump and a 3 acre corner of the 
original cyanide leach pad.
    (The monitoring in 1998 on the Candaleria Mine site included: 1,800 
pounds of dry, perennial matter/acre grew on less than 4 inches of 
annual moisture; total and active bacteria component within the soil 
profile had started at 28 milligrams per gram of soil prior to the 
reclamation and one year later was at 480 milligrams per gram of soil, 
with and added 12 milligrams per gram of fungal component; on the 
cyanide leach pad the sodium absorption ratio (SAR) had, within 3 years 
changed from 200-400 ppm to 3-5 ppm.)
    The project lasted through May 1997 and the plan was to then 
continue on with reclamation projects within the Belleville Allotment. 
As they got ready to move the livestock from the Mine to these 
Belleville projects, the BLM informed the Tipton's that because the 
other permittee in the Belleville Allotment was currently in a court 
case with the BLM they did not want the Tiptons to use the rest of the 
Allotment until that case was settled. The Tiptons had to make other 
arrangements for the 900 head of livestock that they did not own and 
paid to put their 300+ head on pasture until they could move back to 
the Cedar Mountain Allotment in the fall.
    The Tiptons were never allowed by the BLM to return to the 
Belleville Allotment. The paperwork to transfer the eastern portion of 
the Belleville Allotment to Tipton's never was completed, although 
annually they would request to be granted the vacant portion of the 
Allotment.
    (Just an FYI--On just one of the monitoring transect sites on the 
Belleville Allotment, data was collected before any treatments in March 
of 1993 by Rich Benson (BLM), Earl McKinney (BLM), Les Boyd (local 
resident), Brian Bill (Yomba Shoshone tribal member) and Jerrie Tipton. 
The average distance between perennial plants was 16.15" with 93 
percent total bare ground, overall. Then data collected in June 1995, 
just 2 years of concentrated livestock `jump starting' the carbon 
cycle, data showed bare ground had reduced to 90 percent with an 
average distance between perennials of 5.35" and 51 percent of the 
perennials were native grass seedlings.
    After the BLM forced the removal of livestock from the area in 
1996, the June 2004 data--11 years after the initial data was 
collected--showed a quick slide back to 94 percent bare ground with an 
average distance between perennials of 15.35". Ten years after that, by 
July of 2013, the data was recording 19.5" of bare ground between 
perennial plants. A perfect example of the results of little to no 
carbon cycling nor carbon stored in the ground; followed by the rapid 
response of intentional carbon cycling and storage; and then how 
quickly stopping carbon cycling expresses itself as ever increasing 
bare ground--or desertification.)
    In the late summer of 1998 the Tiptons were asked to do another 
mine reclamation job for Kinross Mining at their Sleeper Mine north of 
Winnemucca, NV. The open pit had one wall that was mostly sand and as 
the pit began to fill with water the mine could not get anything to 
grow on the sandy slopes. In late November and December of 1998 they 
used a local rancher's livestock, the mine bought the hay and seed and 
the Tiptons fed the cattle on the mine.
    By the winter of 1998 most of the original BLM members on the 
Management Team had either retired or transferred to other places and 
the individuals that took their place were strongly against using 
livestock for restoration. The Team was in the middle of another 
restoration project on Cedar Mountain Allotment when they were told 
they could not use more than 200 to 300 head and could only use the 
Allotment in the winter months. So once again the Tiptons had to pay to 
put the animals on pasture the summer of 1999, 2000, and 2001.
    In 2005 the last remaining BLM employee member of the Management 
Team, Rich Benson, died of a heart attack and, not only had the BLM 
institutional memory of the entire project been lost, but for some 
reason the monitoring data and hundreds of photos which had been Team 
collected annually and copies kept in the BLM files . . . disappeared. 
When some of the Management Team members offered to share copies with 
the BLM they were told that ``it is not BLM data and we would not use 
it to make any decisions anyway.''
    The BLM continued to maintain that the Cedar Mountain/Belleville EA 
was not a valid legal EA because it had nothing to do with a livestock 
grazing permit and if Tiptons continued to put non-owned livestock in 
the numbers and seasons used, they would be in trespass and loose the 
grazing permit.
    In 2007 the term grazing permit for the BLM Cedar Mountain 
Allotment was up for renewal. Tiptons and the Management Team tried to 
get the BLM to use the then 10-13 years of monitoring data in the 
analysis for the renewal. Once again the response was ``it is not BLM 
data and we will not use it''.
    The permit was renewed with a change of 55 percent utilization 
reduced to 45 percent. Tiptons' maintained that if the allotment was in 
that bad of condition, then how could the BLM renew it at all and 
protested the decision. The Tiptons hoped to get the case in front of 
an Administrative Law Judge (ALJ) and have the previous 15 years of 
process and results on the record at the very least.
    The ALJ determined the Tiptons were not being harmed by the 
decision, that the BLM had not done anything wrong in making the 
decision and therefore denied the appeal. They appealed his decision to 
the Interior Board of Land Appeals (IBLA) and got the same response.
    The Tiptons have continued to maintain that the 1997 EA is legal 
and valid, and since about 2010 they have run cattle year round on the 
Cedar Mountain Allotment, but never more than the 935 AUMs the 
allotment is permitted for (about 75 head). Annually, they are 
threatened with being in trespass but have never received a trespass 
notice.
    In the summer of 2012, Teresa Knutson, the Area Manager of the 
Stillwater Field Office, BLM Carson City District, met with the Tiptons 
in Hawthorne, NV. At that meeting, she said they needed to resolve the 
issue of the `illegal' EA or she would issue a trespass notice for 
livestock on the allotment outside the term permit parameters.
    By this time they had been running about 75 head year around, to 
not exceed the 935 AUMs the permit is allowed. The Tiptons once again 
tried to explain to her that the EA was written outside the term 
grazing permit because it was for `restoration' and not `grazing'. To 
which she replied ``you got screwed, those guys had no authority to 
give you the EA nor tell you that you could have the eastern portion of 
the vacant Belleville Allotment, and there are no records in the BLM 
Carson city office to indicate they were ever going to do that.'' To 
which the Tiptons replied ``then, issue the trespass''.
    In March of 2013 they received a letter from Area Manager Knutson 
that upon review, the EA WAS a legal document (15 years after the fact) 
but the BLM was going to cancel it because the data was no longer valid 
(see the attached letter). The Tiptons promptly sent the letter to 
their attorney (Leah Zabel) and her response is also attached.
    To date, neither the attorney nor Tony Tipton, as agent for Twenty 
to One, have received any other correspondence from the BLM about the 
matter.

    (AS AN ASIDE, from 1993 until 2002 the Mina Management Team met 
regularly in the Carson City BLM conference room to review monitoring, 
revisit the Team's ecological goals, set the following years management 
plan, and welcome new members. In the winter of 2002, someone in the 
BLM decided that this was no longer an appropriate use of their 
conference room and the Team was told they would no longer be allowed 
to meet there--that the room was no longer available for permittee 
meetings but only for government business.
    In addition, Management Team members have been told that beginning 
about 2002, Carson City BLM employees have told anyone who will 
listen--including the aides of all the Senators and Congressmen from 
Nevada--that Tony and Jerrie Tipton are the biggest trespassers in 
their BLM District.
    And another footnote, Mike Berry, the most recent range rider and 
counter of livestock for the Carson City BLM District, recently had to 
retire due to health reasons. Before he left the office he was told by 
his superiors to destroy all of his records on the Tipton's and the 
Holmgren's (a ranch neighbor of the Tiptons) BLM Allotments that he had 
been responsible for. He did not do this, but instead left all the 
information stacked on his desk when he left BLM. He would be willing 
to testify as to who it was that told him to destroy the records.)

Attachments

                              attachment 1

                   U.S. Department of the Interior,
                                   Stillwater Field Office,
                                                     March 1, 2013.
Mr. and Mrs. Tipton,
Mina, WV 89422.

    Dear Mr. and Mrs. Tipton:

    After some BLM misunderstanding in regards to livestock grazing on 
the C-edir-Mountain Allotment, it is now understood that the 1997 Cedar 
Mountain Ecosystem Restoration Project EA was approved outside of the 
grazing permit regulations. The 1997 EA was not intended to alter the 
grazing permit but to allow the proponent (Twenty to One) more 
flexibility to restore native vegetation on the Cedar Mountain 
Allotment.
    After further examination by the Stillwater Field Office 
Interdisciplinary (ID) Team and completion of a determination of NEPA 
adequacy (DNA) on the 1997 EA, it was concluded that the EA no longer 
adequately evaluates the restoration project or current range 
conditions on the Cedar Mountain Allotment. Therefore, the 1997 Cedar 
Mountain Ecosystem Restoration Project EA and Decision are no longer 
valid and implementation of any actions for that project is not 
allowable. To continue with this project, you need to submit a new plan 
with details on what actions are proposed, who is involved, when the 
activities would take place, where the activities would take place, and 
the duration, etc.
    The current grazing permit #2703554, which was renewed in 2007, is 
the only document that authorizes livestock grazing on the Cedar 
Mountain Allotment. The permitted use for the Cedar Mountain Allotment 
is 186 cattle from November 1 to March 31 each grazing year, for a 
total of 925 AUMs. If livestock are observed on the Cedar Mountain 
Allotment outside of the permitted season of use; you will be out of 
compliance with your permit and subject to 43 CFR Sec. 4150.1 
violations. This could result in civil penalties or criminal sanctions.
    If you have any questions, please feel free to contact your 
Rangeland Management Specialist Chelsy Simerson at 775-885-6019 or me 
at 775-885-6156.

            Sincerely,

                                         Teresa J. Knutson,
                                                           Manager.

                              attachment 2

                                         Zabel Law,
                                                     June 11, 2013.
Teresa J. Knutson, Manager,
Bureau of Land Management,
Stillwater Field Office,
Carson City, NY.

Re: March 1, 2013 letter to Twenty to One, NEPA Inadequacy Finding of 
        Cooperative Agreement 4160 (NVC0100) and May 20, 2013 Notice of 
        Unauthorized Use

    Dear Ms. Knutson:

    This letter is a formal protest on behalf of Twenty to One, a non-
profit corporation which is in receipt of the above referenced letters 
from the Bureau of Land Management's (``BLM''). The March 1, 2013 
letter claims that based on a determination of National Environmental 
Policy Act (``NEPA'') adequacy (DNA), the 1997 Cedar Mountain Ecosystem 
Restoration Project EA (``1997 EA'') and Decision are no longer valid 
and that implementation of any actions for that project is not 
allowable. BLM's May 20, 2013 Notice of Unauthorized Use directs Twenty 
to One to cease all restoration activities by removing the instruments 
of the approved restoration activity (e.g. cattle being used to test 
and implement soil __ technique). BLM's March 1, 2013 declares the 
invalidity of the 1997 EA without providing any documentation or 
demonstration of NEPA compliance. The 1997 Cedar Mountain Ecosystem 
Restoration Project EA (Cedar Mountain EA) was prepared to comply with 
the NEPA requirements related to the execution of the February 28, 1997 
Twenty to One Cooperative Agreement. Despite the BLM's repeated 
administrative actions to undermine and abandon the contract, BLM has 
provided no evidence that the NEPA process for making such a finding 
was satisfied. At this juncture, BLM' demonstrate nothing other than 
bad faith in regards to this contract.
    Twenty to One raises the following specific issues in our 
objection:

  1.  BLM's failure to adhere to the requirement of NEPA;
  2.  BLM's arbitrary decisionmaking process related to the Cooperative 
            Agreement;
  3.  BLM's apparent disregard of monitoring data demonstrating 
            achievement of the cooperative agreement's goals.
  4.  BLM's apparently arbitrary decisionmaking with respect to the 
            cooperative agreement and its rangeland improvement.

Cooperative Agreement
    The subject contract was entered into in accordance with the 
Congressional directive for the Bureau of Land Management, 
specifically:

        (2) manage, maintain and improve the condition of the public 
        rangelands so that they become as productive as feasible for 
        all rangeland values in accordance with management objectives 
        and the land use planning process established pursuant to 
        section 1712 of this title; . . . (italics added). 43 U.S.C.A. 
        Sec. 1901.

    The Twenty to One Cooperative Agreement was and is a valid exercise 
of the BLM's authority. In accordance with NEPA, a valid environmental 
assessment was conducted. If BLM now feels that the 1997 EA needs to be 
changed or canceled, BLM must comply with NEPA prior to any 
modifications of this agreement.
Use of a Determination of Adequacy as a Substitute for Compliance with 
        NEPA
    ``Under National Environmental Policy Act (NEPA), an agency must 
prepare a supplemental assessment if the agency makes substantial 
changes in the proposed action that are relevant to environmental 
concerns.'' 42 U.S.C.A. Sec. 4332(2)(C); 40 C.F.R. 
Sec. 1502.9(c)(1)(i). New Mexico ex rel. Richardson v. Bureau of Land 
Management, 565 F.3d 683 (10th Cir. 2009).
    BLM's assertion that it has invalidated the 1997 EA thought the use 
of a DNA is incorrect. ``DNAs are an administrative convenience created 
by the BLM, and are not defined in NEPA or its implementing regulations 
issued by the Council of Environmental Quality.'' S. Utah Wilderness 
Alliance v. Norton, 457 F. Supp. 2d 1253, 1255 (D. Utah 2006) aff'd in 
part, appeal dismissed in part sub nom. S. Utah Wilderness Alliance v. 
Kempthorne, 525 F.3d 966 (10th Cir. 2008)
    Further, the preparation of a DNA does not preclude the necessity 
of compliance with NEPA. (See S. Utah Wilderness Alliance v. Norton, 
457 F. Supp. 2d 1253, 1261 (D. Utah 2006) aff'd in part, appeal 
dismissed in part sub nom. S. Utah Wilderness Alliance v. Kempthorne, 
525 F.3d 966 (10th Cir. 2008)).
    Other BLM Offices have issued guidance in the form of NEPA handbook 
that clearly support the use of a DNA only to identify the need for 
further NEPA analysis.
    ``A Determination of NEPA Adequacy (DNA) may be used for a proposed 
action when the following conditions are met: (A) the proposed action 
is adequately covered by (i.e., is within the scope of and analyzed in) 
relevant existing analyses, data, and records; and (B) there are no new 
circumstances, new information, or unanticipated or unanalyzed 
environmental impacts that warrant new or supplemental analysis . . . 
(I)f the Responsible Official determines that existing NEPA documents 
adequately analyze the effects of the proposed action, this 
determination, prepared in a DNA worksheet provides the administrative 
record support, and serves as an interim step in the BLM's internal 
decisionmaking process. The DNA is intended to evaluate the coverage of 
existing documents and the significance of new information, but does 
not itself provide NEPA analysis''.\1\
---------------------------------------------------------------------------
    \1\ Bureau of Land Management Utah NEPA Guidebook, July 2009, 
available at: http://www.blm.gov/pgdata/etc/medialib/blm/ut/
st_george_fo/planning.Par.15339.File.dat/
Utah_NEPA_Guidebook_July_2009.pdf, last visited June 10, 2013.
---------------------------------------------------------------------------
Disregard for Scientific Data Supporting Habitat Restoration Activities
    On several occasions over the last 10 years Twenty to One has been 
told (verbally) by the Carson City District Office that the 1997 EA 
were `illegal' under the term grazing regulations and therefore could 
not engage in activities authorized by the 1997 EA. On each of these 
occasions Twenty to One has clarified that the agreement is not a 
grazing permit and requested clarification as to the ``illegality'' of 
the contract and 1997 EA. In a show of good faith, Twenty to One agreed 
to a temporary suspension of activities under the contract while 
attempting to clarify BLM's legal position on the validity or 
invalidity of the contract. However, BLM clearly acting in bad faith, 
proposed no solution and now simply deems the contract invalid. During 
the entire time, Twenty to One has attempted repeatedly to obtain 
clarification from BLM, however, no amendment or other action has been 
proposed by BLM.
    In fact, the only explanation Twenty to One has been offered by BLM 
is that the 1997 is ``outside'' of any term grazing regulations. BLM is 
simply ignoring the fact that the agreement was intentionally 
constructed `outside' of the grazing regulations, which is why it is 
NOT a grazing permit, but a cooperative agreement. The explicit purpose 
of the contract between Twenty to One and BLM was in fact the 
restoration of rangeland. This restatement of a fact that was plain in 
1997 and BLM has not provided any clarification as to why this is no 
longer the case. Thus, Twenty to One is requesting that BLM provide 
clarification of their objection to the activities outlined in the 1997 
EA and undertaken by Twenty to One pursuant to the February 28, 1997 
Twenty to One Cooperative Agreement.
    As a result of BLM's refusal to abide by the terms of the Twenty to 
One Cooperative Agreement and to participate, and while Twenty to One 
was attempting to clarify the BLM's objection, Twenty to One has scaled 
back its restoration activities. The restoration activities outlined in 
the 1997 EA were possible through the efforts of different agencies, 
groups and individuals that were involved in all phases of the project 
(from goal setting, data collection, compilation and review) included 
the Twenty to One board members, Nevada Department of Environmental 
Protection, National Fish and Wildlife Federation, Pat Hannigan (one of 
the livestock owners) Tipton's (permit holder and livestock owner), 
Audubon Society, Public Resource Associates, Rocky Mountain Research 
Station, University of Texas at Austin, and bureau of Land Management 
personnel to name a few. As a result of BLM's failure to meet the terms 
of the cooperative agreement, those involved have incurred expenses and 
habitat slotted for restoration has suffered.
    The monitoring data the team had gathered and compiled, from 
baseline data to annual data of the same transects (and have continued 
to date) clearly showed measurable, repeatable results. Data including 
decreased bare ground, increased native perennial plant density, 
increased biological activity both on the soil surface and within the 
soil profile to increased water storage of the soil. Since 2002 the 
monitoring data clearly indicates a measurable decrease in plant 
density, increase in bare ground, decrease in biological activity and a 
severe decrease in water storage. The original monitoring data also 
included annual precipitation data, bird species monitoring, numerous 
photos, riparian function data and water storage data.
    Twenty to One supplied the BLM with then current monitoring data in 
2007. To date we have not received notice that Carson City/ Stillwater 
Office staff reviewed or even looked at the data provided. These data 
demonstrate that Twenty to One created and sustained a healthy, 
functioning, productive ecosystem under the terms of the agreement. The 
BLM and its staff by refusing to even review the data provided and 
through their repeated attempts to abrogate the contractual agreement, 
have intentionally failed to comply with the terms of the contract in 
violation of NEPA and have acted in direct opposition to the 
Congressional charge to, ``. . . improve the condition of the public 
rangelands . . .''
    With this letter, Twenty to One is formally requesting the 
authority for BLM's failure to act in accordance with the terms of the 
1997 Cooperative Agreement and 1997 EA. Further, Twenty to One is 
requesting justification of BLM's actions with respect to the contract. 
Under FLPMA and NEPA BLM must provide valid documentation supporting 
their proposed action. This documentation must address the data which 
supports the effectiveness of activities under the agreement, as well 
as all NEPA activities, including public notice and comment with 
respect to their intent to abandon the contract. BLM's breach of the 
agreement, range conditions have become far from optimum. Further, 
please clarify the protocol used to determine this and any relevant 
regulations which BLM cites as authority for its determination. How, 
when and where was the monitoring done to determine this and who did 
it?
    We take this step of formally requesting this information 
reluctantly, and only because of BLM's continued intransigence with 
respect to their contractual obligations. Twenty to One has on numerous 
occasions, requested this information in formally. The delays, 
obfuscation, and prevarication on the part of BLM have resulted in 
great expense to our funders and the habitat restoration projects. 
Projects have been delayed projects as Twenty to One waited for 
`clarification' from BLM. Instead, BLM has continued in its refusal for 
a prolonged period to provide clarification and as a result, the 
improvements which resulted from our early efforts under the agreement 
have suffered. The benefits of the Twenty to One restoration activities 
were documented and monitored by BLM, BLM has also been provided the 
restoration activity monitoring data on several occasions. BLM has 
failed to provide an unbiased evaluation of the monitoring data, 
relying on scientific method. This failure has resulted in continued 
degradation of habitat and as a result in a failure on the part of BLM 
to meet the standards of its congressional directive to improve and 
maintain rangeland.
    Twenty to One asks that BLM immediately withdraw its Notice of 
Unauthorized Use and provide adequate assurances of its intent to 
perform its obligations under Cooperative Agreement. Alternatively, if 
BLM has determined that the existing EA is insufficient, BLM should 
comply with all NEPA requirements. Should BLM continue to pursue 
invalidation of the Cooperative Agreement, Twenty to One will seek 
relief under the Administrative Procedure Act (``APA''), 5 U.S.C. 
Sec. Sec. 701 et seq., and for violation of the National Environmental 
Policy Act (``NEPA''), 42 U.S.C. Sec. Sec. 4321 et seq., and its 
implementing regulations, 40 C.F.R. Sec. Sec. 1500-1508.

            Sincerely,

                                                Leah Zabel,
                                                          Attorney.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate that.
    Mr. Wick.

STATEMENT OF JOHN WICK, CO-FOUNDER, MARIN CARBON PROJECT, PALO 
                        ALTO, CALIFORNIA

    Mr. Wick. Thank you for convening this important meeting, 
and inviting me to share our research and experience with soil 
carbon sequestration on grazed rangelands. My name is John 
Wick, and I am a rancher from northern California, speaking 
here today on behalf of the Marin Carbon Project.
    As you mentioned, the Marin Carbon Project is a consortium 
of ranchers and land managers, researchers, extension 
specialists, non-profits, and local and Federal agencies 
working together, improving rangeland productivity and 
sustainability. One way that our group differs from some others 
is that we work closely with researchers from some of the 
country's best universities, and we use rigorous science to 
measure changes in soil carbon for management.
    While there are claims of management approaches increasing 
soil carbon, often these do not turn out to be true when you 
actually measure the soil. This is a key point, as poor 
management can have long-lasting detrimental effects on the 
health and productivity of public lands, and has resulted in 
soil carbon losses.
    Research does show that increasing the carbon content of 
rangeland soils has many benefits. It improves the drought 
resistance, decreases erosion, increases forage production. It 
is also, by the way, better to store carbon in the soils than 
in the atmosphere, where, apparently, it wreaks havoc on the 
climate.
    I want to start by answering the question, ``Can management 
sequester carbon in rangeland soils? '' The answer is yes. 
Every year I produce more than 50,000 pounds of grass-fed beef 
on land that was once considered heavily degraded. We restored 
the productivity of our land by replenishing the soil carbon 
content.
    Under the guidance of Dr. Jeffrey Creque, a rangeland 
ecologist, and Dr. Whendee Silver, a bio-geochemist from UC 
Berkeley, I have implemented a management approach that 
stimulates grass growth. These grasses use carbon from the 
atmosphere and feed animals that produce food and fiber. Some 
of the carbon from the plants ends up in the soil, primarily 
through the production of more root biomass, and can stick 
around for decades to centuries.
    Research by Dr. Silver and her group has shown that 
rangelands grazed by dairy and beef cattle have had much more 
carbon when the ranchers applied manure or compost to the soil. 
In our region we dispose of manure from feed lots and dairies 
by spreading it as a thin surface dressing on the land. This 
materials works its way into the soil, and acts as a slow-
release fertilizer, growing more grass and increasing soil 
carbon. Spreading manure, however, has a host of pollution and 
public health issues. It can also produce a lot of greenhouse 
gases. If you compost it before you spread it, it is pathogen 
and weed-free, and it produces a lot less greenhouse gas.
    After a one-time, half-inch compost application in 2008 to 
my ranch, we measured a 50 percent increase in forage 
production each year for the last 5 years. This is also true 
for other ranches that were tested. The soil gained an 
additional ton of carbon per hector each year. This represents 
over half-a-ton of extra forage, and one-and-a-half tons of 
captured CO2 per acre, per year. Models show that this will 
likely continue for decades, as the compost slowly continues to 
break down with all of the co-benefits associated with 
increased soil carbon, such as including drought resistance and 
less erosion. Scaled to just 5 percent of California's 
grasslands each year, this practice would offset all of the 
state's annual and agricultural forestry emissions.
    All of this has been published in peer-reviewed scientific 
papers over the last 3 years, and those papers will be provided 
to this committee.
    We have now expanded on to several local dairy and beef 
operations, to further explore the opportunities to scale up 
this practice. The potential is huge. That scale-up exercise 
was a USDA-funded NRCS conservation innovation grant-funded 
exercise. A report from the California Air Resources Board 
showed that if California, the biggest dairy producer in the 
United States, were to capture the organic waste stream, it 
would have enough compost to apply to a quarter of the state's 
rangelands at regular intervals. We have already created a 
market protocol for this practice, which is currently being 
reviewed by the American Carbon Registry, providing land 
managers an opportunity to participate in carbon trading to 
help support carbon sequestration in rangeland soils.
    In closing, I would like to just repeat that peer-reviewed, 
rigorous science shows that it is indeed possible to increase 
soil carbon sequestration on grazed rangelands, and that doing 
so initiates a cascade of beneficial effects that improve the 
value of public lands. We have used compost, but there are 
likely other approaches that work also. It is absolutely 
critical, however, that we use rigorous science to support our 
management decisions. This, in turn, will support our public 
lands, and the livelihoods of those people who depend on them. 
Thank you.
    [The prepared statement of Mr. Wick follows:]
     Prepared Statement of John Wick, Rancher, Nicasio, California
    Thank you for convening this important meeting and inviting me to 
share our research and experience with soil carbon sequestration on 
grazing lands. My name is John Wick and I am a rancher from northern 
California, speaking today on behalf of the Marin Carbon Project. The 
Marin Carbon Project is a consortium of ranchers and land managers, 
researchers, extension specialists, non-profits, and local and Federal 
agencies working on improving rangeland productivity and 
sustainability. One way that our group differs from some others is that 
we work closely with researchers and extension from some of the 
country's best universities to take a rigorous scientific approach to 
measure changes in soil carbon from management. While there are a lot 
of claims of management approaches increasing soil carbon, many of 
these do not turn out to be true when you actually measure the soil. 
This is a key important point, as poor management can have long lasting 
detrimental effects on the health and productivity of public lands, and 
has resulted in soil carbon losses (Lal 2004, Bai et al 2008).
    Research does show that increasing the carbon content of rangeland 
soils improves the drought resistance, decreases erosion, and increases 
forage production (Havstad et al. 2007, DeLonge et al. 2014). It also, 
by the way, is better to store carbon in soils than in the atmosphere 
where it apparently wreaks havoc with the climate.
    I want to start by answering the question: Can management sequester 
carbon in rangeland soils? The answer is YES. Every year I produce more 
than 50,000 pounds of grass-fed beef on land that was once considered 
heavily degraded. We restored the productivity of our land by 
replenishing the soil carbon content. Under the guidance of Dr. Jeffrey 
Creque, a rangeland ecologist and Dr. Whendee Silver a biogeochemist 
from UC Berkeley, I have implemented a management approach that 
stimulates grass growth. Those grasses use carbon from the atmosphere, 
and feed animals that produce food and fiber. Some of the carbon from 
the plants ends up in the soil, primarily through the production of 
more root biomass (Ryals and Silver 2013), and can stick around for 
decades to centuries (Ryals et al. 2014a). Research by Dr. Silver and 
her group showed that rangelands grazed by dairy and beef cattle had 
much more carbon, on average 50 metric tons more per hectare; 22 (US 
short) tons per acre to one meter depth, when the ranchers applied 
manure or compost to the soil (Silver et al. 2010). In our region, we 
dispose of manure from feedlots and dairies by spreading it as a thin 
surface dressing on the land. The material works its way into the soil 
and acts as a slow release fertilizer, growing more grass and 
increasing soil carbon. However, spreading manure can have a host of 
pollution and public health issues; it can also produce a lot of 
greenhouse gases (Davidson 2009). If you compost it before you spread 
it, it is pathogen free, and produces a lot less greenhouse gas.
    After a one-time \1/2\-inch compost application in 2008 to my 
ranch, we have measured a 50 percent increase in forage production for 
the last 5 years (Ryals and Silver 2013, additional data available upon 
request). This is also true for other ranches where this was tested. 
The soil gained an additional ton of carbon per hectare each year 
(Ryals et al. 2014a). That represents over half a ton of extra forage 
and one and a half tons of CO2 captured per acre per year.
    Models showed that this will likely continue for decades as the 
compost continues to slowly break down, with all the co-benefits 
associated with increased soil carbon, including drought resistance and 
less erosion (Ryals et al. 2014b). Scaled to just 5 percent of 
California's grasslands each year, this practice would offset all of 
the state's annual agricultural and forestry emissions (DeLonge et al. 
2013). All of this has been published in peer-reviewed scientific 
papers over the last 3 years, and those papers will be provided to the 
committee.
    We have now expanded onto several local dairy and beef operations 
to further explore the opportunities to scale up this practice. The 
potential is big. A report to the California Air Resources Board showed 
that if California, the biggest dairy producer in the United States, 
were to capture the organic waste stream, it would have enough compost 
to apply to a quarter of the state's rangelands at regular intervals. 
We have recently created a market protocol for this practice being 
review by the American Carbon Registry (provided with supplementary 
material), providing land managers an opportunity to participate in 
carbon trading to help support carbon sequestration in rangeland soils.
    In closing, I would just repeat that peer-reviewed rigorous science 
shows that it is indeed possible to increase soil carbon sequestration 
on grazed lands, and that doing so initiates a cascade of beneficial 
effects that improves the value of public lands. We have used compost, 
but there are likely other approaches that work well. It is absolutely 
critical however, that we use rigorous science to support our 
management decisions. That will in turn support our public lands and 
the livelihoods of the people who depend upon them.
                               references

Bai, Z.G., D.L. Dent, L. Olsson, and M.E. Schaepman. 2008. Global 
Assessment of Land Degradation and Improvement. 1. Identification by 
Remote Sensing. Wageningen: International Soil Reference and 
Information Centre (ISRIC).

Lal, R. 2004. ``Soil Carbon Sequestration to Mitigate Climate Change.'' 
Geoderma 123 (1): 1-22.

Havstad, K.M., D.P. Peters, R. Skaggs, J. Brown, B. Bestelmeyer, E. 
Fredrickson, J. Herrick, and J. Wright. 2007. ``Ecological Services to 
and from Rangelands of the United States.'' Ecological Economics 64 
(2): 261-268.

DeLonge, M., J. Owen, W. Silver. 2014. Greenhouse Gas Mitigation 
Opportunities for California Agriculture: Review of California 
Rangeland Emissions and Mitigation Potential. NI GGMOCA R 4. Durham, 
NC: Duke University.

Ryals, R., and W.L. Silver. 2013. ``Effects of Organic Matter 
Amendments on Net Primary Productivity and Greenhouse Gas Emissions in 
Annual Grasslands.'' Ecological Applications 23 (1): 46-59.

Ryals, R., M. Kaiser, M. Torn, A. Berhe, and W.L. Silver. 2014. 
``Impacts of Organic Matter Amendments on Carbon and Nitrogen Dynamics 
in Grassland Soils.'' Soil Biology & Biochemistry 68: 52-61.

Silver, W.L., R. Ryals, and V. Eviner. 2010. ``Soil Carbon Pools in 
California's Annual Grassland Ecosystems.'' Rangeland Ecology & 
Management 63 (1): 128-136.

Davidson, E.A. 2009. ``The Contribution of Manure and Fertilizer 
Nitrogen to Atmospheric Nitrous Oxide since 1860.'' Nature Geoscience 2 
(9): 659-662.

DeLonge, M.S., R. Ryals, and W.L. Silver. 2013. ``A Lifecycle Model to 
Evaluate Carbon Sequestration Potential and Greenhouse Gas Dynamics of 
Managed Grasslands.'' Ecosystems 1-18.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate you coming great 
distances and being part of the testimony here. I appreciate 
the written testimony and the oral testimony. And now we will 
ask if you will subject yourself to some questions.
    Start first with Mr. Grijalva, if you have any questions 
for the panel.
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Wick, the idea 
that grazing can improve rangeland health and increase the 
potential for carbon soil sequestration gained attention when 
Allan Savory gave a TED talk last year. Can you describe your 
experiences on your ranch, or with the study group, and how it 
relates to those theories?
    Mr. Wick. Was that addressed to me?
    Mr. Grijalva. Yes. Thank you.
    Mr. Wick. How much time do we have?
    [Laughter.]
    Mr. Grijalva. I have 5 minutes, but----
    Mr. Wick. This is really important, actually. We started 
our operation, actually, as wilderness enthusiasts, and we 
removed the grazing from our system entirely. We were confident 
that grazing was destructive to the environment. And we watched 
chaos happen after that. Our ranch became a weed-covered mess.
    And it was through a little bit of arm twisting that we 
decided--well, first of all, we met Dr. Jeff Creque, a 
rangeland ecologist, who suggested that we could actually 
reintroduce grazing as a beneficial event in the landscape. 
And, after a bit of arm twisting, we agreed to bring cattle 
back in as a management tool to promote native grass. And we 
did use Allan Savory's plannings for this.
    Our objective was to create ground-nesting bird habitat. It 
was not to put on pounds of gain for the animals, or produce 
meat or wool, but rather, to create an environmental benefit. 
And so, we were using cattle as a strategic tool to improve the 
ecosystem. And after just 3 years, we went from five 
meadowlarks on our fields to over a hundred. So, clearly, this 
kind of strategic impact on the landscape--and we were using 
the Savory method--was clearly making something important 
happen.
    So, anecdotally, we witnessed something profound. That was 
when we engaged Dr. Silver at UC Berkeley, because we wanted to 
know, bio-geochemically, what was happening under the soil 
system. And now--I think Dr. Teague will attest to this--that 
the grazing impact will take a long time, to see carbon 
changes. But what we were able to do was to ask the simple 
question: Can management of any kind improve carbon in the soil 
system? That was our original idea.
    The compost application was simply a thought exercise. Dr. 
Creque suggested that, if we want to see if management 
increases soil, we have to see if we can actually just get 
carbon in the soil. So a simple thought exercise of topically 
applying compost was amazing, the results that happened from 
there.
    We are expanding now to look at how grazing alone could 
also do that. We don't have that data yet to support that.
    Mr. Grijalva. Thank you. Mr. Rich stated that holistic land 
management, I think in what is referenced also as the 
biodiversity for a livable climate study about holistic planned 
grazing, that holistic land management is the only practical 
solution to climate change, and we have the capability to 
sequester all manmade carbon emissions.
    Your experience, is that statement accurate?
    Mr. Wick. My personal experience? So it is an exciting 
idea. And if we look at the data that we have actually measured 
physically in the soil, and then run that data through the 
globally recognized century model, it shows that that carbon 
income--so just to clarify what is happening here, we put a 
topical application of compost, and then we discounted the 
carbon in that compost.
    What we are measuring is the effect inside the soil of 
atmospheric transfer through photosynthesis in--from 
atmospheric carbon through plants into the soil. And the 
century model suggests that that single application of compost 
will have ongoing income of carbon for 30, if not 100, years.
    Mr. Grijalva. So, other adaptation models, lowering 
emissions, other things like that, those are all--and this 
holistic approach is the only solution, those would--those 
efforts, those other models would cease with the----
    Mr. Wick. I would like to--this is a social conversation, 
and we have a transitional opportunity here. So if we continue 
on the current path of reducing emissions, which I believe is a 
good thing, but also recognize that atmospheric CO2 has a 
tremendous benefit when it is managed as a resource to build 
plants' bodies out of, and additionally, get it in the soil 
system, it would be helpful to continue on the path of emission 
reductions while we are building up the research to support the 
other half of it.
    Mr. Grijalva. OK, thank you. Yield back.
    Mr. Bishop. Thank you. Maybe I can follow up on where Mr. 
Grijalva is going.
    Dr. Teague, it is kind of puzzling that there seems to be 
wide disagreement among researchers, although, given any 
subject, there is always wide disagreement amongst researchers. 
But on the potential of sequestration of atmospheric carbon in 
soils, so your estimate that massive amounts could be 
sequestered, at least in theory, yet there are other 
researchers that claim that, though it is possible, the total 
amount is really small in relation to what is being released in 
the atmosphere.
    So I know you talked about this briefly in your written 
statement. I would like to see if you could explain this or 
expound on this one. It is the same question from your 
perspective, Dr. Teague.
    Dr. Teague. I would be glad to. Most research is done in 
smaller areas that don't approximate the size of what happens 
in management. That is why I showed those landscapes up there. 
If you do an experiment on a small area, it doesn't represent 
continuous grazing over the whole landscape.
    So, in a large landscape, cattle graze where they want to, 
and they select the same areas all the time, and graze them 
very heavily. That causes an increase in bare ground, it 
reduces the rooting depth and the productivity of the grasses 
that are there. The bare ground allows for loss of carbon. The 
less productivity of the grasses means you are getting less 
carbon sequestration. If you manage in a manner over your whole 
ranch, where you moderately graze and you allow adequate 
recovery, you reverse both of those processes. You cover over 
bare ground, you allow your plants to produce more. So you 
result in a net increase in productivity.
    I have studied ranches side by side in numerous counties in 
north Texas. And after 10 years, the fairly poor condition of 
rangeland has been improved under good management, so that it 
has fixed three tons per year extra, over and above what the 
baseline people managing normally are. That is a huge amount.
    Mr. Bishop. OK. So I guess what you are both saying is 
there, the goal is to get the carbon into the ground. It not 
only takes the carbon out, but then it produces better results, 
as far as the vegetation that is there. And you are saying that 
if you manage it properly, you can do this over a wide variety 
of land.
    Mr. Rich, if I could ask you to talk about those differing 
assessments, as well?
    Mr. Rich. If I can steal Dr. Teague's example, there are 
different levels of ranching skill. And so you have one level 
that would be the equivalent of Tiger Woods, or some other pro, 
and then you have another level that would be the equivalent of 
somebody playing putt-putt golf and losing their putter. And 
so, if you measure the results of the putt-putt people, then 
you get a very low estimate. But if you measure the results of 
the pros, you get a very different and much higher result.
    And so, Dr. Teague and others, who have been making these 
assessments, are assuming that it is the pros who are doing it. 
And so, consequently, the achievement--the potential of 
achieving, sequestering all of the atmospheric carbon since the 
Industrial Revolution is possible
    Dr. Teague. If I could add to that, Mr. Chairman?
    Mr. Bishop. Please.
    Dr. Teague. I concentrate on studying what the best ranches 
are achieving, because we want to know what we can achieve. 
There is degradation due to ranching all over the place. But 
the key is to learn how to do it better, so we correct those 
mistakes and improve it. And that is what we are talking about. 
The improvements, once you implement them, are huge.
    Mr. Bishop. And we have 400 million acres the Federal 
Government owns. The opportunity of doing this is kind of 
wide--I have less than a minute, so let me just throw out to 
the panel that in the project in California it relies on 
compost application. Is that a necessary component of a 
sequestration carbon on public lands? Anyone who would like to 
deal that--does that have to be there?
    Mr. Rich. I think it is a great idea if it can be done, if 
it can be made to work, financially.
    Mr. Bishop. OK.
    Ms. Martin. And can I answer that very quickly?
    Mr. Bishop. Supervisor?
    Ms. Martin. What we did--about 25 years ago, look at the 
data in the pictures. My sister and brother-in-law and I put 32 
ton of hay into 15 acres, punched it in with 600 head of cows. 
It was all the resources we had for hay. We got 6 inches of 
moisture that year, some in snowfall, some in rainfall. Off of 
that sterile ground, we clipped and weighed back three ton to 
the acre that grew on that sterile soil with those kind of 
inputs.
    We also went up a canyon with that same herd, and we used 
on-site material. We took into a sagebrush area, broke the 
sagebrush down, worked it into the ground. The exciting thing 
there, we had some of those same gains, but the main thing we 
had is your pinyon nuts--and you have pictures of them--were 
twice as big----
    Mr. Bishop. OK, I am going to interrupt you here, and we 
will come back to another round of questions. I will pick up 
with that, so you can finish the rest of the story.
    Ms. Martin. You got it.
    Mr. Bishop. But let me turn on to the other Members here.
    Whoever wants to go first. Mr. Huffman?
    Mr. Huffman. I could. Thank you, Mr. Chair. Fascinating 
discussion. Thanks again to all the witnesses.
    It seems that one common theme I am hearing, both from Mr. 
Teague, and Mr. Wick, and others, is that nobody here is 
advocating overgrazing, and high levels of grazing, that there 
seems to be a consensus that one of the keys to making this 
work is appropriate rest periods. Mr. Teague, you talk about a 
rotational paddock system.
    So, does anyone disagree here that one key to realizing the 
impressive potential benefits we are talking about here is 
appropriate rest periods and making sure that overgrazing is 
not occurring?
    Mr. Rich. I think we all agree.
    Mr. Wick. Yes, all agree to that.
    Mr. Huffman. Yes, I think that may be one reason why some 
of our friends in the conservation community have a hard time 
getting their head around this issue. They are used to battling 
the impacts of overgrazing. And so, even thinking about 
potential beneficial effects of proper grazing levels is a leap 
beyond what they have been involved in. But it is certainly one 
that you are all taking in a great way.
    And, Mr. Wick, you have sort of found that this addition of 
compost may be the secret sauce to getting an even much higher 
level of beneficial carbon sequestration effects. Whether it is 
compost, where that can be done, or the paddock more intensive 
management system that we heard about from Dr. Teague, all 
these things are going to require more management by ranchers 
than the putt-putt golf that perhaps some have been engaged in.
    Have any of you begun to think about the cost of that, and 
how that might be managed? And I guess, specifically, I am 
wondering if any of you envision a system some day where 
emitters, perhaps energy utilities, might actually pay to 
sponsor investments by ranchers in this kind of more intensive 
management in order to achieve those carbon benefits as offsets 
for their own emissions.
    Mr. Wick. Can I respond to that? So the protocol that we 
have worked on now in our--in California, actually, would 
support that kind of interaction between a utility company and 
a land manager.
    And I just wanted to touch on the compost component of 
this. That is where we have our data. So that is the thing we 
are strongest about. But we are expanding our research to look 
at grazing and restoration and other practices, as well. So, we 
have the data on compost, we have noticed--we have observed 
that when you do put carbon back in--and it is really important 
to realize what we are describing is restoring carbon. The soil 
systems globally are deficient in carbon from historic levels. 
So compost is simply restoring functional carbon in that 
system. And then, from there, there are a range of different 
opportunities to expand on.
    Our protocol is modular in design, and as grazing 
management practices are proven scientifically to sequester 
carbon, they will be able to be added in on top of or in place 
of the compost, and this will support carbon markets in 
California in particular. A utility company could engage with a 
large land owner or individuals, and negotiate an exchange for 
those tons of carbon removed from the atmosphere photo-
synthetically. They could support that by purchasing and paying 
for the distribution of the compost and the grazing management, 
and then the land owner and the grazing manager would receive 
the benefits of increased forage production, drought 
resistance, and, if possible, part of the carbon market 
proceeds, as well.
    Mr. Huffman. Thank you. Any other witnesses care to 
comment?
    Dr. Teague. Yes, I would like to add to that. I am working 
with a group down at Patagonia. They are working with the 
Patagonian apparel company who insists on environmentally 
friendly stuff that they buy to produce their products.
    We have instituted the formation of teams to train up the 
ranchers how to ranch more environmentally friendly, and the 
teams also do some monitoring to make sure that they are 
actually moving in the right direction. There are five levels 
of accreditation. The top two can sell their product at an 
increased price to the Patagonia company.
    So, not only are the improvements in the soil helping 
productivity and profitability, but then you add to that the 
value of the product they are selling. So, basically, that is a 
model that will pay for itself.
    Mr. Huffman. Yes. So the point is, not only do we get an 
environmental premium and a carbon management premium, we may 
get an economic premium----
    Dr. Teague. Yes.
    Mr. Huffman [continuing]. From this type of management.
    Dr. Teague. Yes.
    Mr. Rich. I would also like to add, answering a couple of 
questions, I certainly see the value of adding compost or other 
organics. We are dealing with many millions of acres. And if 
that can be worked out, then it certainly gives us a jumpstart.
    But I would like to point out that it is possible to start 
with relatively degraded land, and using the appropriate 
livestock, we can get whatever kind of vegetation will grow, 
and manage it in the same way with sufficient rest and et 
cetera. And after jumping two or three thresholds, then we will 
start sequestering carbon, but we will build the health of that 
soil up until we get to that threshold.
    Mr. Bishop. OK, thank you. Mr. Holt?
    Dr. Holt. Thank you, Mr. Bishop. And I thank the Chair for 
arranging this hearing. This is the sort of hearing that we 
should have more often. I appreciate your doing this, and there 
is a lot to think about here.
    I would like to start by getting this in perspective. I 
think it was Mr. Rich who said that we should all play golf 
like PGA champions. Unfortunately, neither we do, nor do all 
farmers or ranchers play like--do their work like champions. 
And so, you know, there is, among us scientists, there is the 
old joke about the scientist presenting his ``typical 
observation,'' which means the best result he ever got. So, I 
think we really do have to look at what can typically be done, 
what the management, as it would be applied by actual humans, 
could result in.
    Mr. Wick, you commented that if all of the manure in the 
state, I think, was composted, or from the dairy farms that is, 
was composted, it could cover 40 percent, I think?
    Mr. Wick. A quarter of----
    Dr. Holt. A quarter, 25 percent----
    Mr. Wick. Yes. That is all of the organics in California. 
So the dairy----
    Dr. Holt [continuing]. Of the land, so that you could 
capture carbon equivalent to what is released by the 
agricultural sector.
    Mr. Wick. Oh----
    Dr. Holt. Did I understand that correctly?
    Mr. Wick. No. I would like to restate that.
    Dr. Holt. If you would, please.
    Mr. Wick. Yes, it is much more exciting than that. A one-
time--I am sorry, I have to get the right note here. But, 
basically, 5 percent of California, treated with compost, would 
offset all of California's agriculture and forestry sector.
    Dr. Holt. That is what I am saying.
    Mr. Wick. Five percent.
    Dr. Holt. Five percent. I see. And yet, if there is enough 
compostable manure to do five times that much----
    Mr. Wick. Much more, yes, if that is the correct number, 
yes.
    Dr. Holt. OK. Well, this doesn't quite agree with the 
earlier testimony, the other testimony, because agricultural 
carbon emissions are a few percent of total carbon emissions. 
So, if we could do several times, even five times agricultural 
emissions, capture that, we are still far short of capturing 
the carbon emissions of our society.
    Nevertheless, I think it is possible that the 
sequestering----
    Mr. Wick. Can I take exception with that? Is that----
    Dr. Holt. Yes, please. Yes, please. Set me straight.
    Mr. Wick. I believe, actually, the agricultural footprint 
is larger in California. I don't have the number on the top of 
my head, but it is much more significant than just a few 
percent, and that is what is important about this.
    I mean we could revisit this later when we have the data in 
hand, but we were excited by this, because the potential of 
this is huge.
    Dr. Holt. Yes. Well----
    Mr. Wick. And it is worthwhile.
    Dr. Holt. You know, and I think that is--we do--you are 
absolutely right, we do want the data in hand.
    Mr. Wick. Yes, and----
    Dr. Holt. I don't think we should be running out of this 
hearing----
    Mr. Wick. OK.
    Dr. Holt [continuing]. To say, ``Fine, let's turn all 
public lands over to grazing, it will be wonderful.'' I do 
think there are real possibilities.
    Now, I am still trying to understand, Dr. Teague, what it 
is about grazing, per se, that makes this work. I mean what is 
the magic juice here?
    Dr. Teague. If you recall the first slide I put up there, 
the way the cows distributed themselves on the landscape, they 
stuck to certain areas. And even though you correctly stocked 
for the whole landscape, they stick to a smaller area, and they 
overgraze those areas.
    Dr. Holt. I understand. Overgrazing is bad.
    Dr. Teague. That weakens those plants, OK?
    Dr. Holt. But why grazing at all?
    Dr. Teague. Go to slide 2. If you leave that area--in dry 
areas you have to recycle nutrients. If you break down the 
nutrient cycling, and you don't defoliate those plants, burn 
them or something like that, then the whole situation is 
static, there is nothing to feed the plants.
    Dr. Holt. So is the key here----
    Dr. Teague. They are dead plants.
    Dr. Holt. The key here is the manure from the grazing 
animal.
    Dr. Teague. That is part of it. But the other one is the--
--
    Dr. Holt. Is that right? Is that the key?
    Dr. Teague. That is a key. The other part is if you have a 
dead plant sitting up there, how much photosynthesis is it 
bringing in?
    Dr. Holt. Why does the grazing bring that plant back to 
life?
    Dr. Teague. Because you knock it back and you restore the 
nutrient cycling. If you graze----
    Dr. Holt. So it is the manure that is the key to this.
    Dr. Teague. No, it is also the plant roots. If you graze a 
plant that is healthy, a small percentage of the micro-roots 
die off. They immediately are gobbled up by bacteria, which, in 
2 days, they--nitrogen, which jumps that plant up, and it 
starts growing again. If you don't have the grazer in there, 
you get the tall plants growing up, the leaves die, and they 
self-shade, and it shuts down your capture of energy, and it 
slows down your nutrient cycling completely. Your ecosystem 
fails to function.
    Ms. Martin. Just for 1 minute on that----
    Dr. Holt. As you choose, Mr. Chairman.
    Ms. Martin. The grazer is dependent--Mr. Holt?
    Dr. Holt. Well, my time has expired. I am asking the 
Chairman if he wants you to continue.
    Ms. Martin. Can I answer?
    Dr. Holt. I am happy to hear your continuation.
    Ms. Martin. That plant is as dependent upon that grazer to 
bite it, as that grazer is dependent upon that plant for food. 
And we could go into that in greater detail, but that plant 
evolved--has to have a grazer, or some event like a fire. But 
generally it is a grazer. It has to have that grazer to go 
ahead and do its job. Just like that grazer----
    Dr. Holt. And that is to reduce the self-shading. Is that--
--
    Ms. Martin. That is exactly right.
    Dr. Holt [continuing]. Right, Dr. Teague?
    Ms. Martin. And so that it will go on----
    Dr. Teague. And keep the nutrients going.
    Ms. Martin. It will go on and do photosynthesis.
    Dr. Holt. And the manure and the fertilizer.
    Ms. Martin. Yes.
    Dr. Holt. OK, thank you.
    Mr. Bishop. Now you know I have to love that cow you hate.
    So, Mr. Grijalva, do you have another round of questions?
    Mr. Grijalva. Yes, I--excuse me. Some clarification.
    Dr. Teague, extreme conditions, they make climate change 
more severe, they prolong the droughts, they have huge impacts, 
not only on the land, but on wildlife habitat, wildfire. By 
incorporating the holistic approach and active approach to 
grazing that you outline, that livestock management can 
facilitate--in your testimony you state, ``can facilitate the 
provision of essential ecosystem services, increase soil 
sequestration, reduce environmental damage caused by current 
agricultural practices.''
    This seems to suggest that livestock management will solve 
all--almost all of our climate change problems, even though 
when we have--when extreme conditions exist, even during those 
times. But does this mean that wildlife and endangered species 
that are already on the brink of extinction, who compete with 
livestock in that environment, how does that fit together, in 
terms of wildlife and species that perhaps are on the verge of?
    Dr. Teague. The wildlife depend on a healthy ecosystem. 
Global warming is supposed to--in our area, to create a warmer, 
a hotter, and a drier environment. If you have soil that is 
uncovered with weak plants, that soil gets baked in the extra 
heat. You don't capture as much water to get in the ground and 
grow things.
    Mr. Grijalva. OK.
    Dr. Teague. If you manage so that you cover the ground, and 
you have more productive plants that then cover the ground all 
the time, you mitigate, you increase the ability of that 
ecosystem to survive the dry periods.
    We just had three horrendous droughts in a row in our neck 
of the woods, and the guys who are using the methods of grazing 
we are talking about, well, they have had some of the best 
years yet, because--I was at a workshop, and one of the guys 
was asked the question, and he said, ``I have managed for 25 
years to make sure I've got deep roots, I got the right plants, 
I got the soil covered.'' He is still making money; his 
neighbors are out of business.
    Mr. Grijalva. Does----
    Dr. Teague. So there is----
    Mr. Grijalva. On that point, does grazing at a larger scale 
than we are talking about presently, does that impact water 
resources?
    Dr. Teague. Absolutely, because if carbon dioxide is 
getting in the ground, that facilitates water getting in the 
ground. So the percentage of moisture that comes in as 
precipitation, a greater percentage of it stays in the soil if 
you have high carbon. If you have bare ground, it all runs off.
    Mr. Grijalva. One last point, one last question, if I may, 
Doctor. Do you believe that we should take steps to mitigate 
the impacts of manmade greenhouse gas emissions, for instance? 
And--OK. Do you believe we need to take steps to that? And is 
grazing the only method to mitigate those greenhouse gas 
emissions that Congress, at this juncture in history, should 
consider?
    Dr. Teague. We have a lot of things that we have to do. I 
am dealing with people who are managing the land. What I am 
working on is what will keep them in business, what will keep 
our ecosystems functioning and our watersheds functioning. And 
looking after carbon dioxide covers that base, as well as 
dealing with some of the climate issues, as well. So it is just 
part of the whole picture we have to address.
    Mr. Grijalva. But there are other models.
    Dr. Teague. Beg your pardon?
    Mr. Grijalva. There are other models, as well.
    Dr. Teague. Well, I have told you about the causal 
mechanisms, what causes degradation, and what brings it back 
from degradation. If you manage in a manner that affects those 
things, you will minimize the damage.
    Mr. Grijalva. So limiting emissions would be made moot 
because of the approach that you are talking about, correct?
    Dr. Teague. Well, if we were only emitting a few things, 
that would be true. But we are emitting so much now, the way we 
do business as a larger society, that is not the case. We have 
to reduce emissions as well.
    Mr. Grijalva. Thank you. I yield back.
    Mr. Rich. May I speak to the endangered species issue that 
Mr. Grijalva brought up?
    Mr. Bishop. Actually, no. But let me ask the question.
    Speaking of endangered species----
    [Laughter.]
    Mr. Bishop. First, I want to let--Supervisor Martin, I cut 
you off. If you have more to the testimony you were giving 
about your hay, first. But then I would like to come back to 
this concept of endangered species. Because apparently, with 
sage grouse, for example, in Utah there is one ranch that seems 
to have an over-abundance of that bird. They are obviously 
doing something that attracts it, as the neighboring Federal 
land is not attracting the bird. So I want to know how this 
impacts endangered species.
    But I cut you off, Supervisor.
    Ms. Martin. Well, and it also answers--I think it addresses 
Mr. Grijalva's conversation, too. USDA figures show that if you 
will take a block of soil, 1 foot by 3 foot by 6 inches, you 
have something that weighs about 100 pounds. If it only has 5 
percent organics in it, it will hold twice its weight in water, 
or 200 pounds. That is the equivalent of a 6-inch rainfall in 
an hour.
    It absolutely affects the water conversation. You will see 
ranch after ranch that is practicing this, that will say to 
you, ``We are having to haul water now, because the rain that 
falls now soaks in.'' We don't have storm drains any more, that 
when it storms they drain--instead the creeks, we now have 
creeks. It is a fundamental effect. And it is to the organics 
incorporated into the soil, one way or the other, through 
proper grazing, through outside inputs. It is the getting it 
started. And that was probably the rest of that conversation, 
sir.
    Mr. Bishop. Appreciate it. Mr. Rich?
    Mr. Rich. Yes. On that one ranch, just as an example, they 
have 300 bird species. They have been designated by the Audubon 
Society as a worldwide important bird area. And they have 20 
percent of the sage grouse in the State of Utah on about 5 
percent of the habitat. The Bonneville cutthroat trout is out 
of danger. The pygmy rabbit is out of danger on this land. The 
white tail prairie dog is widely abundant on this ranch, 
entirely out of danger. There are--they are famous for their 
other wildlife: elk, deer, moose, et cetera, et cetera.
    They have tremendous amounts of raptors, you know, birds of 
prey. You are never out of sight of an eagle or a large hawk. 
You will see more coyotes in a day than you will generally 
see--than a lot of people see in a lifetime. It is an entirely 
different world, where endangered--I mean it is really 
pointless to try to introduce endangered species or try to 
recover them without recovering soil carbon.
    If you do that, then it works itself out. Like, if you want 
to have wolves, you have to have a very productive ecosystem, 
or else you have what is happening in Yellowstone now, which is 
a 90 percent decrease in the elk population. They just can't 
keep up with the predation. And it is because of documented 
degraded resources in the northern part of Yellowstone.
    Ms. Martin. Steve, I would like to piggy-back on that. Mr. 
Chairman, I know that if these Members are truly interested in 
seeing this in action, that the Deseret Ranch welcomes field 
trips. And I would suggest if anybody would like to go look----
    Mr. Grijalva. It is nice.
    Ms. Martin [continuing]. That we gather up and we go. Go 
look for yourself. Go talk to those folks yourself. It is an 
exciting--and part of what is so exciting to me, again, on that 
202,000 acres, they are making $3.5 million every year, year in 
and year out, $17 an acre. Now, that is a huge economic 
benefit----
    Mr. Rich. In the cow business.
    Ms. Martin. That is in the cow--yes. Come go with us.
    Mr. Rich. I want to emphasize they are making that money in 
the doggone cow business, you know, which is famous for not 
making any money. So that is a 50 percent net profit. Just want 
to make that clear.
    Mr. Bishop. OK. And you just have to remember Deseret Ranch 
is in my district. So be careful who you are inviting to Utah, 
would you?
    Ms. Martin. All but you are welcome, yes.
    Mr. Bishop. Got to look carefully here. I am going to--we 
have votes planned at about 3:30. So I am going to go as far as 
we can with the questions that we have. I have other questions, 
but let me stop my time here and go on--Mr. Huffman, do you 
have other issues?
    Mr. Huffman. I just wanted to give the witnesses an 
additional chance to comment on the side bar that Dr. Holt and 
I were having here, which is he is struggling with grazing 
versus no grazing. We were having a little side bar about how, 
in the state of nature, there were these huge herds of grazing 
animals, the bison, the antelope, that no longer exist in those 
type of numbers, and that, to some extent, the type of grazing 
that you are talking about here may be replacing a natural 
function, and that may be--I was speculating that may be part 
of why this works with the natural system. But----
    Dr. Holt. If the gentleman would yield----
    Mr. Huffman. Yes.
    Dr. Holt. Just for clarification so the witnesses can work 
with this, my question has to do with to what extent grazing is 
a compatible use of the land in which soil--sequestration of 
carbon is taking place, and to what extent it is a necessary 
part.
    Mr. Huffman. Yes, good.
    Ms. Martin. I will say that it is an incredibly necessary 
part. And I think the struggle you are having is one that I 
call the ``man in management.'' It is not the cow, it is not 
the buffalo, it is the human that is directing what they do and 
how long they are there. And it is understanding that 
overgrazing is a function of time, not animal numbers, and 
getting your head around that--and we can talk about more of 
that, if you want to--but overgrazing is absolutely caused by--
and on Federal land right now, it is caused by the very rules 
and regulations we are talking about. You are forced into 
overgrazing, following Federal rules and regulations.
    So, the first thing that has to happen is a lessening of 
those, which is why I had asked for demonstration areas, so 
that we can all learn together what that means, and we learn it 
in a very structured and researched way on different soil 
types, so you don't have to eat the elephant all at one time.
    And I will have people say to me, ``Well, there's all 
demonstration areas everywhere.'' There are, but it is a 
different thing when you are involved, personally, in looking 
at that.
    Mr. Huffman. Can you elaborate on that? What is it about 
existing Federal regulations that you think mandate 
overgrazing?
    Ms. Martin. Overgrazing can occur in as little as 5 days, 
depending upon the rate of growth and the animals that you have 
there. And Federal regulations will make you stay in that place 
30 days up to 90 days. There is no way you cannot overgraze. 
You become what I call instruments of your own demise. You are 
forced into following those regs, or you are kicked off. And if 
you follow them, you are putting yourself out of business, and 
you are impoverishing your area. If you need to move in 5 days, 
you need to move in 5 days, and you need to let the pasture 
determine the action, not the calendar.
    Dr. Teague. The definition of overgrazing is grazing a 
plant after it has been grazed already before it is recovered. 
Because as soon as you do that, you lose root volume, and 
everything goes negative after that point. And if they have 
undisclosed activity, they will work from a point--they visit 
numerous points, and they will find the previous patches they 
grazed 2 or 3 days before, and they will go back and hit the 
same ones all the time. That is why you need to graze for a 
short period, move on somewhere else.
    Ms. Martin. And there are ones that they are overgrazing 
because they are trying to recover--they are so much higher in 
nutrients. That is why they go back to them.
    Dr. Teague. Yes.
    Ms. Martin. They are not stupid about that. You have to 
have them moved to be able to go to the next pasture and the 
next pasture.
    Mr. Rich. I would like to comment on what--on this thing. 
The--suddenly I can't remember your name.
    Dr. Teague. Richard.
    Mr. Rich. Richard. The thing Richard was saying about 
getting the livestock spread out is very important. There is a 
concept called the grazing lawn that Dr. McNaughton and 
Augustine and others talk about. These are structures where 
there is enough dung and urine and et cetera that is deposited 
to increase soil fertility.
    Done optimally, the way Dr. Teague and the rest of us are 
suggesting, then the entire ranch becomes one of these 
structures, which is why we get so many more birds and so many 
more everything else, is because the forage quality goes up so 
much, as does the volume. And John Wick will testify to that, 
that forage quality increases dramatically, and forage volume 
increases dramatically.
    Mr. Wick. It is true.
    Mr. Bishop. Mr. Grijalva, you have more?
    Mr. Grijalva. Just let me follow up on--did you point to me 
or Mr. Holt?
    Dr. Holt. No----
    Mr. Grijalva. Oh.
    Dr. Holt. I don't care about the order.
    Mr. Bishop. Go ahead.
    Mr. Grijalva. You go.
    Dr. Holt. Well, all right, thank you. Thank you. So I don't 
doubt that overgrazing is incompatible with capturing and 
keeping the carbon in the soil. But I guess I would like to be 
pointed to solid research that grazing up to that overgrazing 
is--improves the sequestration or is necessary for the 
sequestration of the carbon.
    Dr. Teague. There has been some exceptionally good work. 
Dr. McNaughton is probably the leader.
    Dr. Holt. Naughton. OK.
    Dr. Teague. Studying natural grazing systems, which, in 
their natural state, are dominated by large grazers, buffalo, 
et cetera, in large herds, and they move around all the time, 
so they have a transitory effect. But that effect maintains the 
grasses where they are green and capture--keeps the soil 
nutrients cycling.
    If you remove all those animals from that area, you get 
lots of growth that looks really good. But the next year you 
have a lot of dead grass standing there. You are getting very 
little photosynthesis. You are getting no turnover in the 
nutrients. Things close down.
    Now, your insects, which are important for the birds, which 
are important for the higher stages, they need that green stuff 
with a high nutrient turnover and green material that provides 
the energy to keep the whole ecosystem going. The soil 
microbes, the plants, the insects, all the animals of the 
different ecological stages depend on each other. They evolve 
together. If you now suddenly take those out of the picture, 
the whole shebang comes down like a pack of cards around your 
ears. Grazers are essential for ecosystem health in grazing 
ecosystems.
    Ms. Martin. And to answer your overgrazing, you are dead 
right about overgrazing releases carbon. That is one of the 
reasons we have released the carbon is because of the poor 
grazing practices. You are not wrong there. It is just simply 
learning how to reverse that, OK?
    Dr. Holt. But for the--Dr. Teague, in the example or the 
description that you give, it may well be that if the roots are 
as deep as they are going to go, if that is accomplished in 
some way, and the grasses, the plants, whatever, grow large and 
don't continue to grow, they are still holding that carbon.
    Dr. Teague. That is correct.
    Dr. Holt. And so it may be that you don't need next year's 
growth. In other words, you don't have to cut and release all 
that carbon, so that next year you can store more carbon.
    Dr. Teague. OK, here is a scenario----
    Dr. Holt. And so--and, by the way, and you cut out the 
methane in the process, too, if you leave the plants to their 
own.
    Dr. Teague. OK. So you have a little grass standing out 
there, and it is dead, and a lightening storm comes along, and 
it sets the world alight, and you burn the whole landscape. You 
have bare ground. You know what is happening there? You are 
losing soil, you are losing carbon dioxide. The whole shebang 
comes down around your ears. And once you have lost that, you 
can't get back to where you were before. You have to manage 
like the natural ecosystems without exceeding the bounds in 
terms of overgrazing or undergrazing. There is a neat area in 
the middle where everything works. You step outside of that 
either way, and it ceases to work.
    Dr. Holt. Good. Well, I thank you. I thank the Chair for 
the time.
    Mr. Bishop. Thank you. Grijalva?
    Mr. Grijalva. Very quickly, Supervisor, you were talking 
about the management, and that maybe--or, well, in your mind, 
yes, existing policies, grazing policies, regulations actually 
make the situation worse, rather than better. This holistic 
approach, using the public lands as a sequestration area in 
terms of grazing, looking ahead, how do you pay for something 
like this?
    And I say that because who is going to be responsible for 
the management on the public lands, number one. Number two, we 
are 115 million short as of 2004, the last study on collected 
fees versus the cost of managing that. And who--where would the 
prerogative of management be, as you see it? Would it continue 
to be with the Federal Government, or do you see something 
else?
    Ms. Martin. Let me take you back to the Deseret Ranch. It 
is Forest Service, BLM, and some private. OK? Now, I just keep 
using them because they are such a stellar place. But they are 
not the only one. Most is on private land that you are--looking 
at these kinds of examples, because you are not allowed to do 
this on public land. You are not allowed to move critters as 
fast as you need to.
    Mr. Grijalva. Are there public lands where--what we have 
been talking about today, in terms of this concept, are there 
public lands in which ranchers want to do that?
    Ms. Martin. Oh, yes. We would do it in a heartbeat----
    Mr. Grijalva. With grazing permits?
    Ms. Martin. Oh, yes. And you wouldn't have to pay them, you 
just have to get out of their way.
    Mr. Grijalva. No, they might want to try paying us, but 
that is a different story.
    Ms. Martin. They could pay you. Tell me that I wouldn't 
rather have----
    Mr. Grijalva. More than the state--the state charges more.
    Ms. Martin. Tell me I wouldn't rather----
    Mr. Grijalva. Private land--OK, I am just----
    Ms. Martin [continuing]. Have $17 to the acre and the 
receipts of that, rather than----
    Mr. Grijalva. Well, in tough economic times I am for cost--
pay-as-you-go and cost recovery. And I think that concept would 
be important in this case, too.
    But, Dr. Teague, there is--you know, my neck of the woods 
and other parts of the West, you mentioned--somebody mentioned 
the 3 or 4 years--I think we are going on 5--droughts in--and 
those arid lands have become more arid. And the question I 
have, are there systems in which what we have been talking 
about today is not compatible?
    Dr. Teague. We still have to do a lot more research. But 
going on experience from working with the ranchers from 
numerous places, this basic model works in a lot of areas.
    I mentioned earlier when you were out, Patagonia, I am 
working down there, and many of those areas are 10 to 15 inches 
of rainfall. And they were in a seriously degraded situation, 
so that even--so that the farmers who were trying to make a 
living there, many of them have had to leave the land.
    The Patagonia Company came along and formed a----
    Mr. Grijalva. So is there a system--are there presently 
systems in which the approach we are talking about today is 
compatible or not?
    Dr. Teague. Yes, from 10 inches of rainfall up to 80 inches 
of rainfall.
    Mr. Grijalva. It is compatible?
    Dr. Teague. Yes.
    Ms. Martin. Well, and we----
    Mr. Grijalva. And so, in extreme arid areas it is not?
    Dr. Teague. Well, if it is desert. If it is grassland that 
can hold a grazer, even if it is degraded you can bring it back 
under the right----
    Mr. Grijalva. Or certain animals in the North American 
Great Basin?
    Ms. Martin. Mm-hmm.
    Dr. Teague. Yes.
    Mr. Grijalva. OK. All right, thank you. Yield back.
    Mr. Bishop. Let me try and--we all keep plowing ground that 
I find interesting.
    [Laughter.]
    Ms. Martin. He is losing carbon if he does that.
    Mr. Bishop. Because I like hamburger more than he does.
    So, Mr. Teague, you have had experience in international 
issues. Are there examples internationally of this concept? And 
are any of those applicable to what we are talking about that 
could be here in the United States?
    Dr. Teague. Yes. I visited Australia, South Africa, and 
many of their dry areas are the first areas to implement these 
changes, because, under bad management, they degrade pretty 
quickly. But many of the really best examples have taken place. 
And after 10 years of really good management, they have 
recovered to the point of being damaged, completely dominated 
by grassland, whereas previously that would be just bare 
ground.
    It can be done. You have to have the right people doing it.
    Mr. Bishop. So in Australia you are talking about--are 
these government-managed areas?
    Dr. Teague. No.
    Mr. Bishop. Private-managed areas.
    Dr. Teague. The government in Australia is absolutely 
immune to thinking of any other way of managing, other than 
their way. But the people who have achieved really good results 
have followed the system that we are talking about now.
    Mr. Bishop. Is there anything--Mr. Wick, I am assuming that 
the grasses that you are growing on your farm in California are 
perhaps different than what we are talking about in most BLM 
land in the Intermountain West. I am assuming some are annual, 
some are perennial. Does that have a difference, the kinds of 
vegetation we are talking about, does that play any kind of 
difference in the role of the results we might get?
    Mr. Wick. That is an interesting question. I don't know 
about that area. I know about my ranch, and my management has 
been to promote the perennial grasses with the deeper roots. 
And so I am seeing success with that. That suggests that there 
is more carbon going into the soil through roots, and 
ultimately ending up in a more stable form. So that is an 
anecdotal observation of mine. All our data is based on the 
compost application.
    Mr. Bishop. OK.
    Mr. Wick. As a rancher, what I have seen is green grass all 
summer in the perennials, and that is very exciting. So I can 
use my grazing management to achieve a stronger population of 
perennials without planting a seed. They seem to buffer or 
withstand a drought better than the annuals, prolonging my 
growing season. And then, on the composted plots, what we have 
seen is an incredible explosion of the native perennials within 
the boundaries of the research plots. So the improved soil 
health, the native plants respond really well to that.
    There is some suggestion that California, at least, was 
green year-round. There is not much evidence--you know, that 
was a while ago, that was 150 years ago. But the plants seem to 
be in the soil, the seeds are there. And so, if we manage for 
them, they express themselves.
    Mr. Bishop. The kinds of vegetation we are using has an 
impact and has a difference, then.
    And, Ms. Martin, I have 2 minutes. Let me try an entirely 
different area dealing with Forest Service. You have worked 
with the Forest Service having asked you to put small water 
tanks all over the place to stop small forest fires from 
becoming big. Is that replicated anywhere else?
    And have you seen anything else with healthy forest 
initiatives where this concept, what we are talking about, 
could be applied to the forest, as well?
    Ms. Martin. On the first one, a couple of counties are 
beginning--we have been doing this since 2006, and we do have 
some counties through the West that are beginning to try and 
duplicate this. Whether they are actually setting up the tanks, 
or they are making deals with people that have swimming pools 
that they won't take the roof off with their rotor wash when 
they dip out of it, they are beginning to do that in some of 
the areas.
    To start with, we were saying--they were telling us, no, 
this is a Forest Service problem, and we were saying, no, it is 
all of our problem. We need to what I call hold the fort, if we 
can, until we get industry in. And that, to me, is the second 
piece of this, is to bring industry in, and let them profit by 
cleaning out these forests, in particular, which goes into your 
conversation about forest health.
    Again, my great-grandmother saw 30 trees to the acre. I am 
looking at up to 3,000. When you have that many straws in the 
ground, every little dry spell is a drought. It also is a fire 
hazard that you can't believe. We have to get in there and get 
that cleaned out.
    We are doing some things in Arizona. It is called, the Four 
Forest Restoration Initiative is one of them, to where we bring 
everybody together and get that cleaned out. Once it is cleaned 
out, then the very things we are talking about, you can go back 
onto that forest floor and do this very thing, beginning to 
sequester carbon, both through the trees--trees have a 
different root system, they are more lateral, and they 
sequester carbon in their wood. And so your wood products 
harvest that carbon and keep it stored.
    But if you will also have a component of grass on that 
ground, you can begin to put it in much deeper. Grass plants 
will take it down 15 feet, where a tree won't take it down a 
foot, in some cases. But I don't know if that helped answer, 
but----
    Mr. Bishop. That did. And maybe, if we have time, we will 
talk about the cooperation you are having with the Forest 
Service as well, there. No more. Mr. Holt?
    Dr. Holt. Just a comment about the Forest Service. I was 
just looking it up right here. In the western United States, 
forests sequester about twice as much carbon as grasslands and 
about eight times as much as agricultural lands. Just an 
interesting figure. So you are right to talk about working with 
the Forest Service.
    Mr. Wick. Could I comment to that, or----
    Dr. Holt. Yes, if you have a comment on that.
    Mr. Wick. Yes, I would. I would like to then consider what 
the potential of grasslands are, in terms of additional carbon 
sequestration.
    Dr. Holt. Of course that is the point of today's 
discussion.
    Mr. Wick. Right.
    Dr. Holt. And I appreciate that.
    Mr. Wick. Yes.
    Dr. Holt. And it may be huge.
    Mr. Wick. And I believe it is, and I would like to find 
out----
    Dr. Holt. Thank you.
    Mr. Wick [continuing]. A way to get that information to you 
when we get it.
    Dr. Holt. No further questions from me. Thank you, Mr. 
Chairman.
    Mr. Bishop. Supervisor, can I just follow up? Is the Forest 
Service cooperating with you on these efforts in forest 
restoration?
    Ms. Martin. Yes and no. The folks are cooperating. The 
culture and the process works against that. I believe that in 
this one case that we are talking about, 4-FRI, that a 
compromised contracting process is going to stall us in our 
tracks, if we are not careful. It almost has.
    And what I mean by that, they--a contract was let in May of 
2012 to get started on cleaning 300,000 acres on these four 
forests in Arizona. We should have cleaned 15,000 acres in 
2012, we should have cleaned 30,000 acres in 2013, and we 
should be working on our second set of 30,000 acres, so at the 
end of the year--we had 45,000 acres by now, and we should be 
doing 30,000 more. We have actually cleared 1,200 acres in that 
same timeframe.
    They picked a contractor that didn't have the financing, 
that didn't have the expertise. That contractor, a year-and-a-
half later, flipped it to somebody else who, a year later, 
hasn't done any more. And while they fiddle, we are getting 
ready to burn. And it just frustrates me no end. I don't know 
where the log jam is. One of the things that I would like to 
have you all help, if you could, is help me find where that log 
jam is, and get with this.
    Mr. Bishop. Thank you. I have some ideas where it is, too, 
but we will save that for another time.
    Mr. Rich, if I can--hopefully, as we are coming close to 
the votes here--you wrote about an incident in your written 
testimony that was raised in, you said, a NEPA document about a 
cow eating a threatened fish. Sounds strange, but could you 
just explain that to me?
    Mr. Rich. Oh, it is much worse than that. It was Federal 
scientists repeatedly claimed that not a cow, but cows in 
general, eat endangered fish. They also claim that they eat 
endangered fish eggs, and that they step on the redds of--redds 
are fish nests, essentially--that they step on and destroy the 
redds of species of fish that do not make redds.
    There is kind of a game that a lot of Federal employees 
play. They just see how much you can injure the ranchers. And 
science, or truth, have nothing to do with it whatsoever.
    Mr. Bishop. Is the name Gene Govens?
    Mr. Rich. Govens? Gene Goven? Yes. He is a rancher in 
Turtle Lake, North Dakota. And he is one of the ones we look 
to. He--for instance, the Fish and Wildlife Service has turned 
a small wildlife reserve over to Gene, because all of the birds 
on his land. And so he is now managing the reserve, as well. 
But he makes 20 percent net return on investment, is my 
understanding.
    And he, furthermore--anyway, he has gone from dry land 
species to tall grass prairie species on some of the driest 
areas. And that is one of the dynamics that we have to 
understand. People talk about sequestration ending when we fill 
these soils up with carbon. All that really will happen is, as 
we get more carbon, we will grow taller and taller organisms, 
and have deeper and deeper root zones. We will not saturate 
before we run out of CO2. Might have to have the Chinese burn 
more coal.
    Mr. Bishop. I thank you, and I hope those species on his 
ranch are not endangered, because otherwise Fish and Wildlife 
won't count them when they are over there.
    Are there any other questions for these witnesses?
    Mr. Huffman. Just wanted to thank you, Mr. Chair. We were 
doing almost perfectly until we wandered in the very end into 
some politically treacherous areas. But I think this was a very 
refreshing hearing, and I think this was the best of the 
oversight function, and has certainly ignited some ideas, I am 
sure, with many of us on how we might work together to explore 
the possibilities. And I appreciate the witnesses and 
appreciate your leadership, Mr. Chair, in pulling this 
together.
    Mr. Bishop. Thank you. I want to thank you all for making 
the trek out here. I appreciate it very much, for taking the 
time with us. There may be some additional questions that 
people will have for you. We would ask you to respond to those 
in writing in a relatively short period of time, if you would 
do that.
    I appreciate what you are saying. It is requiring, I think, 
that we have seen the opportunity of thinking outside of the 
box. Sometimes thinking about things that are counterintuitive 
as a solution. And what we now have to do, from this testimony, 
is figure out what the next step is.
    Because I think you have identified something that could be 
an extremely effective way not only to improving our livestock, 
and improving our wildlife, and improving our range conditions 
and our lands, but also being a way of improving the climate, 
and carbon sequestration, and helping all sorts of people 
getting something--this could actually be a very win-win 
situation, if we were actually to implement these things on 
Federal lands in a large way. So, I appreciate you being here. 
This is the first step, obviously, of what we are doing.
    Do you have a benediction you want to give there, Mr. Wick?
    Mr. Wick. Well, I would just like the opportunity to come 
back before this group to present further research results, as 
we move forward.
    Mr. Bishop. I appreciate that. And you also have the 
written way in which you can contact us, as well.
    Mr. Wick. Thank you.
    Mr. Bishop. So I thank you for that. If there is nothing 
else, without objection, we are adjourned.

    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of Thomas L. Fleischner, Ph.D., Director, Natural 
   History Institute & Professor of Environmental Studies, Prescott 
  College, Prescott, Arizona (Chair, Public Lands Grazing Committee, 
               Society for Conservation Biology, 1993-94)
 Issues of Concern with W.R. Teague's testimony at the Subcommittee on 
    Public Lands and Environmental Regulation Oversight Hearing on 
        ``Increasing Carbon Soil Sequestration on Public Lands''
Having read Dr. Teague's testimony, I would raise several issues of 
concern. Most of these issues involve what he does not include in his 
analysis, rather than what he does. Listed below are several 
overlapping issues

  1.  There is an unstated but clear assumption in Teague's testimony 
            that there shall be grazing. Thus, his comparisons are 
            between management that is somewhat engaged and aware and 
            management that is not (traditional range management often 
            involves turning livestock out, untended and unchecked, for 
            months at a time). Given this comparison, it is 
            unsurprising that he finds his preferred multi-paddock 
            approach to be superior. Simply put, there is more carbon 
            sequestration in landscapes with some vegetation than in 
            those with little or none (as has been the result in many 
            parts of the arid West). What he fails to do, consistently, 
            is compare any grazing approach with a management strategy 
            that leaves livestock off the land.

  2.  Under any grazing management system, less carbon is going to be 
            sequestered with livestock than without livestock. Indeed, 
            the whole point of livestock grazing is to export carbon 
            (in the form of meat)!

  3.  He states that ``The key to sustaining and regenerating ecosystem 
            function in rangelands is actively managing for reduction 
            of bare ground . . .'' I agree. Why, then, does he refuse 
            to consider any non-grazing treatments, which are more 
            likely to maintain plant cover?

  4.  He completely disregards the impacts of livestock grazing on 
            western riparian habitats. These streamside habitats are, 
            by far, the most productive and biologically diverse 
            habitats in the arid West. It is widely documented that 
            when given a choice cattle will select riparian habitats 
            over surrounding arid uplands (no surprise, given the 
            presence of water, shade, and forage). It is also well 
            documented that livestock cause serious degradation of both 
            terrestrial and aquatic riparian habitats. Even those these 
            habitats comprise a tiny percentage of the West, they hold 
            enormous importance for biological productivity and 
            biological diversity. Any analysis of Western ecosystem 
            functioning that ignores riparian zones provides a very 
            incomplete view of ecological impacts of grazing.

  5.  Contrary to many anecdotal stories, there is no scientifically 
            substantiated evidence that multi-paddock (=Holistic 
            Management, =short duration grazing) grazing achieves the 
            results claimed by Allan Savory.

  6.  Contrary to popular misconception, there were no large native 
            herbivores (ie, bison) in most of the arid West (west of 
            the Rockies). Bison were abundant on the Great Plains, but 
            mostly absent from the regions west of the Rockies. Thus, 
            there is no validity to ideas that livestock somehow 
            ``replace'' native grazers.

  7.  Teague's analysis fails to address another of the most important 
            aspects of carbon cycling in arid landscapes--biological 
            soil crusts. Soil crusts play essential roles in retaining 
            water, establishing seedbanks for vascular plants, and 
            resisting soil erosion. Soil crusts are almost always 
            absent in sites currently grazed by livestock. Because 
            Teague's analysis failed to look at ungrazed ecosystems, he 
            was unable to see the most effective approach to carbon 
            sequestration, which is allowing soil crusts to restore 
            themselves in the absence of livestock (as has been 
            documented in Chaco Canyon, NM, by Floyd et al. 2003), and 
            for ecosystems with native species composition, function, 
            and structure to flourish once again.

  8.  Note the use of terms like ``conservation rancher'' and 
            ``regenerative grazing''--further indications of the lack 
            of considering options outside the livestock realm.

                                 ______
                                 

       Carbon Cycle Institute/Marin Carbon Project,
                                                      July 4, 2014.

Hon. Rob Bishop, Chairman,
Hon. Raul M. Grijalva, Ranking Member,
Hon. Rush Holt, Committee Member,
Hon. Jared Huffman, Committee Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Re: Comment on Oversight Hearing on ``Increasing Carbon Soil 
        Sequestration on Public Lands,'' Wednesday, June 25, 2014

    Thank you Chairman Bishop, Ranking Member Grijalva, and members of 
this subcommittee for convening this important discussion at this 
critical time. As a rangeland ecologist and co-founder, with Mr. John 
Wick, of the Marin Carbon Project, and having watched the hearing live 
via a web connection, I hope my comments below will help clarify some 
of the issues discussed.

1. Ranking Member Grijalva's suggestion that carbon sequestration 
``sidelines'' the grazing fee discussion.

    Ranking Member Grijalva suggested that talking about carbon 
sequestration on public lands ``sidelines'' the issue of excessively 
low grazing fees on public rangelands. Originally conceived as a public 
good due to the production of food and fiber to meet the needs of a 
growing nation, public lands grazing has in recent years increasingly 
been viewed as a public subsidy of private enterprise, often with 
further public cost in the degradation of public lands through poor 
livestock management. Discussion of how public land lessees might 
actively participate in a climate change solution raises the 
possibility of once again viewing grazing on public lands as a public 
service.
    While much of the criticism of grazing and low grazing fees is well 
founded, it must not blind us to the possibilities of using appropriate 
livestock management practices to achieve the types of climate and 
ecosystem-beneficial results outlined by the panel of expert witnesses 
during this hearing. Such beneficial practices may indeed lend 
themselves to ``subsidy'' by a rational society seeking viable 
solutions to address the rapidly worsening global ecological crisis 
driven by excessive quantities of CO2 in the atmosphere. The costs of 
implementing grazing practices that lead to enhanced ecosystem 
function, including soil carbon sequestration, should not be borne 
entirely by the public lands lessee, and may in fact warrant a fee for 
service arrangement with the Federal Government under specific 
circumstances. A continuum of fee schedules is imaginable, for example, 
under a stewardship contracting arrangement, whereby graziers are 
billed, or compensated, on a sliding scale based on ecosystem 
management services provided relative to both public and private 
benefits received.
    Under no circumstances should public land grazing be allowed to 
lead to degradation of the resource, but a range of flexible fee 
structures would encourage best practices while supporting the 
technical and administrative services needed to address historical 
damage and oversee existing grazing leases. It is entirely appropriate, 
in my view, to consider payment to public land graziers if, but only 
if, the net ecosystem benefits, including carbon sequestration, can be 
quantified and verified as justifying such public expense.

2. Restorative conservation grazing management can reduce atmospheric 
CO2 to pre-industrial levels.

    Both Mr. Steven Rich and Dr. Richard Teague commented that 
photosynthetic capture of atmospheric carbon dioxide and its beneficial 
sequestration as vegetation and soil carbon could theoretically reduce 
atmospheric levels of CO2 to pre-industrial levels. We know that until 
the industrial revolution atmospheric CO2 concentration oscillated 
between 190 and 290 ppm for at least 800,000 years. Given that the 
current concentration is over 400 ppm, we would need to reduce current 
atmospheric CO2 levels by at least 110 ppm to reach pre-industrial 
levels. This level of CO2 reduction may not be necessary to stop and 
reverse global warming, however. There is general agreement that a 
concentration of 350 ppm is probably an acceptably safe level of 
atmospheric CO2, which would require removal of approximately 50 ppm. 
This is clearly a more achievable target in the nearer term, and 
perhaps more plausible to those new to the concept of biological 
terrestrial carbon sequestration. A full return to pre-industrial 
levels is theoretically possible, but 350 ppm is both more readily 
achievable and probably sufficient.

3. Congressman Holt: why is grazing preferable to no grazing at all?

    Congressman Holt raised the question of whether no grazing at all 
would not be a better option than the restorative conservation grazing 
management addressed by the witnesses. Both Supervisor Miller and Dr. 
Teague addressed the coevolution of--and mutualisms between--grazing 
animals and grazed vegetation. To grasp the significance of this 
relationship, it is critical to understand that ecosystem carbon is 
embodied solar energy, and as such, is the energy currency of virtually 
all biological systems. As noted by Dr. Teague, it is carbon, that is, 
solar energy embodied via plant photosynthesis, which drives all 
ecosystem processes, including biodiversity, productivity and 
resilience. Grazing by native grazers is recognized by systems 
ecologists as an ecosystem energy optimization strategy, and managed 
livestock grazing, when scaled appropriately in both space and time, 
leads to similar ecosystem benefits. Energy optimization, in the 
context of grazed ecosystem dynamics, refers to the capacity of the 
ecosystem to optimize the capture of solar energy through 
photosynthesis, and retain that energy within the system, including its 
long-term storage in recalcitrant soil carbon pools.

4. Congressman Holt suggested that once a plant has formed its root 
system and grown its above ground structure, there is no need for 
grazing because, he suggested, the plant has thus captured as much 
carbon as it can.

    This perspective misses the inexorable annual cycle of growth and 
decay and the opportunity each new growing season--indeed, each new 
day--presents to both capture additional atmospheric carbon and to 
direct some of that carbon to the soil carbon pool by a variety of 
mechanisms. These mechanisms include the decay of detritus at the soil 
surface, the discharge by plants of sugars and other carbohydrates to 
the rhizosphere (the highly biologically active soil surrounding the 
plant root), the direct symbiotic transfer of plant carbohydrates to 
root-associated fungi, and the sloughing of plant roots. Each day 
brings a new opportunity, as environmental conditions permit, for 
carbon capture and a new opportunity for transfer of carbon from the 
air to the soil via plant metabolic processes. To the extent that 
grazing is managed to facilitate these processes, it is an essential 
component of optimizing energy flow and carbon capture in the 
ecosystem. While grazing is not commonly managed for this explicit 
objective, it can be, which is the point being made by the expert panel 
here.

5. Ranking Member Grijalva asked: Can holistic approaches to grazing 
facilitate provision of essential ecosystem services, even in extreme 
conditions? What are the impacts on wildlife and endangered species?

    Holistic approaches to land management require the identification, 
apriori, of management objectives and both proactive and adaptive 
management over time to meet those objectives, or others if objectives 
change. Management for wildlife and endangered species can, and must 
therefore, be included among the management goals of rangeland 
ecosystems. Dr. Richard Teague discussed the mechanisms driving soil 
carbon sequestration on grazed lands, particularly the reduction of 
bare ground, moderate rather than excessive levels of defoliation, and 
the importance of adequate recovery periods for grazed vegetation. Dr. 
Teague noted that wildlife are dependent on healthy ecosystems and that 
by increasing soil carbon sequestration, restorative conservation 
grazing management contributes to ecosystem health. As noted by Dr. 
Teague, it is carbon, as solar energy embodied through plant 
photosynthesis, which drives all ecosystem processes, including 
biodiversity, productivity and resilience. As climate change worsens 
and formerly extreme conditions become more common, the importance of 
ecosystem resilience to protect biodiversity and maintain productivity 
will only increase.

6. Ranking Member Grijalva: Does grazing impact water resources?

    As explained by Dr. Teague and Supervisor Miller, soil carbon 
increases can absolutely lead to improved watershed conditions, 
improved soil water holding capacity and improved recharge of ground 
water. This is because soil organic carbon plays a significant role in 
the capture and retention of water, and its slow release over time. 
Loss of vegetation cover leads to soil erosion and associated losses of 
soil carbon and soil water holding capacity; restorative grazing, by 
definition, leads to the restoration and enhancement of these ecosystem 
services. The Marin Carbon Project has measured significant ongoing 
increases in soil moisture in response to both surface applications of 
compost to rangelands and, most significantly, to increased soil carbon 
resulting from enhanced photosynthetic carbon capture in response to 
improved soil quality due to those compost applications. The 
implications for the West are significant: we estimate that we have 
more potential water storage capacity in California's soils under an 
improved soil carbon scenario than all the reservoirs in our state.

7. Ranking Member Grijalva: Does grazing obviate the need for emission 
reductions?

    Ranking Member Grijalva queried Mr. Wick on the relationship 
between Allan Savory's Ted talk (in which Mr. Savory claims holistic 
grazing alone can restore atmospheric levels of CO2 to pre-industrial 
levels), and the Marin Carbon Project published, peer-reviewed 
experimental results showing increased atmospheric carbon capture on 
rangelands following compost applications. Congressman Grijalva was 
particularly interested in whether a restorative grazing management 
approach alone can solve the climate crisis, obviating the need for 
lowering greenhouse gas emissions. As noted by Dr. Teague, we must 
reduce emissions, regardless of the capacity for soil carbon 
sequestration through enlightened management of public lands. Reducing 
emissions alone, however, is not enough to reverse the climate crisis 
due to the legacy load of greenhouse gases already in the atmosphere. 
We must also remove significant quantities of CO2 from the atmosphere. 
Biological terrestrial sequestration is far and away the safest, most 
reliable and least expensive approach to doing so, and is accompanied 
by a host of environmental co-benefits, as outlined in supporting 
materials provided by the panel members.

8. Chairman Bishop asked Dr. Teague to explain the disagreement among 
researchers on the potential of carbon sequestration through grazing.

    Dr. Teague suggested this discrepancy is due to a failure of 
research design. Dr. Teague noted that he studies what the best 
ranchers are achieving; that while there is certainly degradation to be 
found everywhere, the key is to improve such conditions. Mr. Rich 
suggested the discrepancies observed are a function of different levels 
of management skill among ranchers, analogous to differences between 
professional and amateur golfers.
    I would also note that ecosystem carbon dynamics, particularly the 
role of soil carbon as embodied solar energy with the potential to 
drive system change, is a new area of focus for rangeland science, and 
it is this lack of understanding of the central role of carbon in 
system dynamics that has led to the confusion and controversy we see 
surrounding the debate on this topic.

9. Chairman Bishop asked if it is necessary to apply compost on public 
lands to achieve increased soil carbon sequestration.

    The Marin Carbon Project used compost applications as a way to test 
the hypotheses that (1) increasing soil carbon on grazed rangelands is 
possible and, (2) would result in further ecosystem benefits, including 
increased photosynthetic capture of CO2. Our results support these 
hypotheses, suggesting that achieving soil carbon increases by properly 
managed grazing alone is indeed possible. As noted by Mr. Rich, compost 
can ``jump start'' the process, but may not be needed where other 
appropriate strategies are employed. Supervisor Miller noted that she 
had achieved similar results by adding hay and animal impact on highly 
degraded mine spoil sites, essentially producing compost on site. She 
also reported similar results in a sagebrush-dominated system using 
only in situ organic material and livestock. The Marin Carbon Project 
has solid science on the carbon-beneficial effects of compost 
application to Mediterranean grasslands of California. These results 
suggest that other approaches to enhanced carbon sequestration on 
public lands can also be effective.

10. Congressman Holt suggested that compost applications to 5 percent 
of California would fall far short of capturing the state's carbon 
emissions.

    Compost applications to 5 percent of California would offset all 
the emissions from the California agricultural and forestry sectors in 
the first year of application. It is important to understand, however, 
that the offset from a single application of compost is expected to 
last 30 to 100 years, so that each year, as an additional 5 percent of 
California rangelands is treated with compost, an additional volume of 
carbon dioxide is removed from the atmosphere equal to that already 
being removed on the original treated area, and this removal continues 
in year 3, 4, 5, etc. In addition, we have our agricultural and forest 
lands, which can also be managed for enhanced capture of atmospheric 
carbon. There are also a number of other strategies to combine with 
compost applications to increase the rate of carbon sequestration on 
public lands, including restorative grazing practices.
    We must recognize that reducing emissions alone will not stop and 
reverse global warming; we must capture and beneficially sequester 
atmospheric carbon. The Marin Carbon Project is not suggesting all 
public lands should be turned over to grazing or to compost 
applications. Rather, our work shows that land can be actively managed 
for enhanced carbon sequestration, thereby make a significant 
contribution to the reversal of the climate crisis, and that there are 
a host of ecosystem benefits attendant to doing so.

    Thank you very much for the opportunity to participate in this 
critically important discussion. Please do not hesitate to contact me 
with further questions on this matter.

            Sincerely,

                                  Jeffrey A. Creque, Ph.D.,

                                 CA State Board of Forestry CRM-75,
                  Director, Rangeland and Agroecosystem Management.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Memo dated April 2, 2013 from Sierra Club Grazing Core Team to 
Sierra Club staff & volunteers, regarding Allan Savory's 
proposed application of ``Holistic Management'' to grasslands, 
including desert grasslands, for the purpose of increasing 
sequestration of atmospheric carbon.

The following articles on the subject matter have been 
submitted for the record:

    <bullet> Ecological Society of America, Ecological 
            Applications, (2013) 23(1), pp. 46-59, ``Effects of 
            organic matter amendments on net primary 
            productivity and greenhouse gas emissions in annual 
            grasslands,'' by Rebecca Ryals and Whendee L. 
            Silver.

    <bullet> Ecosystems (2013) 16: 962-979, ``A Lifecycle Model 
            to Evaluate Carbon Sequestration Potential and 
            Greenhouse Gas Dynamics of Managed Grasslands,'' by 
            Marcia S. DeLonge, Rebecca Ryals, and Whendee L. 
            Silver.

    <bullet> Elsevier, Forest Ecology and Management (2014) 
            329: 30-36, ``Long-term livestock grazing alters 
            aspen age structure in the northwestern Great 
            Basin,'' by Robert L. Beschta, et al.

    <bullet> Elsevier, Global Environmental Change (2013) 23: 
            240-251, ``What can ecological science tell us 
            about opportunities for carbon sequestration on 
            arid rangelands in the United States?,'' by Kayje 
            Booker, et al.

    <bullet> Elsevier, Soil Biology & Biochemistry (2014) 68: 
            52-61, ``Impacts of organic matter amendments on 
            carbon and nitrogen dynamics in grassland soils,'' 
            by Rebecca Ryals, et al.

    <bullet> Environmental Management (2013) 51: 474-491, 
            ``Adapting to Climate Change on Western Public 
            Lands: Addressing the Ecological Effects of 
            Domestic, Wild, and Feral Ungulates,'' by Robert L. 
            Beschta, et al.

    <bullet> Hindawi Publishing Corporation, International 
            Journal of Biodiversity (2014) Article ID 163431, 
            ``Holistic Management: Misinformation on the 
            Science of Grazed Ecosystems,'' by John Carter, et 
            al.

    <bullet> Rangeland Ecology & Management (2008) 61: 465-474, 
            ``Carbon Fluxes on North American Rangelands,'' by 
            Tony Svejcar, et al.

    <bullet> Rangeland Ecology & Management (2013) 66: 512-528, 
            ``Climate Change and North American Rangelands: 
            Assessment of Mitigation and Adaptation 
            Strategies,'' by Linda A. Joyce, et al.

    <bullet> The Society for Range Management, Rangelands 
            (2013) 35(5): 72-74, ``The Savory Method Can Not 
            Green Deserts or Reverse Climate Change,'' by David 
            D. Briske, et al.

    <bullet> University of Wyoming (2010) B-1203, ``Grazing 
            Influence, Objective Development, and Management in 
            Wyoming's Greater Sage-Grouse Habitat With Emphasis 
            on Nesting and Early Brood Rearing,'' by Jim 
            Cagney, et al., available at http://www.blm.gov/
            pgdata/etc/medialib/blm/wy/resources/efoia/IBs/
            2010.Par.88692.File.dat/wy2010-022atch1.pdf.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
